<html>
<title> - PACIFIC SALMON MANAGEMENT AND S. 1825, THE PACIFIC SALMON RECOVERY ACT</title>
<body><pre>[Senate Hearing 107-1143]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1143
 
 PACIFIC SALMON MANAGEMENT AND S. 1825, THE PACIFIC SALMON RECOVERY ACT

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON OCEANS, ATMOSPHERE, AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
92-501                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

           Subcommittee on Oceans, Atmosphere, and Fisheries

                 JOHN F. KERRY, Massachusetts, Chairman
ERNEST F. HOLLINGS, South Carolina   OLYMPIA J. SNOWE, Maine
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            GORDON SMITH, Oregon
BILL NELSON, Florida                 PETER G. FITZGERALD, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2002.....................................     1
Statement of Senator Boxer.......................................     1
Statement of Senator Smith.......................................    20
Statement of Senator Stevens.....................................     2

                               Witnesses

Blackwolf, Sr., Harold, Commissioner, Columbia River Inter-Tribal 
  Fish Commission................................................    22
    Prepared statement of Donald Sampson, Executive Director, 
      Columbia River Inter-Tribal Fish Commission................    22
Brazil, Dirk, Deputy Director, California Department of Fish and 
  Game...........................................................    28
    Prepared statement...........................................    29
Caswell, James L., Director, Office of Species Conservation, 
  State of Idaho.................................................    45
    Prepared statement...........................................    47
Crapo, Hon. Michael D., U.S. Senator from Idaho..................     9
    Prepared statement of Hon. Larry E. Craig, U.S. Senator from 
      Idaho......................................................     9
Huntington, Geoffrey M., Executive Director, Oregon Watershed 
  Enhancement Board..............................................    35
    Prepared statement...........................................    36
Johnson, Laura E., Executive Director, Interagency Committee on 
  Outdoor Recreation/Salmon Recovery Funding Board...............    49
    Prepared statement...........................................    50
Knowles, Donald R., Director, Office of Protected Resources for 
  Fisheries, National Oceanic and Atmospheric Administration.....    15
    Prepared statement...........................................    17
    Letter, dated May 6, 2002, to Hon. Ernest F. Hollings from 
      Theodore W. Kasinger.......................................    18
Spain, Glen, Northwest Regional Director, Pacific Coast 
  Federation of Fishermen's Associations.........................    70
    Prepared statement...........................................    72
Thompson, Hon. Mike, U.S. Representative from California.........     5
    Prepared statement...........................................     7
Thorstenson, Bob, President, United Fishermen of Alaska..........    77
    Prepared statement...........................................    79

                                Appendix

Response to written questions submitted by Hon. Ernest F. 
  Hollings to:
    Geoffrey M. Huntington.......................................    96
    Laura E. Johnson.............................................   100
    Donald R. Knowles............................................    85
    Frank Rue, Commissioner, Alaska Department of Fish and Game..   104
    Donald Sampson...............................................    94


 PACIFIC SALMON MANAGEMENT AND S. 1825, THE PACIFIC SALMON RECOVERY ACT

                              ----------                              


                         TUESDAY, MAY 14, 2002

                                       U.S. Senate,
         Subcommittee on Oceans, Atmosphere, and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Barbara 
Boxer, presiding.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. The Subcommittee on Oceans, Atmosphere, and 
Fisheries is called to order. I want to thank my colleagues as 
well as our many witnesses for being here today to provide us 
with testimony on the Pacific Salmon Recovery Act, S. 1825. I 
was extremely pleased to reach across the aisle to work on this 
bill with Senators Craig, Crapo, and Smith, as well as with 
Senators Wyden and Feinstein. I believe that our bipartisan 
effort reflects the tremendous commitment that our five states, 
as well as the tribes in the region, have to salmon recovery.
    In California, as in much of the West, wild salmon stocks 
have collapsed. The results have been tragic. Fishermen have 
lost their jobs. Tribes have lost species that are religious 
and cultural icons, and the environment is suffering. Because 
most of the first salmon listings were in the Pacific 
Northwest, there has been a persistent perception that the 
crisis is only a Northwestern problem. Unfortunately, it is 
also a California problem. A look at the listed and candidate 
species or a comparison of the numbers of acres of critical 
salmon habitat reveals that the situation in California is 
nearly identical to Washington and Oregon. That's not 
necessarily something to be proud of, but it's part of the 
reason that I'm so interested in working together with my 
colleagues to move this bill forward.
    This bill, which was brought to me by Senator Mike 
Thompson--Senator--I just elevated you.
    Mr. Thompson. Those were the days.
    Senator Boxer. Yes. Right, he was a State Senator--by 
Congressman Mike Thompson would help to remedy the Pacific-wide 
salmon problems by providing a comprehensive authorization to 
the existing Pacific Salmon Recovery Fund.
    I'm happy to see Senator Crapo here. Will you please come 
on up and be on our very first panel?
    Specifically, the bill provides $350 million to the five 
states and the associated tribes. It gives priority to the 
restoration of species listed as threatened or endangered under 
the Endangered Species Act. It establishes criteria to ensure 
that Federal funds are not wasted on projects that will not 
benefit fish. It directs the Secretary of Commerce to develop a 
process for peer review of proposed projects to ensure that 
only scientifically sound projects receive funding, and it 
requires states and tribes to provide an annual spending plan 
to Congress as well as a one-time comprehensive plan for salmon 
restoration. And, of course, this bill makes Idaho eligible for 
Pacific Salmon Recovery Fund dollars. And certainly Senator 
Crapo is responsible for that.
    This bill was introduced in December after friendly but 
protracted negotiations among the six cosponsors. That being 
said, it is important to note that this bill reflects a 
compromise. At the time it was introduced, we knew that there 
were features that would be controversial, and the six 
cosponsors agreed at the time of the introduction that we would 
put the bill out there, go through the hearing process to get 
feedback, and then make changes accordingly.
    I am well aware of some of the concerns that our witnesses 
and perhaps our colleagues are going to express today. In 
particular, I know they have had a lot of questions raised 
about the planning requirements that are in the bill and 
whether they create too much of a burden on the states and the 
tribes. We have heard similar concerns about the peer review 
language.
    Last, but certainly not least, I understand that my 
colleagues from Alaska and Washington have concerns about the 
fact that this bill would require the funds to be equally 
distributed among the five states. It was not our intent to 
hijack funds from one state to divert them to another. We would 
like to see some mechanism for ensuring that the funds are 
distributed equitably so that the needs of endangered salmon up 
and down the Pacific Coast are addressed.
    To address these and other issues, it is my intent, and I 
believe the intent of all of our cosponsors, to make 
improvements in this bill so that it can be supported by all 
five delegations. I look forward to hearing from the witnesses. 
Because we have so many witnesses today, I have asked that the 
testimony be limited to 4 minutes, but that does not apply to 
Senators or Congressmen. So, thank you and--Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Madam Chairman, I note that Bob 
Thorstenson, the President of the United Fishermen of Alaska, 
is here. He'll be in the last panel. I have a conflict, but I 
know he's here with his family, and I look forward to seeing 
Bob and regret that I can't be with him when he testifies.
    Let me go back through a little history. Throughout the 
1980s and the 1990s, the United States and Canada were 
embroiled in negotiations on the Pacific Salmon Treaty. That 
had nothing to do with California at all. That was one of the 
most bitter disputes to come between our two nations in 
history. At one point, the Canadian fishermen blockaded an 
Alaskan state ferry that had nothing to do with fishing, but 
they just wanted to protest against the United States, and they 
blocked a ferry from leaving a port in Canada. Alaska fishermen 
and their vessels were seized for fishing in our own waters, 
because Canada suddenly decided that the disputed area of the 
Dixon entrance was not where we thought it was.
    In 1996, we had the Governors of Alaska, Washington, and 
Oregon discuss the need for a negotiation with Canada, and they 
held what was called the Sitka Salmon Summit. The three states 
agreed to seek Federal funds to preserve and enhance salmon 
habitat in their states to provide for more fish to harvest.
    I hope you keep in mind, we're talking about the harvest 
off Alaska. It's half the coastline of the United States, and 
we have proportionally about the same number of fish as 
California has the number of people compared to our state. The 
population of fish is the direct opposite of the population 
balance between California and Alaska. And I say that 
respectfully, as a former Californian.
    We ultimately had $50 million appropriated for the Pacific 
Coastal Salmon Recovery Fund, but the roadblock was the salmon 
treaty. There was just not enough fish to go around. As a 
matter of fact, the federal courts got involved in it in the 
State of Washington, and it had additional difficulties at that 
time. This commitment to seek additional funds for habitat 
protection and fish production provided the incentive for both 
nations to work out the arrangement that would hopefully lead 
to the recovery of the salmon in our area.
    In 1999, the U.S. and Canada finally agreed to this new 
salmon management regime. The Pacific Salmon Treaty of that 
year called for abundance-based management of all U.S. and 
Canadian stocks that intermingle. Alaskan fishermen agreed to 
large harvest restrictions in order to help protect Washington 
and Oregon stocks from Canadian over-fishing. And the system 
started to work.
    Congress closed the deal by passing my amendments to the 
Pacific Salmon Treaty Act. Those provisions streamlined the 
Pacific Salmon Commission and gave effect to the treaty's weak 
stock-management provisions. Since Fiscal Year 2000, Congress 
has appropriated about $250 million for the Pacific Coastal 
Salmon Recovery Fund. Our continued commitment to habitat 
protection and fish production in Alaska, Washington, and 
Oregon made that 1999 salmon treaty a success. We continue to 
believe it's a success.
    I am worried about this bill, Senator Boxer, for several 
reasons. The funds that were made available for salmon habitat 
and fish production, they're not available on any kind of 
population basis. They're not equally allocated between the 
states, because the states have different problems. We're the 
ones that agreed to give up fish in order to get this treaty 
passed. The habitat was supposed to help us improve the 
production of fish in our state. Salmon fishing is much more 
important to Alaska than it is to any other state. Half of the 
people that have an income in my state have some income derived 
from the production of fish.
    Now, this is not the case with any of the other states 
involved. Washington State feels the brunt of the Endangered 
Species Act far greater than any other state so far. And 
sending the same amount of money to other states would ignore 
the fact that Washington has this enormous problem to contend 
with with regard to litigation and the result of that 
litigation involving endangered species.
    This bill would expand the number of entities which receive 
funds. In our state alone, we have 227 villages that are now 
recognized as being tribes. This bill would give them equal 
access to the money, compared to the State of Alaska, which has 
the overall jurisdiction. The bill also gives priority to 
salmon stocks listed under the Endangered Species Act.
    There are no endangered species of salmon in Alaska, but if 
$27 million is available for endangered species we're liable to 
have some litigation to try and prove there are. The National 
Marine Fisheries Service has never found that, and neither has 
our State Department of Fish and Game. I would hope that we 
would not allocate funds based upon the application of federal 
laws designed to protect endangered species. The only state 
that has really big problems so far is Washington. California 
may have it in the long run on the steelhead, but I don't know. 
Congressman Thompson and Senator Boxer would know better than 
that--about that than I do.
    We have been developing plans and spending money on the 
priorities coming out of the Pacific Salmon Treaty. To confuse 
that solution with the problem that you face in Oregon, 
Washington, California, and Idaho I think is wrong. You're 
facing the problem of stocks that are not intermingling with 
Canadian stocks like ours are. The funding we have had so far 
has been related to the Pacific Salmon Treaty.
    Now, Idaho may have some claim to some of those funds. I 
don't dispute that, because they are the spawning grounds for 
the Washington portion of the salmon covered by the Pacific 
Salmon Treaty. But I hope you all keep in mind the reason we 
had the funding in the first place was my state agreed to give 
up and totally regulate the harvest of salmon in Southeastern 
Alaska at a rate no other state has ever done. Now, to start 
allocating money between states proportionally I think is 
entirely wrong. And I want you to know I will not support this 
bill the way it is. I don't think Washington will support the 
bill the way it is either.
    I hope you're going to be willing to sit down and work 
something out. We're perfectly willing to help you restore your 
stocks, but we want you to not interfere with the program we 
have underway which has been funded--and, by the way, all of 
the money has been spent for fish. Nothing has been spent for 
anything else, not for government or for any other needs. This 
is habitat and science-related money that we're dealing with to 
try and deal with the salmon that intermingle with Canadian 
salmon.
    So, Madam Chairman, I hope you will keep the subject 
straight. I'll be perfectly willing to work with you on a 
salmon recovery program for the Pacific Coast, and that should 
come, and it should be a high priority. I believe it entirely. 
But to say now that we want to reallocate these moneys that are 
available under the Pacific Salmon Treaty I think, is wrong, 
and I hope that you will not proceed with it on that basis.
    Senator Boxer. Senator, I'm very glad that you took the 
time to come over here and put your concerns on the record. We 
think we can allay those. We know that when Mike Thompson moved 
this bill over on the House side, he did get the support of Don 
Young, is my understanding, he did get the support of Norm 
Dicks, is my understanding, but maybe they didn't see some of 
the threats that you and your staff have uncovered. And it's 
not our intention in any way to threaten, you know, any 
existing treaties or--we want to be helpful, so I'm just very 
grateful to you for coming over here.
    I wonder, Senator--which of you would like to speak first, 
because, for me--it's up to you.
    Senator Crapo. Well, I was assuming that Mr. Thompson 
would, because it's his bill, but I'd be glad to go either way.
    Senator Boxer. All right. Mike, do you want to start, and 
then we'll go to Senator Crapo.

               STATEMENT OF HON. MIKE THOMPSON, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Thompson. Well, thank you very much. Senator Boxer, 
thank you for introducing this bill and for holding this 
hearing. Senator Stevens, thank you for being here. I think 
your insight on the historical provisions of this issue are 
very, very helpful, and may, in fact, help us resolve this 
issue. Maybe we can find a way that we can separate the 
problems of those of us in California and Idaho, Oregon, and 
Washington, separate and apart from those problems that you 
have in Alaska. Maybe we should just bifurcate the states--
bifurcate the bill to apply one set of solutions to Alaska and 
then deal with the habitat problems that we, in the Lower 48 
are experiencing. That's certainly a possibility.
    Senator Stevens. We have a bill. We don't need another law. 
We would be happy to work on a solution for you, but we don't 
need another law affecting Alaska.
    Mr. Thompson. Well, that's why I say maybe we could 
bifurcate it and do a law that helps the Lower 48 and lets you 
guys continue with the program that you have. But, in saying 
that----
    Senator Boxer. I think you hit a very important point. The 
Senator says, ``I'll be happy to work with you on that,'' and I 
think that's good news for us.
    Mr. Thompson. Thank you. I just don't want my willingness 
to acquiesce to lead anybody to believe that this isn't an 
extremely important issue for those of us in California, 
Oregon, Washington, and Idaho. The fact is--and I'll speak 
mostly from a California perspective--but the coastal 
communities that I represent, and those that run up the entire 
length of the coast, exist in large part because of historic 
numbers of fish. Fisheries were a very important industry and 
were, in fact, the glue that held those coastal communities 
together for many, many years. But over the past few years, 
we've seen an incredible decline in the number of fish, and 
this is for a number of reasons: water diversions, urban 
development, agricultural practices, forest practices, and even 
fishing. All of those have taken a toll on the fish 
populations. And as we know, you can have everything going for 
you except habitat, and you're not going to have fish. That is 
the critical element that is hurting us right now.
    And in California, on the North Coast, we're at about 10 
percent of our historic salmon numbers based on the historic 
highs of the 1800s. If you take the Trinity River alone, 
they've lost about 80 percent of their king salmon, and they've 
lost about 60 percent of their steelhead over the last 50 
years. The Central Valley in California has lost 70 to 90 
percent of its historic spawning and rearing habitat, which has 
taken a tremendous toll. There's 214 Pacific Coast anadromous 
fish populations that are at risk and another 106 that are 
already extinct. So this problem is very, very serious.
    In my district alone, if you look at the numbers from 1988, 
the sport and commercial salmon fishing created an industry, a 
regional industry, of about $1.25 billion. Since then, we've 
lost about 80 percent of that job base. The loss of salmon-
related jobs in the past 30 years is nearly 75,000, so 75,000 
families that have lost their job because of the downturn in 
fish numbers.
    If you look at the fish that were caught--if you look at 
the coho salmon that were caught between 1981 and 1985 and the 
number of licensed fishing vessels in my district, you go from 
3,243 boats that, in addition to their other catch, brought in 
nearly 60,000 coho salmon. Today, there's 725 boats. And as I 
think everyone knows, there's no allowable catch for coho. You 
cannot catch coho.
    Eureka Fisheries, which is a commercial processing plant in 
Eureka, California, and Crescent City, California--and those 
combined populations of those two cities is about 30,000 
people--that company has lost 140 jobs, and that directly 
corresponds with the number of fish that aren't being caught 
anymore. And from 1976 to 1980, the cities of Fort Bragg, 
Eureka, and Crescent City were responsible for catching 4.8 
million pounds of salmon. Today, combined, they catch 58,000 
pounds of salmon per year.
    It's not uncommon for a commercial fisherman in my district 
to have to travel over 300 miles to fish because of the 
closures in their home-port waters. And it's affected every 
business, from the people that supply, you know, fly rods and 
flies to sport fishermen to timber companies that today have to 
spend millions of dollars in order to prepare aquatic habitat 
conservation plans to make sure that we don't have 
sedimentation problems that further exacerbate the salmon 
numbers.
    Now, the past help that Congress has provided is 
appreciated, and it's certainly helped to some regard, but 
there's a lot more help that needs to be done. And Senator 
Stevens mentioned that it is--it's just the salmon industry in 
Alaska, as opposed to other industries in California, but I 
want to point out that it's no longer just the fishing industry 
in California. Because of these listings that we have, because 
of the downturn in fish numbers, it's no longer just the 
commercial fishermen and related businesses, just the sports 
fishermen and related business, now it's everything. It's 
timber companies, it's agricultural practices, it's gravel 
harvesting, it's real estate development, it's road 
maintenance, it's Native American heritage issues that are at 
play. Local governments' water districts are having to do tests 
to make sure their sedimentation levels aren't high. They've 
had disruptions in delivery of water. It's all of the above 
that is affected now, no longer just fish.
    California has a great program that helps quite a bit. It's 
my hope that working with all of you, we'll be able to 
supplement that program, provide the moneys that are necessary 
in order to restore these habitats and bring back these fish 
numbers to, if not the historic numbers, something that will at 
least let people make a living.
    So thank you very much.
    Senator Boxer. Thank you so much, Congressmen.
    [The prepared statement of Mr. Thompson follows:]

               Prepared Statement of Hon. Mike Thompson, 
                  U.S. Representative from California

    Senator Boxer and Members of the Committee, thank you for the 
opportunity to provide testimony on S. 1825, the Pacific Salmon 
Recovery Act. I appreciate the Subcommittee's continuing leadership on 
the fishery issues of the Pacific Northwest. I am also grateful to you 
Senator Boxer, and Senators Craig and Crapo who introduced the bill, 
Oregon Senators Smith and Wyden who were original co-sponsors, and the 
other Members of both the full and Subcommittee who have co-sponsored 
this important legislation.
    I want to thank the witnesses who have taken the time to testify on 
this measure, many of whom traveled thousands of miles to be with us 
today. In particular, I would like to thank Glen Spain of the Pacific 
Coast Federation of Fishermen's Associations from Portland, Oregon and 
Bob Hight, Director of the California Department of Fish and Game for 
their continuing dedication to this issue.
    Salmon and steelhead trout have long been a critical component of 
the culture and economy of the Pacific Northwest. The port towns of the 
West Coast grew up around the salmon industry and the harvesting of 
salmon and other fish have served as the financial backbone for most of 
these communities.
    However, times have been tough for these communities, as the 
fisheries have declined. While salmon are still an integral part of the 
culture of my district, decades of water diversions, dam building, 
overfishing, resource practices, and urban development have had a 
terrible impact on the rivers and streams of the Pacific Northwest. By 
the late 1990s, West Coast salmon populations had declined to only 10 
percent of what it had been in the 1800s. California's Trinity River 
system alone has lost more than 80 percent of its King Salmon and more 
than 60 percent of its Steelhead Trout over the past 50 years. In the 
Central Valley, 70-90 percent of historical spawning and rearing 
habitat has been lost.
    According to the American Fisheries Society, at least 214 Pacific 
Coast anadromous fish populations are ``at risk,'' while at least 106 
other historically abundant populations have already become extinct. 
Twenty-six distinct population segments of Pacific salmon and sea-run 
trout are listed as either endangered or threatened under the 
Endangered Species Act (ESA). California alone accounts for 11 of those 
endangered listings.
    With the commercial harvesting of coho salmon completely illegal in 
my state and other species not far behind, hundreds of our fishing 
families have been forced out of work. Many of our local economies have 
subsequently suffered. As recently as 1988, sport and commercial salmon 
fishing in the Pacific region generated more than $1.25 billion for our 
regional economy. Since then, salmon fishing closures have contributed 
to the loss of nearly 80 percent of our region's job base, with a total 
salmon industry loss over the past 30 years of approximately 72,000 
family wage jobs.
    The fleet of commercial fishermen off the North Coast of California 
has dwindled from 3,243 vessels to 725 since the 1980s. These boats 
used to catch upwards of 60,000 coho salmon. Today, fishing for coho is 
prohibited due to its listing as an endangered species. It has 
subsequently closed most commercial fishing operations between Coos 
Bay, Oregon to Bodega Bay, California.
    The impact on commercial fishermen has also translated into lost 
jobs in other fisheries reliant industry. As recently as July of 2001, 
Eureka Fisheries Incorporated laid off 140 people in the small Northern 
California towns of Eureka and Crescent City because they don't have 
enough fish to process. Salmon landings at Fort Bragg, Eureka and 
Crescent City declined from 4.8 million pounds per year from 1976 
through 1980 to approximately 58,000 pounds per year today.
    As an example, commercial salmon fisherman Dave Bitts from 
California's North Coast has had to spend May through August for the 
last 10 years at least 300 miles away from his home port to fish for 
salmon. That's because the salmon season has been virtually closed in 
the Klamath Management Zone, which covers nearly half of the California 
coastline. Mr. Bitts has to travel to San Francisco and south to fish 
for salmon, placing not only significant strain on his family life but 
also his pocketbook.
    Ideally, when salmon fishing is prohibited for ocean fishermen, the 
stocks would become healthier and we would be able to sustainably 
harvest salmon again. Unfortunately, when efforts to ensure healthy 
habitat and spawning beds for the salmon are not practiced upstream, 
salmon populations do not have the chance to replenish themselves. 
Without adequate and consistent funding for salmon habitat restoration 
upstream--like that outlined in S. 1825--the salmon populations will 
continue to decline.
    These dire circumstances aren't limited to the commercial fishing 
industry. It crosses all spectrums from our regions other industries--
timber, recreational fishing, processing plants, ice factories, grocery 
stores, restaurants and tourism. Examples include:
    In 1998, the Governors of California, Oregon, Washington, and 
Alaska made a joint appeal to create a $200 million fund for coastal 
salmon restoration with funds to be divided equally among the 
participating states. The Administration responded in the FY 2000 
budget with a request for $100 million. Under the initial House budget, 
the salmon recovery program was zeroed out. Funding was restored in 
conference with the Senate but, when the final package went to the 
President that October, only $9 million was included for California.
    This year, the Administration's budget request includes $110 
million for the Pacific Salmon Restoration Fund. Unfortunately, only 
$90 million goes to the states and tribes in need. While the 
Administration's request is critically important, I believe our efforts 
need to be expanded.
    Last summer, a bill that I introduced in the House, H.R. 1157, the 
Pacific Salmon Recovery Act passed overwhelmingly by a vote of 418-6. 
All the members of the Washington, Idaho, Oregon, Washington and Alaska 
delegations as well as most of California's members voted for this 
bill. This bill authorizes $200 million in federal assistance to the 
five Pacific states of Alaska, Washington, Idaho, Oregon and California 
for the restoration of salmon and anadromous trout habitat, as 
requested by the four governors. More important, it guarantees equal 
funding among the five states and would require broad conditions under 
which the money must be spent while allowing maximum flexibility to 
each state in setting priorities.
    At a minimum, use of the funds must be consistent with the goal of 
salmon recovery, establish specific goals and timelines for activities 
funded, and include measurable criteria by which such activities can be 
evaluated.
    The bill also requires that activities carried out with funds from 
this program be scientifically based, cost-effective, contribute to the 
protection or restoration of salmon, and not be conducted on private 
land except with the consent of the owner of the land.
    Other provisions include tight restrictions on agency overhead 
costs, a requirement to provide public participation in the grant-
making process, and assigning priority to those species that are listed 
under the federal Endangered Species Act.
    The money allotted to California last year was extremely important, 
but there is no reasonable justification for our state receiving less 
than an equal share of available funds. With 11 threatened and 
endangered species listings to contend with, California is in as much 
need as the other Pacific coastal states. Successful passage of the 
Senate bill is essential to ensure that these much-needed funds are 
distributed to the states. Taking preventive action like habitat 
restoration, as this bill would do, will save our coastal communities 
the additional devastating economic and social costs associated with 
endangered species listings. The House and Senate bills require that 
the funds for salmon restoration be distributed equally among the 
participating states, and this is critical to ensure continued funding.
    Early efforts at the state level have begun the process of 
reversing the decline of our salmon economy. Private landowners, 
conservation groups, and industry have committed to the lengthy process 
of repairing the damage done. It is now time for the Federal Government 
to increase its commitment to salmon restoration.
    For instance, a joint project in my district between Trout 
Unlimited and Mendocino Forest Products has produced significant 
success in repairing a river in Mendocino County by upgrading and 
decommissioning 8.75 miles of roads. This work stopped an estimated 
28,855 cubic yards of road-related sediment from being delivered to the 
South Fork of the Garcia River (a major salmon and steelhead river). A 
standard dump truck you see doing roadwork has a 10 cubic yard 
capacity, so this work kept 2,800 dump truck loads of dirt out of 
critical salmon/steelhead waters. Their work also entailed upgrading 
the remaining roads in the basin to withstand major storm events in 
addition to supporting traditional timberland usage.
    Because of this project, we are in position to restore Coho salmon 
to a restored sub-basin. Until now, reintroduction efforts in this 
river have usually involved putting fish back into the same conditions 
from which they disappeared and hoping that something will be different 
and that the fish will take to their changed surroundings.
    We will never return to what was once ``business as usual.'' 
However, by stabilizing and restoring our salmon numbers through 
habitat recovery, we can lessen the regulatory pressure on industry and 
reduce the risk of new surprises. We must demonstrate our support for 
state, local, and private efforts to halt the decline of Pacific Salmon 
by fully funding salmon restoration efforts. This is why I support S. 
1825.
    I urge you to pass the Senate's Pacific Salmon Recovery Act. Doing 
so will enable all Pacific Northwestern states to undertake more 
projects like the one described, and protect the land, water and 
economy of the entire region. Making this investment today will ensure 
that these once strong rivers will have a healthy salmon future and 
reduce the financial and regulatory strain which has had an enormous 
effect on our timber, home building, real estate and business 
communities of the Pacific Northwest and California.

    Senator Crapo?

              STATEMENT OF HON. MICHAEL D. CRAPO, 
                    U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you very much, Madam Chairman. And 
before I begin, I don't know whether he will arrive, but in the 
event that he does not arrive, I would ask that Senator Larry 
Craig's testimony be made a part of the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Craig follows:]

   Prepared Statement of Hon. Larry E. Craig, U.S. Senator from Idaho

    Good afternoon. I would first like to thank Senator Boxer and her 
staff for their hard work and voice my appreciation for Senator Boxer's 
commitment to have a bipartisan bill on salmon recovery. I also want to 
thank my colleague from Idaho, Senator Crapo, Senators Gordon Smith and 
Wyden from Oregon, and Senator Feinstein from California, for their 
valuable input that helped to create a responsible and effective bill. 
I enjoyed working with all of them and their staff.
    For over 20 years, the Federal Government and the States of 
California, Idaho, Oregon, Washington, and Alaska, have invested 
billions of dollars attempting to sustain salmon runs in river basins 
throughout the West. Many Idahoans and special interest groups from 
around the country have criticized these huge expenditures, pointing to 
poor coordination among state, federal, and tribal fish & wildlife 
agencies, and to ineffective programs developed either by those 
agencies or under their supervision.
    We need only look at the number of policy development planning (or 
pre-planning) activities under way or still in force in the Pacific 
Northwest to understand how unwieldy our region's efforts to save 
salmon have become and why an overhaul of the current process is 
urgently needed.
    The bill we are discussing today, ``The Pacific Salmon Recovery 
Act'' (S. 1825), takes dead aim at these infirmities and establishes a 
framework that will ensure better coordination and more effective 
recovery programs.
    I am convinced that we'll get better ``bang for the buck'' if this 
bill is enacted.
    However, salmon recovery is complex. Scientific research has 
underscored the difficulty in finding quick answers to this complex 
issue. Objective scientists have been candid in stating unequivocally 
that there is no ``silver bullet'' that can cure what is happening to 
the fish or, for that matter, help us quickly understand what is 
happening to the fish.
    In my opinion, the intense focus on dam removal during the last 
several years has retarded progress in our understanding of what is 
happening to the fish. But, more importantly, it paralyzed our ability 
to take actions that could have had some incremental benefits to 
juvenile and adult salmon survival.
    There are some important facts that were often clouded and, at 
times, ignored during the last 5 years of debate about removing dams in 
the lower Snake River. One of those facts is that the majority of a 
salmon's life cycle is spent in the ocean. It is there that the salmon 
grows to adult size after nourishing itself for several years, 
preparing for the arduous journey back to its spawning area.
    What is becoming increasingly clear from new empirical data and 
fascinating new ocean research is that years of warm ocean temperatures 
caused reductions in food supply for the fish. That impact on the 
ocean's carrying capacity is still being studied, but clearly effected 
the size and strength of salmon populations in the ocean and their 
ability to successfully make the tough journey home to spawning areas 
throughout the West.
    More research in this area will provide helpful insight as to what 
can be done to adjust to that devastating fact. But recent adult 
returns--numbers not seen since 1938--have renewed my hope that all is 
not lost. The recent change to colder Pacific Ocean temperatures is 
widely credited for the record salmon returns that the Pacific 
Northwest has experienced during the last 2 years.
    It is my hope that a more open dialogue on ways to approach salmon 
recovery will ensure continued progress on effective measures that will 
both recover these fish and protect the economy of the West. It is my 
belief that this bill will enhance the prospect of achieving that goal.
    There are many good provisions in this bill. For example, it 
authorizes $350 million a year over the next five years to be spent on 
salmon recovery. This is a sizable expenditure of money that I believe 
is justified. However, we must persuade the American taxpayer and their 
representatives in Congress that this cost is justified. This will not 
be easy, but there are some provisions in this bill that should help us 
make a compellingly case to the American people.
    The peer review provisions in this bill require each state or 
tribal science based recovery activity to undergo a uniform scientific 
peer review before that activity will be funded with federal money. It 
is modeled on the very successful uniform peer review requirement 
established for the Pacific Northwest States by Congress in the 
Northwest Power Act for state and tribal salmon recovery programs that 
get Pacific Northwest ratepayer money.
    I do not believe that having five separate forms of scientific 
review, each form representing a different state's review process, 
provides the kind of uniform accountability that will likely be 
necessary in order to effectively sell this program to American 
taxpayers and their representatives in Congress.
    Ensuring ``accountability'' for large expenditures of taxpayer 
money is essential to keep the trust of the American taxpayer. The 
American taxpayers are entitled to a fair accounting and an objective 
review of the underlying science that supports many of the very 
expensive recovery plans, particularly the salmon supplementation and 
habitat restoration programs, that will be developed by the states and 
participating tribes. The peer review requirement in this bill should 
provide the reasonable assurances of competency for those expensive 
programs that the taxpayer deserves.
    Again, I thank my colleagues for their strong support and 
commitment to include Idaho in the quest to achieve successful salmon 
recovery in the West and for their tireless efforts to draft the 
appropriate legislative framework in which to accomplish the complex 
task of recovering those marvelous and important fish.
    Thank you.

    Senator Crapo. Thank you very much. And, Madam Chairman, 
thank you for inviting me to testify today on S. 1825, the 
Pacific Salmon Recovery Act. I specifically want to thank you 
and Senator Smith for your leadership on this issue, an issue 
that's critical to our region's biological, economic, social, 
and environmental well being, the recovery of our threatened 
and endangered salmon and steelhead. It's a priceless national 
treasure in the Pacific Northwest that is in dire straits.
    Icons of our region, wild salmon and steelhead teeter on 
the brink of extinction. And these anadromous fish are one of 
the best examples of the power and mystery of nature as well as 
the historical, cultural, and biological legacy in the West. 
This heritage must not end. We have the formidable 
responsibility of assuring that these fish are recovered to 
viable, sustainable, and fishable levels.
    Our anadromous sport and commercial fisheries are valuable 
parts of our Pacific Northwest economy, including Alaska and 
Western Canada. And I won't go into it today, but the same 
kinds of things that have been said today about what the 
impacts are in California could be said about Idaho as well as, 
I know, about Washington and Oregon. The impact of the loss of 
these fish, economically alone, has been devastating. But it's, 
again, I want to say, not just the economic impact that we are 
here to talk about today. These fish are a part of our culture 
and our heritage, and we must do what we can to save and 
recover them.
    Every state and province in the Pacific Northwest makes a 
biological contribution to our anadromous fish stocks, 
important contributions that have economic consequences, as 
well. It follows that every state should share in federal 
resources that fund the various anadromous fish recovery 
mechanisms. It is biologically, economically, and logically 
incorrect to isolate any state and deny federal funding that 
helps fix the problems in that state.
    The Pacific Northwest salmon and steelhead have continued 
to decline to dangerously low levels, and extinction is 
possible--in fact, many say imminent--if we don't proceed 
quickly with an aggressive plan of action. We can do so in a 
manner that honors principles of state water sovereignty, 
states' rights, and private property rights. And I believe that 
S. 1825 does that. This bill provides us a unique opportunity 
to increase resources to the states where fisheries managers 
can implement restoration actions that provide the greatest 
benefits to these fish.
    The condition of these fish is a regional problem for the 
Pacific Northwest with multiple causes throughout the entire 
region. Without the federal funds necessary for each state to 
fully participate via their respective recovery actions, the 
success of the actions of every other state is jeopardized. 
These fish hatch, live, spawn, and die without regard to 
political boundaries.
    Let me make it very clear. We will not have regional 
anadromous fish recovery unless Idaho receives significant 
support for our efforts at salmon recovery. Failure of a 
region-wide recovery will result in legal, economic, cultural, 
and biological consequences that must be avoided. One of the 
objectives of this legislation is to authorize federal 
resources to be spent for anadromous fish recovery in Idaho.
    Madam Chairman, I've attached a document to my testimony, 
prepared by the Idaho Department of Fish and Game, that 
provides some insight into Idaho's salmon challenges and why 
it's so critical that our state is authorized to receive funds 
for salmon recovery. I'm going to highlight just a couple of 
those in an effort to be brief. *
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Historically, the Snake River wild salmon and steelhead 
runs maintain the Columbia River fish hatcheries that have 
harvested 60 to 70 percent of the fish that have entered the 
river--that's the Columbia River--and tributary fishers that 
took another 30 percent of the remaining fish yet still return 
plenty of adult fish to spawning grounds to sustain high levels 
of production. Decline of the spring, summer, and fall chinook 
salmon and steelhead in Idaho greatly constrains fisheries not 
only in Idaho, but in Pacific Coastal and Columbia River 
fisheries. This affects communities and economies outside as 
well as within Idaho.
    Idaho has the largest contiguous area managed for wild, 
native, spring-and-summer chinook salmon and steelhead in the 
entire Columbia Basin and probably in the lower 48 states. 
These areas serve as genetic refugia and serve as a foundation 
for natural life history expression and genetic diversity. 
Intact native populations of salmon and steelhead that are not 
interspersed with hatchery fish are largely lost from the 
Columbia Basin and probably from the entire Pacific Coast. 
Idaho's refugia also serve as important for monitoring 
responses in natural production to recovery actions.
    What makes S. 1825 and the funding that accompanies it an 
even more pressing need is the biological opinion for the 
Federal Columbia River Power System published in December of 
2000. Although the bi-op was written to avert jeopardizing the 
continued existence of salmon and steelhead as they migrate 
through the dams, it called for unprecedented change in the 
roles and responsibilities of the states in that burden for 
mitigating these federal water projects, and it shifted that 
burden to the states. Through the reasonable and prudent 
alternatives in the biological opinion, the states are 
compelled to undertake offsite mitigation measures, 
particularly habitat work in the tributaries, that ensure 
continued operation of the Federal Columbia River Power System. 
Obviously, this places an immense financial burden on the 
states, a burden that the Federal Government cannot expect them 
to shoulder alone.
    We have only a very short window of opportunity under the 
bi-op--6 to 8, perhaps 10 years at the maximum--during which we 
must make significant progress toward conserving this precious 
biological legacy. If we fail, we will not get a second chance 
to save these fish.
    S. 1825 will assist states in implementing the swift and 
aggressive restoration measures that are critical to rebuilding 
populations by providing the necessary funding. It's long 
overdue that Congress authorize and appropriate adequate 
funding for restoring the declining salmon and steelhead runs 
in the West. In fact, I've proposed that funds be significantly 
increased to install fish steams, restore degraded habitat, 
undertake additional research and monitoring, improve harvest 
techniques to limit by-catch of listed salmon in stocks, 
retrofit hatcheries, increase the availability of water for 
fish, limit trucking of juvenile salmon and steelhead, conduct 
estuary restoration and research, improve fish passage, and 
control predatory birds.
    As Senator Boxer has expressed, concerns have been raised 
with regard to this bill, and I have met personally with 
Senator Stevens to discuss the concerns that he raises. He 
raises very important and legitimate concerns. And nobody that 
we've worked with in putting together this bill wants to cause 
any of the impacts that Senator Stevens says we must avoid. We 
can work together, and I'm confident that we can find ways to 
address these issues. We do not want to detract from the 
importance of meeting the treaty obligations that Senator 
Stevens identifies. We do not want to cause problems in Alaska 
or any other place that has these kinds of difficulties or is 
dealing with its own side of the issue, in terms of fish 
recovery and strengthening of our fish runs. And I'm confident 
that we can achieve that.
    I believe I can speak, though, for the other cosponsors of 
this bill in saying that it is our strong desire to address 
these concerns as we move through the process and to find a 
solution that we can all lock arms together on and work 
together to support.
    The central component of S. 1825, in my opinion, is 
restoring and strengthening funding to the states as we seek to 
recover and strengthen these fish, these incredible fish. This 
is an objective that should not be brought down by difficulties 
in achieving the needs of different regions, such as Alaska or 
California or Washington, Oregon, and Idaho.
    Again, Madam Chairman, I thank you for this opportunity. 
It's critical that we work together to build a strong, united 
path forward for restoring these fish.
    Senator Boxer. Thank you so much, Senator. I just wanted to 
say I thought you both were quite eloquent on the point, and it 
is such a fervent desire on our part to work something out. And 
I think with that desire, we can do it if we all come to the 
table and say, ``This can't stand. We have to fix.'' I think we 
can do it.
    I wonder, Senator, if you had any questions for either of 
our friends here.
    Senator Stevens. Well, do either California or Idaho have 
charges to those people who harvest these fish now? We have--
for instance, we have a king tag. In order to be a sportsman 
and catch the king salmon, you have to have a king salmon tag, 
you have to buy one of those tags, and you'd better have it in 
your possession if you have a king that you've caught. And we 
limit the number you can catch. And we, as a matter of fact, 
severely limit now even the catch of the hand trawlers and the 
commercial fishermen of Southeastern Alaska. Do you have 
similar measures?
    Senator Crapo. Well, let me speak first for Idaho. Idaho, 
since it is an interior state, does not have the kind of 
fishery that you are describing, I think, in Alaska. However, 
when the fish are returning to spawn in Idaho, occasionally we 
are allowed to fish for them if the returns are large enough.
    In Idaho, there is a total ban on catching any natural 
fish. Only hatchery fish are allowed to be caught, period. And 
if a wild fish is caught, it has to be immediately released. 
There is a charge--there is a tag that must be purchased by 
anyone who fishes for these fish.
    But, you know, you asked if there were restrictions on the 
catch. In Idaho, there is a total ban on all fishing, most 
years. In some years, when the runs are large enough and there 
are enough hatchery fish coming back, they open the fishing 
season for a period of time to allow some catches of the 
hatchery fish.
    Mr. Thompson. Senator, in California, we have very severe 
limitations and restrictions on our fishing. There is--for 
sport fishermen, you have to carry so much paper when you go 
out into the stream, it almost has an effect on the tree 
harvesting in California. You have salmon and steelhead punch 
cards, and they very tightly regulate that.
    But, as I mentioned in my testimony, that there are some 
fisheries that are absolutely closed. You can't catch coho 
salmon. And the commercial industry has been regulated so 
tightly that fishermen up in the northern part of the area that 
I represent have to leave. They have to go down past San 
Francisco in order to catch fish.
    Senator Stevens. Well, I wish you luck. We have a lot of 
barren streams. We have a lot of areas that used to produce 
tremendous amounts of salmon, and they don't produce them 
anymore. We've tried to restore those streams, and we've been 
blocked by litigation and other restrictions. Habitat is one 
thing. Access to habitat for restoration of runs is an entirely 
different thing. I don't think this bill goes far enough to 
cover that, because it is a collision course for some people 
who just don't believe we should be able to interfere with 
nature and to, in effect, restore what has been destroyed.
    Second, I would tell you, and a lot of people aren't going 
to like this, but with the tremendous increase now in ocean 
mammals off the Pacific Coast and Alaska, they're joining the 
club and eating more fish, and there has to be some sort of 
balance somewhere along the line here between man and mammal, 
and I don't know where it is, and I don't think you even come 
close to it with this bill. But it is an enormous difficulty to 
restore these runs and to maintain them.
    We have had several areas of Alaska that have restored 
their runs. I think Prince William Sound is a good example. 
Those people did it with their own money. They put a tax on 
themselves of so many pennies for each fish, put it into a pot 
and built several hatcheries, and they're very successful. But 
they were lucky because they have that inland water to do that, 
but I think you're going to have to explore restoration as well 
as--fish production as well as restoration of habitat. Habitat 
alone won't give you fish runs.
    Thank you very much, Madam Chairman.
    Senator Boxer. Did you want to respond?
    Senator Crapo. Madam Chairman, I would like just to respond 
to address Senator Stevens briefly. I just wanted to say to 
Senator Stevens, in the presence of the Committee and on the 
record, that I appreciate the opportunity I had to visit with 
him personally about this issue. I want to reassure Senator 
Stevens that nothing in my intent, and I don't believe the 
intent of any of the cosponsors of this bill, is aimed at 
trying, in any way, to reduce the amount of resources that go 
to Alaska to address these issues. In fact, I'd be very 
supportive of increasing them. And I wanted to thank Senator 
Stevens for what he said to me personally and what he has again 
said here today, which is that he recognizes that Idaho, as the 
spawning ground, has a role in these ocean fish, these 
anadromous fish, and that he will support finding a way for 
Idaho to participate in the funding, and then Idaho will work 
with the rest of the region, as we have said in this bill, to 
address putting together an aggressive approach to restoring 
and strengthening the Pacific Coast salmon recovery efforts. 
And, Senator Stevens, I just want to personally thank you for 
you commitment to work with us on that objective. If we haven't 
got it right here, we'll get it right, and I appreciate the 
chance to work with you.
    Mr. Thompson. Thank you, Madam Chair. I'll associate myself 
with the comments that Senator Crapo made. I appreciate your 
work on this and appreciate what you've done in the past to 
help the overall fishing industry, and specifically the fishing 
industry in Alaska. And working with you will be an honor to be 
able to work together to fix this problem.
    On the issue of private property, I just want to mention 
that we've had tremendously good luck in California, the way 
that the law is written there, where we require that any of the 
private property restoration work has to be done with a willing 
property owner, and we have an independent panel set up to 
evaluate proposals. And there was some reluctance when we first 
did this on the part of some of the private property owners. 
They thought the government was going to go in with a heavy 
hand and tell them how they were going to have to manage their 
property. And we found out that--working cooperatively with 
them, they've found out that it's not going to be like that, 
and it's worked out quite well, and we've had great results.
    And there's a number of projects that we're doing right 
now, private-public partnership projects, that are working 
extremely well, and I'd be happy to--and I'd like to invite any 
of you up to see those and see firsthand the impact it's having 
on the habitat and on the fish numbers.
    Senator Stevens. Thank you very much. I look forward to 
working with you. You've got a lot of problems out there, and 
there's a lot of resources projects, and working this out--if 
you can restore the runs, they still have to have access to and 
egress from the river and habitat areas, so it's a long road 
ahead, but I'll be happy to work with you on it. Thank you.
    Senator Boxer. Senator Stevens, I can't thank you enough 
for coming--really appreciate it. And I want to thank our two 
Members of Congress, because they have worked--they care so 
deeply about this, and we're in this for the long haul. And 
when Congressman Thompson got this bill through, he said, ``OK, 
Barbara. I got it through, now let's go.''
    [Laughter.]
    Senator Boxer. Well, he didn't know the Senator Stevens 
story or a few other stories. We're going to work it out, 
though, and I'm just delighted to have both of you here. And my 
thanks for your leadership, and Senator Crapo, as well.
    Mr. Thompson. Thank you very much.
    Senator Crapo. Madam Chairman, again, thank you for your 
leadership on this issue.
    Senator Boxer. All right. Well, we'll stick with it until 
we get this right.
    Mr. Donald Knowles is here from the administration. Is he 
here? Could he come forward, please?
    Welcome, Mr. Knowles. I'm going to set this in the hopes 
that we can try 4 minutes, but if you go over, fine, but we'll 
try, just because I've got a schedule and we've got many people 
to hear from, so please proceed.

 STATEMENT OF DONALD R. KNOWLES, DIRECTOR, OFFICE OF PROTECTED 
               RESOURCES FOR FISHERIES, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Knowles. Thank you, Madam Chair. I'll be glad to do 
that. I bring the apologies from Bill Hogarth, our Assistant 
Administrator for Fisheries, who has worked very nicely with 
the Members of the Committee working on National Marine 
Fisheries Service over the last couple of years, and he really 
appreciates the relationship he has with the Committee and 
wants to thank all of you for your support over time.
    I am the Director of Protected Resources in the National 
Marine Fisheries Service at Commerce. I have with me a views 
letter from the administration dated May the 6th. I'd like to 
ask that the views letter and the attached comments be included 
in the record, and I will briefly summarize those today.
    As has already been established, the Pacific Coastal Salmon 
Recovery Fund was established in Fiscal Year 2000. Around $258 
million has been appropriated since then going to the four 
states and the tribes--both the Columbia River tribes, the 
Puget Sound tribes, the Klamath Basin tribes, and Coastal 
tribes, as well. Since 1991--one of the reasons I think this 
money was provided is, since 1991, we had listed 26 units of 
Pacific salmon either as threatened or endangered. Twenty one 
of those were listed since 1996. And, just for your 
information, NMFS has only 52 species listed in total, so half 
of our listed species are salmon, and 21 of those happened 
since 1996. So the impact on the National Marine Fisheries 
Service and the impact on the people in the region from the 
listings has been significant just in the last few years.
    The Pacific Salmon Recovery Fund was a very substantial 
source of help building the collaborative partnership that we 
needed with states and tribes to move forward. In January of 
this year, we held a--convened a 2-day workshop with the states 
and tribes to discuss the expenditure of the money under the 
Pacific Salmon Recovery Fund. It produced an agreement to 
improve coordination on monitoring and evaluation of our funded 
activities. We hope to have a progress report available within 
a month. I'll be glad to send one up. I think the states and 
tribal reps who are here today will tell you about the 
beneficial uses that you will see reflected in that fund.
    On S. 1825, the department supports the objective of S. 
1825 to provide funding to the states and tribes for salmon 
recovery efforts. In particular, we support expansion of 
funding to Idaho. Our view is that support for Pacific salmon 
recovery should be comprehensive, should be focused on 
opportunities that provide the greatest benefits to the 
recovery of salmon populations. Many watersheds in Idaho 
contain some of the best salmon habitat in the Columbia River 
Basin. Idaho funding will help provide fish access and 
increased water flows, et cetera, to help facilitate recovery 
of Northwest salmon.
    This bill does provide significant changes in the amounts 
allocated, in the entities that receive the funds, and in the 
requirements for peer review for planning and for public 
participation. We all support those initiatives. Those are 
critical to maintaining the accountability and support of the 
public.
    Many of the aspects of the bill are already being conducted 
through the MOUs that we have with the states. We think that 
states and tribes in general have done a good job tailoring 
their program to individual circumstances. This results in 
local support.
    We would be pleased to work with the Committee to review 
ongoing efforts and determine if changes are needed to existing 
state, tribal, or regional frameworks for planning peer review 
and public participation. We do look forward to working with 
you on that. We do have a series of comments appended to our 
views letter that lay out some of these issues in more detail. 
But, Madam Chair, I'll conclude my statement at that point and 
answer any questions you have.
    [The prepared statement of Mr. Knowles follows:]

Prepared Statement of Donald R. Knowles, Director, Office of Protected 
       Resources for Fisheries, National Oceanic and Atmospheric 
                             Administration

    Good afternoon, Mr. Chairman and Members of the Committee. I am Don 
Knowles, Director of the Office of Protected Resources for the National 
Marine Fisheries Service (NMFS). I am here representing Bill Hogarth, 
Assistant Administrator for Fisheries. I want to thank you for the 
opportunity to be here today to discuss NMFS' views on S. 1825--the 
Pacific Salmon Recovery Act. Among other things, S. 1825 authorizes the 
Secretary of Commerce to provide financial assistance to state and 
tribal governments in Alaska, Washington, Oregon, California, and Idaho 
for salmon habitat restoration projects in coastal waters and upland 
drainages. The Department of Commerce recently sent a letter with 
comments on S. 1825 to the Chairman of the Senate Commerce, Science, 
and Transportation Committee. I would like to request that the letter 
and the attached comments be included in the record. For today's 
testimony, I will provide you background on the Pacific salmon listings 
and the current administration of the Pacific Coast Salmon Recovery 
Fund (PCSRF), report on activities funded in FY 2000 and FY 2001, and 
outline comments on the current version of S. 1825.

Pacific Salmon Listings
    Since 1991, the National Marine Fisheries Service has listed 26 
Evolutionarily Significant Units of Pacific salmon as either threatened 
or endangered under the Endangered Species Act. The geographic area 
covered by the listings is approximately 159,000 square miles, roughly 
equivalent to the area of the State of California. The listings affect 
the entire West coast of the United States. The salmon issue is not 
just a regional one, it is also a National issue and affects energy 
production and the national economy.
    Pacific salmon have declined in numbers since commercial fishing 
began in the late 1800s. A variety of factors have contributed to the 
decline including over-harvesting, fluctuating ocean conditions, and 
other human influenced activities. The decline of the runs has evolved 
over time and is due to many complex factors. In the same way, we must 
approach salmon recovery in a comprehensive manner. The Pacific Coast 
Salmon Recovery Fund is an effective tool to help this recovery happen. 
We are beginning to see improved runs, which are due to favorable ocean 
conditions, restrictions in harvest, ecological improvements in the 
operation of hydropower systems, and habitat restoration and hatchery 
improvement efforts.

Background of the Pacific Coastal Salmon Recovery Fund
    The Pacific Coastal Salmon Recovery Fund was established in FY 2000 
at the request of the Governors of Washington, Oregon, California, and 
Alaska following NMFS' listing of coastal salmon and steelhead runs 
under the Endangered Species Act. The Governors recognized the need to 
form lasting partnerships between federal, state, local, and tribal 
governments and the public for recovering Pacific salmon and their 
habitats and to address impacts to local and state economies. The PCSRF 
supplements existing and proposed programs, and seeks more efficient 
and effective salmon recovery and conservation efforts through enhanced 
sharing and pooling of expertise and information. Through FY 2002, $258 
million has been appropriated to the fund, with $58 million 
appropriated in FY 2000, $90 million in FY 2001, and $110 million in FY 
2002. The President's budget for FY 2003 includes a request for $90 
million. We recommend that the bill's authorization of $350 million for 
each fiscal year through FY 2007 should be changed to conform to the 
Budget request.
    In January 2002, NMFS convened a workshop with state and tribal 
representatives to discuss funded activities and ways to maximize the 
benefits of the fund. The workshop produced an agreement between states 
and tribes to improve coordination of monitoring and evaluation of 
PCSRF-funded activities. NMFS, in cooperation with the states and 
tribes, is in the process of finalizing a report outlining the 
activities resulting from the first two years of the program. Based on 
the presentations at the workshop, we believe the fund has already 
produced tangible results. In the first two years of the program, over 
800 projects related to salmon habitat restoration, planning and 
assessment, research and monitoring, enhancement, and outreach and 
education have been funded. Highlights include: Washington's completion 
of 40 in-stream passage projects, Alaska's monitoring and assessment of 
populations and habitat, the Yurok Tribe's habitat restoration projects 
in the Klamath Basin, Oregon's work funding local watershed 
initiatives, and many other excellent projects. We are compiling a 
progress report, summarizing the first 2 years of funding, and expect 
to have this available in June. I am sure the state and tribal 
representatives who are here today will be happy to tell you about 
other beneficial uses of the fund.

S. 1825
    The Department of Commerce supports the objective of S. 1825 to 
provide funding to the states and tribes for Pacific salmon recovery 
efforts. In particular, we support the expansion of this funding to 
Idaho. Support for Pacific Salmon Recovery should be comprehensive and 
focused on opportunities to provide the greatest benefits to recovery 
of salmon populations. As you know, many watersheds within Idaho 
contain some of the best salmon habitat in the Columbia River Basin. 
Idaho funding will help to provide fish access to this habitat as well 
as to undertake other restoration activities.
    While S. 1825 is similar to the current program for Pacific salmon 
recovery funding, it does propose significant changes to the amount 
allocated, the entities that receive funds, and the requirement for 
planning, peer review, and public participation in the program. Many of 
the aspects of the bill regarding planning, peer review and public 
participation are already being conducted on a voluntary basis as part 
of the Memorandum of Understanding that we require the states and 
tribes to sign to receive federal funds. Each state and tribe has 
tailored its program to the individual circumstances within each state 
or tribe, and has incorporated the PCSRF funds into existing programs 
for prioritization and distribution. We would be pleased to work with 
the Committee to review existing processes and to determine if changes 
are needed to existing state, tribal, and regional frameworks for 
planning, peer review, and public participation.
     We look forward to working with the Committee on the improvements 
to S. 1825 that were detailed in the Department's views letter 
transmitted to the Committee on May 6, 2002.
    We appreciate your commitment and continued support to Pacific 
salmon recovery efforts and I would be happy to answer any questions 
you may have at this time.
                                 ______
                                 
                    General Counsel, Department of Commerce
                                        Washington, DC, May 6, 2002
Hon. Ernest F. Hollings,
Chairman,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Mr. Chairman:

    Thank you for the opportunity to comment on S. 1825, the Pacific 
Salmon Recovery Act, as introduced. Among other things, S. 1825 
authorizes the Secretary of Commerce to provide financial assistance to 
the States of Alaska, Washington, Oregon, California, and Idaho for 
salmon habitat restoration projects in coastal waters and upland 
drainage. The Department of Commerce supports providing funding to the 
states and tribes for Pacific salmon recovery efforts.
    In particular, we support the expansion of this funding to Idaho. 
As you know, many watersheds within Idaho contain some of the best 
salmon habitat in the Columbia River Basin. Support for Pacific salmon 
recovery should be comprehensive and focused on opportunities to 
provide the greatest benefits to recovery of wild salmon populations, 
including opportunities for tributary stream habitat access and 
restoration in Idaho.
    This bill is similar to the current authorization for Pacific 
salmon recovery money to the states and tribes. However, there have 
been significant changes to the amount allocated, the entities that 
receive funds, and the requirement of planning, peer review, and public 
participation in the program. The authorization levels should comport 
more closely with the President's Budget (i.e., $90 million for FY 03). 
Many of the details of the planning, peer review and public 
participation are already conducted on a voluntary basis by the states 
and tribes that receive funds. We would be pleased to work with the 
Committee on changes to the bill to ensure that it incorporates, rather 
than duplicates, existing state, tribal, and regional frameworks for 
planning, peer review, and public participation.
    We have enclosed a list of detailed comments, grouped by sections. 
We appreciate your continued interest in Pacific salmon recovery 
efforts.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this letter from the viewpoint of the 
Administration's program.
        Sincerely,
                                      Theodore W. Kassinger

                                 ______
                                 
Comments on S. 1825
    1. Section 2(b): The FY 2000-FY 2003 requests for the Pacific 
Coastal Salmon Recovery Fund reflected a 90 percent:10 percent 
allocation between the states and tribes. This bill would change the 
allocation to 85 percent:15 percent. We recommend continuation of the 
90 percent:10 percent allocation between states and tribes. However, 
within those categories, we recommend that the funds be distributed in 
proportion to the needs for recovery of salmonids. Within the state and 
tribal allocation categories, the National Marine Fisheries Service 
recommends that the funds be distributed in proportion to the needs for 
recovery of salmonids. The state apportionment would be based on 
factors such as numbers of Endangered Species Act listed populations in 
Washington, Oregon, California, Idaho, and Alaska; and areas affected 
by listed species and populations that are given special protection in 
Alaska. The same would be true for the tribal funding. The Secretary of 
Commerce should be charged with determining a basis for distributing 
the funds based on a needs assessment conducted in consultation with 
the states and tribes.
    2. Section 3: Any effort to increase accountability of the program 
through the development of plans should take into account other studies 
and performance requirements established in relevant biological 
opinions.

        Section 3(b)(1) Salmon Conservation and Restoration Plans 
        should be required by March 31st of the fiscal year after 
        amounts have been allocated to allow for development of 
        comprehensive plans. A similar deadline could also be required 
        for development of Memorandums of Understanding with tribal 
        governments required in Section 3(c)(1)(B). The current Pacific 
        Coastal Salmon Recovery Fund process will be adequate until 
        spending plans can be developed.

        Section 3(i)(1) should be revised to allow the Secretary of 
        Commerce to retain not more than 1 percent for administrative 
        expenses and not more than an additional 2 percent for required 
        reporting requirements of Section 7.

    3. Section 4: The Department of Commerce supports peer review and 
science based pre-project evaluation. We are also committed to using 
the best available science in developing and implementing salmon 
recovery. However, we feel that the current peer review process 
described in the bill could be more efficiently managed by the states 
and tribal governments receiving funds. Each State Salmon Conservation 
and Recovery Plan or Tribal Memorandum of Understanding could outline 
the peer review and project approval process that is to be used when 
funding projects and programs. These programs would then undergo 
Secretarial review as part of the overall plan review process. This is 
how peer review is currently handled.
    4. Section 5: Public participation through the development of state 
citizen advisory committees and the development of State public 
meetings are necessary and should be included as part of each State's 
Salmon Conservation and Restoration Plan or Tribal Memorandum of 
Understanding.
    5. Section 6: Revise the language of the second sentence to read 
``Projects or activities that may affect listed species shall remain 
subject to applicable provisions of the Endangered Species Act of 
1973.''
    6. Section 8: This section defines ``salmon'' as including bull 
trout and Lahontan cutthroat trout in Oregon, and bull trout in 
Washington and Idaho. The Department believes that any statutory 
definition of salmon should not include these or any other non-
anadromous (sea-run) species. Therefore, we recommend that these 
species be removed from the definition of salmon in the bill.
    7. Section 9: This bill changes the authorization level to $350M 
for Fiscal Years 2002-2007. We request that the authorization be 
changed to reflect the amounts in the President's budget request for FY 
2002. This request included $90M for the Pacific Coastal Salmon 
Recovery Fund and $20M for the Pacific Salmon Treaty. However, we do 
support expansion of the authorization to include Idaho. For FY 2003 
and beyond, we request that the authorization include such sums as are 
necessary to carry out the Act.

    Senator Boxer. Thank you so much. I think that what you 
have said is encouraging to me, that we will work together. 
We'll iron out our problems. We have a vision of a larger fund, 
because we hear the need, both from an economic standpoint and 
just from the standpoint of saving a God-given resource here.
    You mentioned Idaho. I assume you support California.
    Mr. Knowles. Absolutely.
    Senator Boxer. I just want to make it clear. And Oregon?
    Mr. Knowles. And Oregon.
    Senator Boxer. And Washington and Alaska.
    Mr. Knowles. Washington and Alaska.
    Senator Boxer. OK, then. We're OK. We're all the five 
states.
    [Laughter.]
    Senator Boxer. I'm very happy to hear your testimony, 
because we've been working on this for a long time. It was just 
sort of the moment we had to bring everybody together. And I 
have one question, and then I'm going to ask my colleague to 
make an opening statement and ask you whatever questions. What 
form of peer review do you recommend to us?
    Mr. Knowles. I would say----
    Senator Boxer. Let's put it another way. What's wrong with 
the way we've done it in the past?
    Mr. Knowles. Well, we have peer review processes that work 
at a sort of a central way. I think the peer review process for 
projects funded by Bonneville through the Power Planning 
Council has one big peer review panel and process, and that 
works, but I do think it requires more time and effort. I think 
we have other peer review processes built in at the state level 
or at the NMFS level, because we are partway through our 
recovery planning process.
    Whatever peer review change we make or whatever peer review 
process we adopt, we're going to likely have to integrate that 
with our recovery plans once they're completed anyway. So what 
I would really like to do is to work with you folks in the 
states, state by state, and let's figure out what works best. 
If a big, central process turns out to be the most efficient, 
National Marine Fisheries Service will support that and work 
with you. If it turns out best to work with it state by state, 
we'll support that, as well.
    Senator Boxer. OK, thank you.
    Senator Smith?

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Madam Chair. Thank you very much 
for holding this hearing on S. 1825, the Pacific Salmon 
Recovery Act. I'm relieved to learn from you that Senator 
Stevens is open to working with us, and I'm very encouraged by 
that. And I also appreciate that Senator Crapo came and spoke 
on behalf of this bill that he helped us to put together.
    I want to welcome Mr. Harold Blackwolf here. It's good to 
have you here from Oregon to speak on this issue. And thank you 
for traveling these many miles to be here.
    The bill before us today would authorize the Secretary of 
Commerce to provide financial assistance to the states of 
Alaska, Washington, Oregon, and California, and, specifically, 
Idaho, as well as the tribes in the region for salmon habitat 
restoration projects in coastal waters and upland drainages. 
For those of us who have advocated Federal funding to assist in 
West Coast salmon recovery efforts, this bill would provide the 
statutory framework for the coastal salmon funding that has 
been provided in recent years through the National Marine 
Fisheries Service to the West Coast states and tribes. It would 
also expand the program to ensure that recovery measures in 
Idaho could be funded. For those of us throughout the Northwest 
who benefit from the system of Federal dams in the Columbia 
River, restoration work in Idaho is, therefore, vitally 
important.
    Today we'll hear from Mr. Geoff Huntington, the Director of 
the Oregon Watershed Enhancement Board, concerning efforts of 
watershed councils in Oregon to get on-the-ground restoration 
projects funded and to provide effective project monitoring. 
One of the many positive features of the bill is that we do not 
dictate to the states the means by which they must distribute 
federal coastal salmon recovery funds. And I appreciate, Mr. 
Knowles, your comments just now that you're going to work with 
the states to do it the way that it works best.
    We do, however, expect that projects will undergo expedited 
peer review and that the states and tribes will report to the 
Federal Government at regular intervals concerning how the 
funds have been spent. In order to promote salmon recovery 
throughout the salmon's range, we've developed a formula to 
distribute the funds equitably to states and tribes throughout 
the West Coast. I realize that some organizations have 
expressed concerns about the peer review provisions as 
contained in the bill. I hope that the witnesses today will 
provide positive, concrete suggestions that will ensure that if 
these provisions are modified, the goal of selecting the most 
effective scientifically justifiable projects within each state 
will be retained.
    Finally, I'd like to comment on the need to examine factors 
affecting salmon throughout their life cycle. In 2001, we saw 
more fish return to the Columbia Basin than in any year since 
1938. This is largely due to improved ocean conditions that 
have provided more nutrients for salmon during the years they 
spent in the ocean. While we must continue to improve our 
environmental stewardship of the in-river habitat, we must not 
forget our human stewardship, as well. We cannot solve a 3,000-
mile problem by focusing exclusively on select dams and 
tributaries. It has to be a much more holistic approach.
    Again, Madam Chairman, thank you for your leadership on 
this important issue, and I look forward to working with you 
and our witnesses and to hearing from them today.
    Senator Boxer. Thank you, Senator. Well, thank you very 
much, Mr. Knowles. We will view your testimony as an open 
invitation to work with you. Thank you.
    Mr. Knowles. Thank you very much.
    Senator Boxer. It would be wonderful if we can resolve 
this.
    Okay, I'm going to ask all the remaining witnesses to come 
up. And it's--I know there's a lot of you, so I'm going to call 
your name, and please come on up. Mr. Harold Blackwolf, Sr., 
Mr. Dirk Brazil, Mr. Geoff Huntington, Mr. James Caswell, Ms. 
Laura Johnson, Mr. Glen Spain, and Mr. Robert Thorstenson.
    Now, we're going to call you in the order--and before you 
speak, I will give you a more formal, individual introduction, 
but I did want to say that we know that Mr. Thorstenson's three 
young children are here to watch him testify, and I wonder if 
they could stand up and show us who they are, because they came 
along way. Oh, wow, look at that. Hey, thank you for being 
here, and aren't you proud of your dad? He's trying to save the 
fish. It's very good.
    Okay, so we will start off. As I say, I will give each of 
you your own introduction, and we're going to set the clock for 
4 minutes. You need to speak into the mike. I know it's 
crowded.
    Our first speaker will be Mr. Harold Blackwolf, Sr., 
Commissioner of the Columbia River Inter-Tribal Fish 
Commission, which represents tribes in the Columbia and Snake 
River Basins in Idaho, Oregon, and Washington. We welcome you, 
sir. Go right ahead.

  STATEMENT OF HAROLD BLACKWOLF, SR., COMMISSIONER, COLUMBIA 
               RIVER INTER-TRIBAL FISH COMMISSION

    Mr. Blackwolf. Thank you. Good afternoon, Madam Chair, 
Members of the Subcommittee. My name is Harold Blackwolf, 
Commissioner of Columbia River Inter-Tribal Fish Commission, 
Chair of the Fish and Wildlife Committee of Warm Springs Tribe 
in Oregon. I'm here today with Mr. Jim Heffernan, a policy 
analyst for the Columbia River Inter-Tribal Fish Commission and 
Advisor to the U.S. Section of the Pacific Salmon Commission.
    I want to thank you for this opportunity to present the 
tribe's views on the bill that you are considering. Don Sampson 
has submitted written testimony on behalf of the Commission. I 
ask that his testimony also be made part of the record for 
today's hearing.
    [The prepared statement of Mr. Sampson follows:]

  Prepared Statement of Donald Sampson, Executive Director, Columbia 
                   River Inter-Tribal Fish Commission

    On behalf of the Columbia River treaty tribes, I want to thank the 
Chair and Members of the Subcommittee for this opportunity to provide 
some initial written views on the Pacific Salmon Recovery Act (S. 1825) 
and Pacific Salmon Management Issues. I apologize for not being able to 
attend this meeting in person, but I believe that Harold Blackwolf, 
Sr., Commissioner and Chair of the Fish and Wildlife Committee of the 
Confederated Tribes of the Warm Springs Reservation of Oregon, will 
ably present the initial views of the tribes'. Due to the very short 
time frame that was available to prepare this testimony, it was not 
possible to review this testimony with the Commission for which I work, 
the Northwest Indian Fisheries Commission, the Klamath River Inter-
Tribal Fish and Water Commission, nor with the tribes that these three 
commissions serve. For that reason, I would like to request that you 
keep the hearing record on this important piece of legislation open for 
2 weeks so that the tribes and their Commissions may provide you 
additional considered views on the critical questions and issues 
entertained by the Subcommittee Members and witnesses today.
Recommendation
    The Columbia River treaty tribes are heartened by Congress' 
continued strong support for the funding necessary to implement the 
historic 1999 U.S.-Canada Pacific Salmon Treaty Agreements, the 
coastwide salmon restoration fund through the Pacific Coastal Salmon 
Recovery Fund, and other key salmon management programs and restoration 
efforts. Currently, the Pacific Coastal Salmon Recovery Fund is 
authorized through the end of Fiscal Year 2003 at a total funding level 
of $100 million dollars. The Pacific Salmon Recovery Act (S. 1825) 
would authorize funding for four more years, through 2007, at a level 
more than three times the current authorization. At the same time, the 
legislation being considered by the Subcommittee would add additional 
layers of review and may require the duplication of on-going 
coordination and collaboration efforts of the states and tribes. Mainly 
for those reasons, and in consideration of the current budgetary and 
economic situation facing the country, the initial recommendation of 
the Commission is that the current authorizing legislation be modified 
in the following manner:

  -- Extend the authorization for another 6 (six) years through 2009. 
        This amendment would capture two life-cycles of coho salmon and 
        would ensure that the program covered two life-cycles of the 
        chinook salmon.

  -- Amend the authorization to add the State of Idaho to the Fund.

  -- Increase the annual authorized appropriation for the Fund from 
        $100 million to at least $132 million, of which:

    <bullet>  $110 million is for the for States of Alaska, California, 
            Idaho, Oregon and Washington,

    <bullet>  $18 million is for the tribes served by the Columbia 
            River Inter-Tribal Fish Commission, the Northwest Indian 
            Fisheries Commission, and the Klamath River Inter-Tribal 
            Fish and Water Commission,

    <bullet>  $2 million is to be shared by the Colville Confederated 
            Tribes, the Shoshone-Bannock Tribes, and five other coastal 
            tribes, and

    <bullet>  $2 million is for the U.S. Section of the Pacific Salmon 
            Commission.

  -- Increase the level of annual funding should the Secretary of the 
        Interior identify any other qualified tribes or tribal 
        organizations. In fact, just as the states qualified to 
        participate in this Fund are explicitly identified in the 
        current authorization, the clear and explicit definition of the 
        participating tribal governments would be helpful. The bulk of 
        the tribes or inter-tribal bodies noted above have recognized 
        co-management authority under federal case law (U.S. v. 
        Washington (Boldt); Hoh v. Baldrige; U.S. v. Oregon; and 
        Parravano v. Babbitt). We would note that with regard to tribes 
        in Alaska, it would be appropriate to specifically recognize 
        those tribal governments (or their coordinating bodies as may 
        be appropriate) that participate in the U.S.-Canada Treaty 
        process or under the Yukon River Treaty or that are developing 
        that capability.

    We are specifically concerned that the proposed legislation appears 
to:

  -- Add additional process, such as another layer of peer review, 
        especially when a state or tribal governing body has already 
        established a competitive review and technical oversight 
        process;

  -- Require pre-approval of an annual spending plan or projects when 
        an (MOU) process and/or a government approved restoration plan 
        already exists; and,

  -- Focus attention on and narrow funding priorities to ESA-listed 
        salmon stocks (thereby encouraging additional listing 
        petitions) over meeting comprehensive obligations to restore 
        other weak and depressed naturally spawning stocks to optimum 
        production.

    We would be more than happy to provide you with specific language 
and commentary on the most current working draft of the proposed 
legislation.

Commission Status
    The Commission was formed by resolution of the Nez Perce Tribe, the 
Confederated Tribes of the Umatilla Indian Reservation, the 
Confederated Tribes of the Warm Springs Reservation of Oregon and the 
Confederated Tribes and Bands of the Yakama Nation for the purpose of 
coordinating fishery management policy and providing technical 
expertise essential for the protection of the tribes' treaty-protected 
fish resources. Since 1979, the CRITFC has contracted with the BIA 
under the Indian Self-Determination Act (Pub.L. 93-638) to provide this 
technical support. The Commission's primary mission is to provide 
coordination and technical assistance to the member tribes to ensure 
that outstanding treaty fishing rights issues are resolved in a way 
that guarantees the continuation and restoration of our tribal 
fisheries into perpetuity. My testimony today is provided on behalf of 
the tribes.

Treaties of 1855
    Under treaties negotiated with the United States in 1855,\1\ the 
tribes reserved to themselves several rights as sovereigns, among these 
the right to take fish at all usual and accustomed fishing places. Our 
peoples have exercised this right since time immemorial. Our peoples 
fished during times of drought and during times of floods, during times 
of great runs of salmon and during times of low runs of salmon. As they 
do now, our chiefs and elders watched over the harvest to ensure that 
the people cherished and protected the gift of salmon from the Creator. 
It was the expectation of our treaty negotiators then that the tribes 
would always have access to abundant runs of salmon; it is our 
expectation now that the United States will honor that commitment and 
take the steps necessary to protect our trust resource. This reserved 
right has not been diminished by time and its full exercise has been 
upheld and affirmed in several U.S. Supreme Court decisions. Yet, our 
ability to fully exercise this right has been compromised by a 
combination of state and federal decisions and management actions 
focused on the short term.
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The fact that we now find ourselves in an extremely low water year 
does not lower the standard by which the U.S. must strive to meet to 
honor those obligations; in fact, the drought increases the burden of 
the U.S. and its agencies to ensure that the salmon resource is 
protected from further injury and loss. To honor its commitment now 
means that the United States must ensure that there is water in 
sufficient quantity and quality in the Columbia River to ensure the 
safe passage of out-migrating juveniles as well as for adult salmon 
returning upriver.

Extra-Legislative Development of Fund
    The development of this salmon restoration fund is intricately tied 
to 5 years (1995-1999) of intense U.S.-Canada Pacific Salmon Treaty 
negotiations. The Columbia River treaty tribes, as are the western 
Washington tribes, are a key and integral party to the Treaty. 
Conserving and rebuilding far north migrating chinook stocks from the 
Columbia River and the Washington Coast remains a keystone commitment 
of the Treaty.
    In 1999, the United States and Canada, after several years of 
negotiation, formally renewed their salmon conservation and rebuilding 
programs and their harvest sharing arrangements under the Pacific 
Salmon Treaty. As part of this package of agreements, the Parties 
established two international Restoration and Enhancement Funds for 
research and projects on salmon stocks of interest under the Treaty. Of 
these two Funds, the Southern Boundary Restoration and Enhancement Fund 
will provide funding for projects and research in southern British 
Columbia and the Pacific Northwest (and, at the insistence of Columbia 
River treaty tribal delegates, specifically the Snake River basin).
    Domestically, in 1999 the U.S. Congress under Senators Stevens' and 
Murray's leadership passed legislation to authorize and appropriate 
funding for a similar program, first proposed by the Governors of 
Alaska, Washington, and Oregon at the Sitka Salmon Summit, convened by 
Governor Knowles in May 1996. U.S. representatives to the Pacific 
Salmon Treaty process attended the summit too.
    Governor Knowles convened the Sitka Salmon Summit as a healing tool 
for the U.S. Section of the Pacific Salmon Commission. In 1995, 
Southeast Alaska chinook salmon fisheries were shut down for 
conservation purposes through court action against Alaska initiated by 
the Columbia River treaty tribes and joined by other treaty tribes, the 
states of Oregon and Washington, and Canada. This occurred only after 
years of negotiation and the implementation of draconian fishery 
management actions in Canadian and Pacific Northwest fisheries. The 
Summit provided a forum for U.S. representatives to begin to resolve 
differences and set a proactive course to rebuild chinook salmon 
stocks, as well as other salmon stocks. Among other initiatives, the 
Governors called for the establishment of a $250 million Fund for 
Pacific Salmon Conservation and Restoration. In June 1996, largely as a 
result of Governor Knowles' initiative, the U.S. was able to agree upon 
and propose to Canada a more responsive abundance-based chinook harvest 
management system.
    In October 1998, the Governor of California joined the Governors of 
Alaska, Washington, and Oregon at the Salmon Homecoming in Seattle, 
where they again requested the establishment of a coastwide salmon 
restoration fund. The Columbia River treaty tribes had submitted a 
similar request a few weeks earlier.
    In 1999, as the loose ends of the Pacific Salmon Treaty 
negotiations were tied up, the Congressional delegations of Alaska, 
Washington, Oregon and California reacted positively and in support of 
the U.S. negotiating team's efforts and success and aggressively moved 
funding measures through the Congress to implement the Treaty's ongoing 
and new bilateral commitments, as well as authorizing and 
appropriations language for the domestic Pacific Coastal Salmon 
Recovery Fund.

The Tribes' Salmon Restoration Plan
    I want to take this opportunity to note that the tribes, working 
through the Commission, have developed a framework restoration plan, 
Wy-Kan-Ush-Mi Wa-Kish-Wit or Spirit of the Salmon. I have provided 
copies for the Subcommittee's use, the plan is also available on line 
at www.critfc.org. This plan documents the threats to our fisheries, 
identifies hypotheses based upon adaptive management principles for 
addressing these threats, and provides specific recommendations and 
practices that must be adopted by natural resource managers to 
guarantee their trust responsibilities and meet their treaty 
obligations. In this plan, the tribes have identified the need to 
insure that the burden of conserving these salmon stocks is allocated 
fairly across those land and water uses responsible for their decline. 
Consistent with this need, we have identified changes that hatchery 
programs, forestry, hydroelectric development, irrigation, mining and 
other development activities must make in their operations to ensure 
the recovery of salmon stocks and fisheries. The tribes' ultimate goal 
is to restore a sustainable resource for the benefit of all peoples in 
the Pacific Northwest. Consistent with meeting this goal, each and 
every beneficiary of the river must make sacrifices in times of 
shortage, much as the tribes have voluntarily sacrificed fully 
exercising their right to fish over the last several decades. The 
tribes now call upon those who would generate electricity and those who 
would withdraw water from the rivers to now make that sacrifice, or to 
provide equivalent mitigation when it is demonstrated that such 
sacrifice is impossible.

The Hydropower System
    With regard to the hydroelectric power system, the tribes continue 
to believe that the four dams in the lower Snake River must be breached 
to ensure the restoration of salmon in that basin. It is clear from the 
scientific data collected over years of study that breaching is the 
only sure course to salmon restoration. In lieu of dam breaching, a 
very aggressive program of increased flows through the reservoirs and 
spills at the dams must be pursued by the federal agencies to increase 
the survival of juvenile out migrants. Based on the overwhelming amount 
of information available from research conducted over the last 30 
years, the tribes do not believe that transporting fish provides 
benefits anywhere near the equivalent of adequate flows and spill.
    We advocate flow and spill not because we believe they are the 
answer to salmon recovery, but because they are the only two management 
actions at our disposal. They will lessen what promise to be unusually 
lethal impacts of the hydropower system at a time when salmon stocks in 
the Snake and upper Columbia River are at dangerously low levels. This 
cannot be considered enhancement but, at best, damage control.
    We have been told that, instead of dam breaching, we will use the 
next eight years for adaptive management. Yet there is a growing 
reluctance to use the information and knowledge we have already 
gathered about the survival of salmon, let alone utilizing additional 
information we may learn by conducting additional studies to improve 
their survival.

Habitat Conservation and Restoration
    The tribes believe that implementation of their plan will result in 
healthy, sustainable salmon fisheries from Southeast Alaska to the 
headwaters of the Snake River Basin. To protect and recover tributary 
habitat, the plan proposes that land and water managers meet a series 
of habitat conditions associated with survival rates. The use of this 
``Coarse Screening Process,'' where applicable will define allowable 
levels of watershed impacts consistent with salmon restoration.
    The tribes' salmon plan calls for baseline surveys of watershed and 
in-channel conditions as well as trend monitoring to document watershed 
recovery, test assumptions and validate models used in land management. 
Monitoring needs include egg-to-smolt survival, total smolt production, 
and production per spawning pair in salmon-bearing watersheds. Physical 
monitoring needs in all salmon-bearing watersheds include measuring 
substrate sediment loads, large woody debris, pool frequency, and 
volume, bank stability, and water temperature.
    Adaptive management is a hallmark of the tribes' salmon plan, which 
takes a gravel-to-gravel approach to achieve improvements in survival 
throughout the salmon life-cycle. The tribes' science-based approach to 
land management is supported by independent scientific peer review. To 
halt salmon declines and rebuild healthy runs, the USFS and BLM must 
likewise implement science-based adaptive approaches that integrate 
biological and physical monitoring with land management actions that 
protect and restore salmon habitat.
    The tribes' plan calls for an expedited program of watershed 
restoration actions for the Columbia Basin. The tribes are working in 
partnership with state, federal, and local governments as well as 
private landowners to establish a comprehensive program for 
implementing actions that will restore functioning ecosystems in our 
watersheds. We have developed watershed restoration action plans for 
the 23 salmon bearing watersheds above Bonneville Dam in the Columbia 
Basin. Many of these actions will be carried out on private lands.

Hatchery Reform
    State and federal hatchery management programs contribute to the 
extirpation of naturally spawning salmon stocks in the basin. The 
tribal goal to put fish back in the river means literally putting the 
fish back. Young salmon, if released at the proper time, will return as 
adults to spawn in the same area they were released as juveniles. 
Consistent with this concept, the tribes, working with the state and 
federal fishery agencies, developed a supplementation protocol so as to 
reform hatcheries to rebuild naturally spawning salmon populations in 
the basin. Utilizing this protocol, the tribes developed integrated 
production plans that can be implemented as research projects to 
restore naturally spawning populations using carefully monitored 
supplementation practices. Under tribal management, hatcheries would be 
used for the restoration of naturally spawning chinook stocks 
throughout the Basin.
    The tribes' plan covers all the areas that must be addressed in 
order to protect salmon stocks and insure their restoration to levels 
consistent with the international obligations of the United States and 
with its trust obligation to the tribes; but that will be the easy 
part: the most difficult obstacle facing the restoration of the salmon 
runs is the lack of political will to tackle the issues head on. We 
will do everything necessary to insure that these runs will be rebuilt.

Conclusion
    The tribes look forward to working with the state and federal 
governments on effective and efficient salmon restoration programs. We 
believe the Pacific Coastal Salmon Recovery Fund, with some 
modifications to the current authorizing language, can help us in this 
cooperative effort.

    Mr. Blackwolf. On behalf of the other tribes and tribal 
commissions involved in Pacific salmon management that do not 
have witnesses here today, I ask that you keep the hearing 
record open for 2 weeks so they may submit written testimony on 
the important issues being considered. Collectively, the tribes 
would also appreciate the opportunity to submit, for the 
record, written answers to the Subcommittee's questions. The 
tribes welcome the Subcommittee's strong support for programs 
designed to protect, conserve, rebuild, and restore stocks of 
Pacific salmon and the habitat upon which they depend.
    Our programs will require sustained levels of funding and 
programmatic support from Congress to reverse the coast-wide 
declines in salmon populations. These declines have been caused 
by decades of habitat degradation and destruction as a result 
of logging, grazing, and urban development by the use of rivers 
for irrigation and hydropower development or by modifying the 
river systems for transportation and flood control. The tribes 
are not saying that all these activities should stop, as they 
all contribute to healthy regional and national economies, but 
the actions of other river uses and their activities that 
affect the production and productivity of salmon cannot be 
ignored. The effects of these other uses must be minimized or 
reversed when we can do so. Where the effects of these 
activities can be avoided, then they must be mitigated through 
aggressive habitat conservation or restoration programs or 
though hatchery programs designed to protect and support 
naturally spawning populations of salmon.
    These efforts are best undertaken through a collaborative 
and coordinated approach by the states, tribes, federal 
agencies, and other stakeholders. There are already many 
programs operating to do this in the different geographic areas 
of the Pacific Coast. For example, in the Columbia Basin, there 
is a coordinated Fish and Wildlife Program implemented by the 
tribes and states under the Northwest Park Planning Council.
    There are new management recommendations and actions 
proposed and a biological opinion on the Federal Power Supply 
System. These are to be carried out by the Bonneville Power 
Administration, the U.S. Army Corps of Engineers, Bureau of 
Reclamation, among other managers. Then there are both the base 
and expanded programs of the U.S. Forest Service, Bureau of 
Land Management, U.S. Fish and Wildlife Service, and the 
National Marine Fisheries Service. Independent scientific 
review boards or panels, and additional tribal, state, and 
federal agency scientists review project proposals under these 
various programs. Collectively, these programs benefit not only 
salmon, but other fish and wildlife, as well. They also allow 
all of the other uses of the river system to continue.
    Currently, there is not enough funding available for all of 
the work that has been agreed upon as necessary and useful by 
regional managers. As a result, many important salmon projects 
that have been reviewed and recommended by the scientists do 
not get funded. For that reason, it is critical to get more 
help from Congress.
    Over the last couple of years, the Pacific Coastal Salmon 
Recovery Fund has come to play an important role in the 
coordinated efforts of the tribe, states, and federal agencies 
to rebuild and restore our shared salmon resource to healthy, 
sustainable levels. The fund has also allowed the Columbia 
River tribes to coordinate and collaborate on important 
projects with the State of Alaska. This kind of inter-regional 
coordination and collaboration is critically important, 
especially when you remember that sustainable fisheries in 
Southeast Alaska and in other ocean fisheries depend upon 
healthy salmon populations in the Columbia River almost as much 
as do the in-river tribal and non-tribal fisheries. We think 
that the legislation being considered by the Subcommittee 
should allow this kind of productive collaboration to continue.
    We would like to see the Pacific Salmon Recovery Fund 
continue with increased levels of funding through 2009. This 
will allow salmon managers to capture two more life cycles of 
coho salmon as well as two full cycles of chinook salmon under 
this program. This will also allow for a better long-term 
evaluation of the success of projects that are implemented 
under this fund. Other specific recommendations have been 
provided in the tribe's written testimony.
    Finally, I would like this Subcommittee to know that the 
tribes and state and federal agencies are exploring how best to 
reform the Mitchell Act Hatchery Program to fit into a 
comprehensive salmon restoration effort. The House of 
Representatives have already asked about this program. The 
tribes would welcome your oversight and support on this 
important regional effort, as well.
    Again, thank you for this opportunity to testify. I'll try 
to answer any questions you might have.
    Senator Boxer. Thank you so much. What we're going to do is 
go down the list. I'm going to hand the gavel over to my 
colleague and friend. He's going to run the rest of the 
hearing, because I've got a conflict. I'm going to try to get 
back. But if not, let me just say right now, Mr. Blackwolf, 
what we will do is, we will keep the record open for that 
period of time for you to answer questions and another 2 weeks 
for comments. Without objection, we will do that. So that will 
be done.
    And, Mr. Brazil, I'm so glad you're here, Mr. Dirk Brazil, 
to share my state's perspective. He's the Deputy Director of 
California Fish and Game, which is the agency responsible for 
implementing California's state salmon recovery efforts. My 
first question is, how is my Northern California director 
doing--Tom Bohegan? Is he doing well?
    Mr. Brazil. He's doing very well.
    Senator Boxer. I thought so. He's a friend of mine in 
Northern California. I knew--he paid you to get me to ask that 
question----
    [Laughter.]
    Senator Boxer. I'm glad. He is a wonderful staffer. Mr. 
Brazil, welcome, and we really look forward to hearing from 
you.

     STATEMENT OF DIRK BRAZIL, DEPUTY DIRECTOR, CALIFORNIA 
                  DEPARTMENT OF FISH AND GAME

    Mr. Brazil. Thank you, Senator Boxer, for having your 
hearing today. As you say, my name is Dirk Brazil. I am a 
Deputy Director for the California Department of Fish and Game. 
I'm here to testify in support of the Pacific Salmon Recovery 
Act, S. 1825.
    I really can't put a finer point on it than either you or 
Congressman Thompson did on the current situation we find 
ourselves with in California. Recovery and management of 
coastal salmon is critical to California, where many of our 
coastal salmon populations are at critically low levels. Nearly 
all of these stocks are listed as threatened or endangered 
under the Endangered Species Act and/or the California 
Endangered Species Act.
    This bill is important to California because it would 
improve our current ability to recover and manage coastal 
salmon, it would authorize Federal funding over a 6-year 
period, thereby allowing the department to implement a more 
comprehensive strategy at the watershed level for restoration 
of coastal salmon and habitat through two complete life cycles 
of coho salmon and one life cycle of chinook salmon. There are 
currently 15 evolutionary significant units of Pacific salmon 
in California, 10 of which are listed under the Federal 
Endangered Species Act and one of which is a candidate.
    As has already been stated earlier, I mean, all of this 
begins and ends with degraded freshwater habitat and, 
therefore, recovery actions are aimed at restoring and 
rehabilitating degraded or blocked freshwater habitat. 
Providing access to healthy former habitat that is now 
inaccessible to salmon because of an impassible dam, culvert, 
or road crossing is one of the most important and least 
intrusive restoration actions that the state is pursuing. 
Providing greater in-stream flows and restoring the natural 
flow cycles is another restorative action needed in many of our 
rivers and streams. Fish screens on water diversions will 
reduce fish losses associated with entrainment of fish in the 
diversion canals or pumps, and habitat restoration projects to 
reduce sediment input from chronic sediment sources are also 
key to rehabilitating spawning streams.
    California has received grants from the Federal Pacific 
Coast Recovery Fund totaling $9 million in 2000 and 2001 and 15 
million-and-some-odd dollars in 2001/2002, and I'm here to say, 
combined with state dollars, we've put this money to good use. 
It's all on the ground, and a lot of it has already been 
successfully implemented--such things as salmon habitat 
restoration projects, planning and assessment, outreach and 
education, and the list goes on.
    Federal funding for coastal salmon recovery in California 
flows directly to on-the-ground needs implemented by nonprofit 
organizations, local public agencies, small businesses, and 
private individuals. These dollars have funded many worthwhile 
projects. Through the grant process, we developed a review and 
determined which projects could receive funding. Four hundred 
and thirty six barriers have been removed, and the California 
Conservation Corps have planted 1.3 million trees in the 
riparian zones of 120 streams.
    Madam Chairwoman, because your bill would authorize funding 
over a fixed period of years, this would allow the department 
to implement a more comprehensive plan at the watershed level 
for restoration of salmon and steelhead habitat. A fixed 
funding period of 6 years, for instance, would also allow 
evaluation of fishery response to occur through two complete 
life cycles of coho salmon. In addition, the current level of 
funding may not be adequate to recover salmon in a timely 
manner. This bill would provide additional funding at this 
critical juncture before stocks decline to a point where 
recovery is problematic.
    Proposals in California receive an intensive technical and 
field review that weigh heavily on the priorities for each 
basin. I won't go into all the detail. All of this is in 
written testimony. But suffice it to say that we have five 
levels of review that begin with the technical work on the 
ground and then at the director's office in Sacramento.
    As I mentioned at the outset, the Salmon Recovery Act is 
vitally important to California, and we applaud you for your 
leadership on this issue. We have a few areas of concern, all 
of which have been touched upon earlier. I won't go into 
detail. Again, they are in the written record. The only thing 
to say is that our concerns with that are all related to our 
ability to be flexible and to get these programs on the ground 
as quickly as possible, and that's all that we're concerned 
about. We have a system in California that seems to be working. 
It grows on a--it's growing by leaps and bounds, and we want to 
continue to support that growth.
    Thank you.
    [The prepared statement of Mr. Brazil follows:]

    Prepared Statement of Dirk Brazil, Deputy Director, California 
                      Department of Fish and Game

Introduction
    Madame Chairwoman and Members of the Subcommittee, thank you for 
holding this hearing today. My name is Dirk Brazil. I am a Deputy 
Director of the California Department of Fish and Game and I am here on 
behalf of our Director, Robert C. Hight, to testify in support of the 
Pacific Salmon Recovery Act (S. 1825). In addition, I want to thank 
you, Madame Chairwoman, for introducing this important bill and for 
working closely with the Department on it.

Importance to California
    Recovery and management of coastal salmon is critical to 
California. As I describe in greater detail later in my testimony, many 
of California's coastal salmon populations are at critically low 
levels. Nearly all of these stocks are listed as threatened or 
endangered under the Endangered Species Act and/or the California 
Endangered Species Act.
    As you know, California is the most populous and third largest 
state in the nation, as well as the fifth largest economy in the world. 
With over 70 percent of California's population residing in coastal 
counties where these runs of salmon occur, it is not surprising that 
these listings have had an adverse impact on important parts of the 
state's economy--commercial and sport fisheries and related industries, 
timber management, agriculture, ranching, urban development, mining, 
and recreation.
    This bill is important to California because it would improve our 
current ability to recover and manage coastal salmon. It would 
authorize federal funding over a 6 year period, thereby allowing the 
Department to implement a more comprehensive strategy at the watershed 
level for restoration of coastal salmon and habitat through two 
complete life cycles of coho salmon and one life cycle of chinook 
salmon.

Status and Recovery Needs of California's Salmon Stocks
    There are 15 Evolutionarily Significant Units of pacific salmon in 
California, 10 of which are listed under the Federal Endangered Species 
Act, and one of which is a candidate for listing. Attached for your 
information is a table entitled: ``Federal and State Endangered Species 
Act Status for California's Anadromous Salmonids as of 1/18/02'' which 
provides a summary of the listings.
    The primary reason for salmon declines is degraded freshwater 
habitat. Therefore, recovery actions are aimed at restoring and 
rehabilitating degraded or blocked freshwater habitat. Providing access 
to healthy former habitat that is now inaccessible to salmon because of 
an impassable dam, culvert, or road crossing is one of the most 
important and least intrusive restoration actions that the state is 
pursuing. Providing greater instream flows and restoring the natural 
flow cycles is another restorative action needed in many of our rivers 
and streams. Adequate fish screens on water diversions will reduce fish 
losses associated with entrainment of fish into diversion canals or 
into pumps. Habitat restoration projects to reduce sediment input from 
chronic sediment sources (roads, landslides, etc.) are key to 
rehabilitating spawning streams that are degraded by an excess of 
sediment.

State Commitment to Coastal Salmon Restoration
    California's commitment to restoration of coastal salmon habitat 
has been demonstrated over the last 22 years. In 1981, in response to 
rapidly declining populations of salmon and steelhead trout and 
deteriorating salmonid habitat, a Fishery Restoration Grants Program 
(FRGP) was established in the Department of Fish and Game. Since 1981, 
the FRGP has awarded funding to more than 2,000 projects, totaling more 
than $100 million in grant funds. Sources of the state funding have 
included:

  <bullet>  Steelhead Catch-Restoration Card (up to $100,000 per year),

  <bullet>  Salmon Stamp (up to $250,000 per year),

  <bullet>  The Tobacco Tax and Health Protection Act of 1988 ($100,000 
        per year through 2001),

  <bullet>  Water Bond Act of 2000 ($25 million over three years),

  <bullet>  SB 271 creating the Salmon and Steelhead Restoration 
        Account (up to $8 million per year through 2002), and

  <bullet>  California Clean Water, Clean Air, Safe Neighborhood Parks, 
        and Coastal Protection Act of 2002 (funding level per year 
        currently uncertain, to begin in 2003).

Federal Commitment to Coastal Salmon Restoration
    California received grants from the federal Pacific Coastal Salmon 
Recovery Fund totaling $9,000,000 in Fiscal Year 2000/2001 and 
$15,086,400 in Fiscal Year 2001/2002. During Fiscal Year 2000/2001, the 
combination of state and federal funds totaled $23,169,969, which the 
State used to fund the following types of restoration projects:

  <bullet>  Salmon Habitat Restoration Projects--104 projects totaling 
        $8,361,114 in state funds; and 80 projects totaling $6,714,010 
        in federal salmon recovery funds.

  <bullet>  Planning and Assessment Projects--39 projects totaling 
        $2,405,428 in state funds; and 17 projects totaling $876,872 in 
        federal salmon recovery funds.

  <bullet>  Salmon Research and Monitoring Projects--8 projects 
        totaling $1,260,606 in state funds; and 7 projects totaling 
        $231,546 in federal salmon recovery funds.

  <bullet>  Outreach and Education Projects--26 projects totaling 
        $536,036 in state funds; and 9 projects totaling $355,054 in 
        federal salmon recovery funds.

  <bullet>  Salmon Enhancement/Supplementation Projects--8 projects 
        totaling $249,474 in state funds; and 2 projects totaling 
        $38,065 in federal salmon recovery funds.

  <bullet>  Local Capacity Building and Organizational Support 
        Projects--24 projects totaling $1,671,758 in state funds; and 8 
        projects totaling $470,006 in federal salmon recovery funds.

    Federal funding for coastal salmon recovery in California flows 
directly to on-the-ground needs implemented by non-profit 
organizations, local public agencies, small businesses, and private 
individuals. These dollars have funded many worthwhile projects. 
Through the grant process we developed to review and determine which 
projects would receive funding, 436 barriers have been removed and the 
California Conservation Corps have planted 1.3 million trees in the 
riparian zones of 120 streams.
    Madame Chairwoman, because your bill would authorize funding over a 
fixed period of years, this would allow the Department to implement a 
more comprehensive plan at the watershed level for restoration of 
salmon and steelhead habitat. A fixed funding period of 6 years, for 
instance, would also allow evaluation of fishery response to occur 
through two complete life cycles of coho salmon. In addition, the 
current level of funding may not be adequate to recover salmon in a 
timely manner. This bill would provide additional funding at this 
critical juncture before stocks decline to a point where recovery is 
problematic. We have a need for additional funding because California 
has 840 miles of coastline with many anadromous fish streams that need 
to be restored. By way of comparison, Oregon has 296 miles and 
Washington has 157 miles of coastline.
    California also receives federal funding for the restoration of 
salmon habitat in the Central Valley, but these stocks are managed 
separately from coastal salmon. These federal funds are provided 
through the following four programs that support projects such as 
screening and fish passage projects; however, none of these monies are 
available for use on the coastal stocks of salmon:

  <bullet>  The Central Valley Project Improvement Act (CVPIA), funded 
        annually by the Energy and Water Appropriations Bill through a 
        surcharge imposed on Central Valley Project water and power 
        contractors, has provided $39,323,500 for over 70 projects to 
        restore anadromous fish habitat.

  <bullet>  Since 1996, state and federal agencies that are part of the 
        CALFED Bay-Delta Program have awarded more than $335 million in 
        grants for some 323 projects that help achieve ecosystem 
        restoration goals, ranging from fish ladders that help salmon 
        bypass dams to habitat and water-quality improvements.

  <bullet>  The Four-Pumps Agreement has provided $20 million in state 
        funds for mitigating the effects on salmon for operation of the 
        State Water Project.

  <bullet>  The Tracy Fish Facility Mitigation Program has awarded $4 
        million in federal funds to offset losses of salmon at the 
        Tracy Pumping Plant.

Process for Targeting and Awarding Pacific Coastal Salmon Funds
    The Department uses basin planning to strategically target grant 
funds to the highest priority projects within watersheds. An example of 
a basin plan includes the recently completed Draft Russian River Basin 
Restoration Plan, which identifies key areas for restorative actions by 
streams, reaches, and watershed sub-basins. The plan prioritizes 
salmonid restoration priorities specific to tributaries and sub-basins, 
and also identifies needs for additional study. Progress is also being 
made to integrate watershed-level information provided by the multi-
agency North Coast Watershed Assessment Program (NCWAP). Several state 
agencies are working in concert to collect and analyze information 
designed to characterize current and past watershed conditions. A 
``synthesis report'' is developed for each hydrologic unit by NCWAP, 
which will provide the Fishery Restoration Grants Program with 
information about the priority areas where restoration is most needed. 
This information will be used for planning restoration program grant 
priorities and provide valuable information from cumulative watershed 
effects analysis for basin-wide planning efforts and development of 
long-term restoration strategies.
    Proposals in California receive intensive technical and field 
reviews that weigh heavily the priorities of each basin. Once a Request 
for Proposal (RFP) is received by the FRGP, it is subjected to five 
levels of review, as follows:

   1. Upon receiving a proposal, a Technical Review Team (TRT) is 
        convened to evaluate proposals using criteria described in the 
        RFP. This team is comprised of Department fishery specialists, 
        NMFS staff, and Department of Conservation, California Geologic 
        Survey (CGS) personnel having extensive experience in 
        evaluating restoration proposals. First, the TRT reviews 
        proposals to determine if they meet all of the administrative 
        requirements of the RFP. Then, the TRT prepares a pre-
        evaluation of each proposal with focused questions for field 
        regional evaluators. This review also provides the CGS 
        representative the opportunity to identify projects that need a 
        field engineer's review. The evaluation criteria provide the 
        means to determine biological soundness, and the technical and 
        cost effectiveness of the proposals.

   2. During the second level of review, projects are reviewed at the 
        site by field regional evaluators in order to evaluate, make 
        comments, and score proposals (in compliance with contract law) 
        to determine if they will lead to restorative actions.

   3. During the third level of review, regional evaluator scores, 
        response to TRT questions, and comments are reviewed again by 
        the TRT. Based on this review, the TRT may assign a different 
        score to projects, in accordance with the criteria described in 
        the RFP. All proposals, not administratively rejected, are 
        forwarded with Department evaluation scores and comments, to 
        the California Coastal Salmonids Restoration Grants Peer Review 
        Committee.

   4. This committee, established by legislation, acting autonomously 
        in a fourth level of review, evaluates each proposal and makes 
        recommendations for funding priorities, as well as 
        recommendations for limitations to dollar amounts to be funded, 
        and provides the Director with a prioritized list of projects 
        for funding.

   5. This list of recommended proposals is then forwarded to the 
        Director for the fifth, and final level of review and approval.

Pacific Salmon Recovery Act: California Issues
    As I mentioned at the outset, the Pacific Salmon Recovery Act is 
vitally important to California, and we applaud Senator Boxer for her 
leadership on this issue. We have a few areas of concern with the 
legislation as it is currently written. However, we are confident that 
all of our concerns can be resolved. They are the following:

   1. The restriction of the state's share of matching funds to those 
        available only in the Department's Coastal Salmon Recovery 
        Program. We recommend changing the language of the bill to lift 
        this restriction. This would allow the Department to continue 
        using a variety of state matching funds, such as the state 
        Coastal Salmon Recovery Program, the North Coast Watershed 
        Assessment Program, the 2000 Water Bond Act (Prop. 13), the 
        2000 Park Bond Act (Prop. 12), and the recently passed Prop. 
        40, among others.

   2. The requirement for the formation of a redundant peer review 
        group. Proposals in California are subjected to five levels of 
        review. We recommend amending the bill to recognize and allow 
        current alternative scientific review or peer review processes 
        to continue. This redundancy could unduly threaten the timely 
        application of restoration funds to much-needed remedial 
        projects.

   3. The requirement for a completed California Salmon Conservation 
        and Habitat Plan by the end of the first fiscal year. We 
        support the requirement of a California Salmon Conservation and 
        Habitat Restoration Plan as a condition of receiving funds, but 
        respectfully request that each state be allowed 2 years to 
        develop the plan, and that funds not be withheld during these 2 
        years of plan preparation.

   4. The bill requires the submittal and approval of an annual 
        spending plan ``which shall include a description of the 
        projects and programs that the state or tribe plans to 
        implement with the funds allocated.'' During the initial review 
        of this bill, we interpreted this to be a general description 
        of the types of projects that will be implemented by the 
        program and not a detailed description of projects to be 
        implemented. For California to provide a detailed description 
        of the projects would require waiting until after the Director 
        approved a list of specific detailed projects for each annual 
        funding cycle and then submitting these individual projects to 
        the Secretary of Commerce for another level of approval. This 
        final level of approval would unduly delay and potentially 
        eliminate many projects important to California.

    Through our grant cycle, proposals are received each May, field 
reviewed from June to September, scored in October, reviewed and 
proposed for funding by the California Coastal Salmonids Restoration 
Grants Peer Review Committee in November, and approved for funding by 
the Director in January. February through June is reserved for 
finalizing contracts and gaining permits. Most projects have to be 
implemented during the summer field season (which is most often July to 
September when listed species are not in the area). To delay grant 
awards until the Secretary makes a final decision on a detailed 
description of projects will, most likely, cause these contractors to 
lose a full field season. The loss of one full field season could 
jeopardize the program's ability to implement in-stream restoration 
projects due to limitations on state contracts--funds must be spend 
within 3 years of the date of encumbrance or the funding disappears. 
Because many complex on-the-ground projects take the full 3 years to 
complete, the funding could disappear if the first field season is 
lost. This would also delay the timely delivery of federal funds to 
worthy projects.
    Therefore, we request clarification of the language ``shall include 
a description of projects and programs. . . .'' If this language means 
anything more than a generic description of the kinds of projects, this 
requirement would adversely impact the program. We agree that there 
should be federal oversight to ensure federal funds are expended 
prudently, and propose that each recipient provide the Secretary with 
annual spending reports detailing the type and number of projects 
funded the previous year (rather than a detailed description of 
projects for approval).

Conclusion
    In closing, I wish to reiterate the Department's thanks to you for 
holding this hearing, and for inviting the Department to appear before 
you today. We look forward to continuing to work with Senator Boxer and 
the other states and tribes. I would be pleased to answer any questions 
you may have.
                                 ______
                                 
    Attached is an update of California and Federal Endangered Species 
Act status for California anadromous salmonids as of 1/18/02. Please 
discard previous versions. This version reflects the publication of the 
Final 4d Rule establishing protective regulations for Central 
California Coast Coho Salmon, Central Valley Spring Run Chinook Salmon, 
California Coastal Chinook Salmon, and Northern California Steelhead 
(Fed. Reg. 1/9/02). Please note the effective date for this 4d Rule is 
3/11/02.

               Federal and State Endangered Species Act Status for California Anadromous Salmonids
                                            [as of January 18, 2002]
----------------------------------------------------------------------------------------------------------------
                                                                            CRITICAL  HABITAT    ESA SECTION 9
     SPECIES:  ESU (ESA) or            STATUS          EFFECTIVE DATE OF        DESIGNATED?    TAKE PROHIBITIONS
   Population segment (CESA)                           LISTING or ACTION                           APPLY? \1\
----------------------------------------------------------------------------------------------------------------
COHO SALMON
----------------------------------------------------------------------------------------------------------------
ESA--Southern Oregon/Northern    threatened........  June 5, 1997.........  Yes..............  Yes (Interim 4d
 Calif. Coasts.                                                                                 Rule 7/18/97)
ESA--Central California Coast..  threatened........  Dec. 2, 1996.........  Yes..............  Yes (eff. 3/11/
                                                                                                02) \2\
CESA--South of San Francisco     endangered........  Dec. 31, 1995........
 Bay.
CESA--North of San Francisco...  candidate.........  Apr. 27, 2001........
----------------------------------------------------------------------------------------------------------------
CHINOOK SALMON
----------------------------------------------------------------------------------------------------------------
ESA--Sacramento River Winter-    endangered........  Emergency listed as    Yes..............  Yes (2/3/94)
 Run.                                                 threatened Aug 1989;
                                                      final listed as
                                                      threatened Nov 1990;
                                                      reclassified as
                                                      endangered Feb 3,
                                                      1994.
ESA--Central Valley Spring-Run.  threatened........  Nov. 15, 1999........  Yes..............  Yes (eff. 3/11/
                                                                                                02)
ESA--Central Valley Fall and     candidate.........  Sep. 16, 1999........  na...............  na
 Late Fall-Run.
ESA--Southern Oregon and         not warranted.....  Sep. 16, 1999........  na...............  na
 Northern California Coastal.
ESA--California Coastal........  threatened........  Nov. 15, 1999........  Yes..............  Yes (eff. 3/11/
                                                                                                02)
ESA--Upper Klamath--Trinity      not warranted.....  March 9, 1998........  na...............  na
 Rivers.
CESA--Sacramento River Winter-   endangered........  Sep. 22, 1989........
 Run.
CESA--Sacramento River Spring-   threatened........  February 5, 1999.....
 Run.
----------------------------------------------------------------------------------------------------------------
STEELHEAD
----------------------------------------------------------------------------------------------------------------
ESA--Southern California \3\...  endangered........  October 17, 1997.....  Yes..............  Yes (10/17/97)
ESA--South-Central California    threatened........  October 17, 1997.....  Yes..............  Yes (7/10/2000)
 Coast.
ESA--Central California Coast..  threatened........  October 17, 1997.....  Yes..............  Yes (7/10/2000)
ESA--Central Valley, California  threatened........  May 18, 1998.........  Yes..............  Yes (7/10/2000)
ESA--Northern California.......  threatened........  August 7, 2000.......  No...............  Yes (eff. 3/11/
                                                                                                02)
ESA--Klamath Mountains Province  not warranted.....  March 28, 2001.......  na...............  na
----------------------------------------------------------------------------------------------------------------
COASTAL CUTTHROAT TROUT \4\
----------------------------------------------------------------------------------------------------------------
ESA--Southern Oregon/California  not warranted.....  April 5, 1999........  na...............  na
 Coasts.
----------------------------------------------------------------------------------------------------------------
\1\ For species listed as ESA endangered, ESA Section 9 take prohibitions apply when final listing becomes
  effective. For ESA threatened species, Section 9 take prohibitions do not apply unless and until an ESA
  Section 4(d) rule is promulgated.
\2\ Supersedes 4d Rule promulgated 10/31/96.
\3\ NMFS has proposed to extend the range of the Southern California ESU to include populations of steelhead
  that occur in watersheds south of Malibu Creek to, and including, San Mateo Creek in San Diego County.
\4\ ESA jurisdiction for coastal cutthroat trout was transferred from NMFS to the USFWS on 11/22/99.

    Senator Boxer. Well, thank you so much, Mr. Brazil. And it 
certainly is our intent to make this work with the states. And 
I'm very proud of the work that you're doing in the state, by 
the way, and I just feel it is crucial that we help you with 
it.
    I just would close and say that the point you made about 
the continuity of the funding, that it is for a set period of 
years, is very important. You know, I was thinking, you know, 
when we do things in our own lives, we want a sense of 
certainty. If we buy a house, we don't just say we're going to 
buy it for 2 years, you know. You know, we're talking about 
here a home to species, and we have to make it work and, 
therefore, I think this commitment to the long-term is very 
important.
    And it is with pride that I hand the gavel over to you, 
Senator Smith, although hopefully not permanently after the 
next election.
    [Laughter.]
    Senator Smith. In the meantime, I won't do anything rash, I 
promise.
    [Laughter.]
    Senator Boxer. I know. And so you can introduce your Oregon 
witness. Thank you all.
    Senator Smith (presiding). Thank you, Senator Boxer.
    Geoff Huntington, from Oregon, good to see you and nice to 
have you here. Thank you for coming to testify. The mike is 
yours.

STATEMENT OF GEOFFREY M. HUNTINGTON, EXECUTIVE DIRECTOR, OREGON 
                  WATERSHED ENHANCEMENT BOARD

    Mr. Huntington. Thank you for the opportunity, and it's 
nice to see you, Senator Smith. I appreciate the opportunity to 
testify in support of S. 1825. And, as Senator Smith knows a 
lot of the details of the Oregon plan for salmon and 
watersheds, I think I still will spend a few minutes talking 
about that so that we can get a good sense in the room of what 
Oregon is doing to recover endangered fish stocks and also 
promote sustainable watershed health.
    Oregon has been actively working to recover the health of 
our watersheds for over a decade, and those efforts are now 
guided by something called the Oregon Plan for Salmon and 
Watersheds, which I think of as being essentially a four-legged 
stool that provides a solid base for recovering fish stocks. 
First we coordinate the delivery of agency programs and 
regulations in order to improve habitat and water quality and 
riparian function. On top of that regulatory baseline and 
coordination of agency programs, we have a dedication of state 
funds for watershed restoration projects that are voluntarily 
undertaken by private landowners to accomplish what regulation 
can't and to advance watershed health in their local area. The 
third leg of that stool, then, is an integrated monitoring 
program that Oregon is implementing that provides information 
and feedback over the long-term of the effectiveness of our 
efforts and our ability to see if the outcomes we desire are 
being accomplished or we're moving toward them, at least. And 
fourth, we have oversight and review by an independent science 
panel to keep everybody on track and honest.
    The plan is institutionalized in statute; in rule, by 
executive order; and by a state constitutional commitment 
dedication of funds. And it is into this structure that the 
Pacific Coastal Salmon Recovery Funds are integrated and 
invested so that both the federal and the state's commitments 
are leveraged to accomplish more than either could alone.
    My board, the Oregon Watershed Enhancement Board, functions 
much like a foundation. We award about $25 million a year in 
grants for voluntary projects on private lands using a 
competitive process. We receive about 500 applications annually 
and fund between a third and a half of those.
    Attached to my testimony is Oregon's report to the National 
Marine Fisheries Service that details how we invested the state 
and federal dollars during an 18-month reporting period from 
June to December. In that time, we committed $38 million in 
state funds to voluntary restoration projects and activities 
associated in supporting those projects. Of that, about $10.9 
million was federal funds.
    I've made the attachments to this report also available to 
Committee staff, because I think that they're interesting to 
take a look at. You can just thumb through the attachments and 
see, out of the 538 projects that we funded during this 
reporting period, get a brief description of the types of folks 
that are receiving money, both federal and state, and the kinds 
of projects they're undertaking and the breadth and scope of 
Oregon's program for helping to promote sustainable watershed 
health and, in the process, recover fish stocks that have been 
listed under the Federal Endangered Species Act.
    With this backdrop, I again want to say that Oregon 
supports S. 1825, but that some minor changes probably merit 
the attention of the Committee. In Oregon's perspective, where 
a state has a longstanding program promoting recovery that's 
backed by both science and substantial investments of both 
state and federal funds, it seems that everything reasonable 
should be done to ensure that federal dollars that are invested 
to accomplish the same outcomes take advantage of and use 
what's already working rather than add new layers of 
requirements.
    And with a couple of adjustments to two portions of the 
bill, in particular, I think we can be well on our way to that. 
For example, the science-based peer review of projects is of 
concern to Oregon, and I appreciated the Chair's willingness to 
talk about this and work through it. While section four 
establishes a peer review process that offers one approach to 
ensuring accountable investments based on scientific review of 
proposed projects, it's not the only way to get there, and, in 
fact, it may ultimately be at odds with the realities faced by 
states like Oregon that are implementing a restoration grant 
program that's premised on helping landowners in a variety of 
ways. We have a peer review process in Oregon that is science 
based. It's three levels, with technical projects teams looking 
at the merit of individual applications for funds and the 
strategic investment of peer review done at the board level 
which has broad representation that includes federal and state 
resource agencies and then at a program level that again is 
provided by our independent science panel.
    I think that where a state provides this level of 
accountability review along with a strong monitoring program, 
it should be recognized in lieu of a federally designated 
process that imposes a one-size-fits-all. And I think that 
everyone at this table probably is very comfortable saying that 
we want to and are willing to ensure accountability for both 
the federal investments and the investments of state dollars 
and that we want to do that in a process that is readily 
transparent to taxpayers that we're all accountable to. It 
would be our view in Oregon that we can accomplish both goals 
by having a process that's flexible and accommodates some of 
the realities of the individual implementers of this program.
    We have some minor concerns also about the spending plan 
that I won't go into, given the short time that's available, 
but, again, none that I don't think can't be readily resolved 
and we're already working to do that. Oregon will always be at 
the table to figure out a collaborative way to make S. 1825 
work and to invest these federal dollars in conjunction with 
our state funds.
    And I appreciate the opportunity to talk to you about that 
today.
    [The prepared statement of Mr. Huntington follows:]

   Prepared Statement of Geoffrey M. Huntington, Executive Director, 
                   Oregon Watershed Enhancement Board

    Thank you Mr. Chairman for the opportunity to present testimony 
regarding Oregon's efforts to restore endangered salmon and the health 
of our watersheds generally, and S. 1825 specifically. I especially 
want to thank Senator Boxer, Senator Smith, Senator Wyden, and the 
other cosponsors for introducing this legislation; and Representative 
Thompson for his success in having the House of Representatives pass 
H.R. 1157 by such a large majority: 418 to 6. I also thank the Members 
for the willingness they have expressed to have states suggest ways to 
modify the bill to better accommodate the needs of state and tribal 
governments participating in the program.
    Oregon wishes to address the Subcommittee on four substantive 
areas: The Oregon Plan for Salmon and Watersheds, Oregon's Investments 
in Voluntary Restoration Actions, Fiscal and Effectiveness 
Accountability, and Specific Comments on S. 1825.

I. The Oregon Plan for Salmon and Watersheds
    Oregon's efforts to recover listed anadromous fish runs is guided 
by a unique blend of efforts integrated to deliver a single mission:

         ``To restore our native fish populations--and the aquatic 
        systems that support them--to productive and sustainable levels 
        that will provide substantial environmental, cultural, and 
        economic values to Oregonians.''

    The Oregon Plan has four components: coordinated delivery of agency 
programs promoting improved habitat, water quality, and riparian 
functions; funding of local and private watershed restoration actions 
undertaken voluntarily; monitoring the effectiveness of recovery and 
restoration efforts; and independent scientific review and oversight. 
The plan has been institutionalized in statute, executive order, agency 
regulations, and dedicated state funding necessary to sustain voluntary 
restoration and habitat improvement efforts by landowners.
    While the Oregon Plan is built on a foundation of existing federal 
and state laws, the backbone of Oregon's recovery efforts is the 
state's local citizen efforts to restore habitat and improve water 
quality through watershed councils and soil and water conservation 
districts. There will be no recovery of native salmon stocks without 
the active (and voluntary) participation of landowners who control more 
than 60 percent of the freshwater habitat of coho salmon runs. 
Successful recovery will be accomplished only by investing in watershed 
enhancements on these private lands that comprise mile after mile of 
critical stream reaches throughout the state.
    Currently, Oregon has a network of over 90 local councils and 45 
districts comprised of landowners, local conservation groups, private 
companies with land holdings, and state and federal agencies--most 
operating by consensus to encourage, support, and implement voluntary 
habitat restoration projects on private lands in their local watershed. 
This restoration infrastructure which is now thriving was established 
for a variety of reasons, not simply because of the listing of a dozen 
salmon stocks under the federal ESA involving over 75 percent of the 
land area of the state. Local groups are implementing a multitude of 
projects including assessments of watershed conditions, fencing and 
planting stream banks for vegetation recovery, replacing road culverts 
that block fish passage, eliminating roads or resurfacing roads to 
eliminate sediment delivery to streams, placing large wood and boulders 
in streams to enhance habitat, modifying inefficient (and often 
unscreened) irrigation systems in order to return water for instream 
flows, and encouraging new agricultural land management practices to 
improve water quality.
    In all, these efforts are changing the outlook for recovering 
dwindling fish runs by improving riparian habitat conditions beyond 
that which is needed for individual landowners to simply avoid ``take'' 
under the federal ESA. The work is slow however, because the 
accomplishments occur stream mile by stream mile in every tributary 
that is key to survival of the wild salmon; and stable funding is 
critical to sustaining progress.

II. Oregon's Investments in Voluntary Restoration Efforts
    Oregon has been promoting and funding voluntary restoration 
activities for more than 14 years. OWEB currently administers $24 
million in active watershed restoration grants implementing over 340 
projects and activities around the state. OWEB is responsible for 
investing up to $15 million annually from state lottery funds 
constitutionally dedicated to watershed and salmon habitat improvement, 
along with other private and federal funds administered by the agency. 
From June 1, 2000, to December 31, 2001, OWEB received a $24 million 
appropriation to the State of Oregon by Congress from the Pacific 
Coastal Salmon Recovery Fund. These funds have been administered by 
OWEB in tandem with the state funds using established eligibility 
criteria and funding mechanisms currently in place.
    OWEB's investment of public funds in watershed restoration efforts 
is guided by a 17 member board comprised of a representative from each 
of the state's natural resources commissions, Native American tribes, 
five federal agencies, the land grant university extension service, and 
five distinguished citizens from different parts of the state. Criteria 
for assessing proposals and awarding funds are established by rule, and 
are applied by regional teams comprised of state and federal natural 
resource field staff with first hand knowledge of local conditions. 
These teams use their collective expertise to review grant applications 
and make funding recommendations to the OWEB Board. Virtually any 
person or entity owning land, local council, private non-profit, or 
governmental entity may seek funding for restoration activities that 
will improve habitat or watershed health generally; and OWEB considers 
nearly 500 such requests annually.
    Limitations on the use of dedicated state lottery funds require the 
majority of OWEB's state funds to be spent on on-the-ground watershed 
enhancement projects and acquisitions. Federal Pacific Coastal Salmon 
Recovery Fund dollars provide important flexibility enabling the OWEB 
Board to support watershed councils, watershed assessments, technical 
assistance for project design, effectiveness monitoring, and education 
and outreach projects-all of which are essential to achieving 
restoration of salmon and watershed health. By seamlessly integrating 
use of the federal Pacific Coastal Salmon Recovery Fund program dollars 
into Oregon's existing infrastructure that invests in voluntary salmon 
recovery and watershed enhancement efforts, OWEB is able to 
substantially enhance the effectiveness of the Oregon Plan for Salmon 
and Watersheds.
    Attached to this testimony is Oregon's recent progress report on 
expenditures of Pacific Coastal Salmon Recovery Fund awarded from June 
1, 2000, to December 31, 2001. This report was provided to the National 
Marine Fisheries Service in April 2002, to document Oregon's 
investments of state and federal funds by project categories. The 
attached report summarizes those investments. A complete report with 
attachments that itemize all of the individual investments made by the 
State of Oregon during the reporting period has been provided to 
Subcommittee staff to be made available to the Members. The attachments 
to the full report provide thumbnail summaries of the 538 ongoing and 
completed projects for this reporting period, making it easy to see the 
breadth and scope of Oregon's restoration investments.

III. Fiscal and Effectiveness Accountability

A. Fiscal Accountability
    An independent audit of OWEB's fiscal controls, grant award 
criteria, and grant management program completed in March, 2000 found 
the program has in place appropriate financial controls and grant 
review criteria to ensure accountability for use of public funds. OWEB 
and the National Marine Fisheries Service have an agreement in place 
governing expenditure of current and any future money distributed from 
the Pacific Coastal Salmon Recovery Program. That agreement ensures 
that the federal funds will be administered for activities supporting 
recovery of the listed anadromous salmon using OWEB's existing project 
funding criteria established in state statute and rule. This means that 
the federal funds are being used for the same types of voluntary 
restoration projects and watershed assessment and monitoring work that 
the Board is currently investing in; and with the same emphasis on 
fiscal accountability.

B. Effectiveness Accountability
    Oregon has established a three-prong approach to ensure 
accountability for the effectiveness of investments in restoring 
watersheds and recovering salmon habitat. First, by emphasizing strong 
peer science and technical review of all applications seeking 
investment of restoration funds from OWEB. Second, by implementing a 
monitoring program designed to assess the effectiveness of Oregon's 
restoration and recovery efforts. Third, by providing programmatic 
oversight of all Oregon Plan for Salmon and Watersheds activities by an 
independent science team so that principles of adaptive management can 
be used to adjust and modify Oregon's approach to recovery and 
restoration over time.

1. Peer Review of Project Applications
    All grant applications seeking OWEB funds receive three kinds of 
peer review in addition to fiscal controls on expenditures. First, a 
technical multi-discipline team of 12-15 people reviews each proposal. 
This team evaluates the proposal and determines whether the proposed 
site, objective, and technology are sound and well suited to accomplish 
the identified restoration objectives. If one element does not work 
with the other, modifications are proposed or the project application 
is recommended for denial.
    Second, the technical team forwards its recommendations to the 17-
member OWEB Board, which meets formally four times a year to award 
restoration project grants. As set forth above, five citizens, one 
tribal representative, five state and five federal resource and 
regulatory agency representatives, and a University Extension Service 
representative compose the Board. As a result, grants must address 
environmental priorities, and each receives a high level interagency 
review and coordination, with the state and federal agency 
representatives providing technical input and advice on project 
sufficiency to the voting members of the Board.
    Third, Oregon's independent science panel retains oversight 
responsibility for the overall program, including award criteria, to 
ensure sound science is the basis for program implementation. Other 
functions of this science panel are addressed in this testimony in 
Section III below.

2. Project and Programmatic Monitoring
    OWEB is charged with developing a comprehensive system for the 
collection, management, and reporting of natural resources information 
in Oregon. This includes monitoring the long-term effectiveness of 
restoration and recovery efforts. OWEB is carrying out this legislative 
directive with the collaboration of state and federal agencies, 
universities, and local entities to implement a suite of monitoring 
activities that will identify whether restoration actions are 
adequately addressing key habitat issues and whether investments in 
recovery and restoration are having the desired cumulative effect.
    Already, implementation monitoring is being done by local groups 
and state agencies to ensure that individual restoration projects are 
performing as anticipated. State and federal agencies have also 
initiated effectiveness monitoring programs in all coastal basins to 
learn how our restoration efforts are affecting species and associated 
habitat on a watershed scale. OWEB oversees an interagency monitoring 
team which coordinates federal and state monitoring of water quality, 
species, and stream, estuarine, and upland conditions.
    Within the last six months, Oregon has established the foundation 
for an institutionalized statewide monitoring program aimed at 
providing a comprehensive picture of Oregon's watersheds and specie 
recovery efforts. Building this collaborative statewide program has 
been made possible both by the Oregon Governor's and Legislature's 
recognition of the importance of pursuing this task, and by Congress' 
support for the Pacific Coastal Salmon Recovery Fund. The combination 
of state and federal support for effectiveness monitoring will provide 
federal, state, and local decision makers with long-term, reliable 
information on recovery trends and progress toward ultimate restoration 
objectives that has not historically been available.

3. Science Panel Oversight
    When the Oregon Plan for Salmon and Watersheds was first 
established, a science team was created to advise the state on all 
matters of science related to implementation of the plan and the 
effectiveness of efforts aimed at restoring native fish populations and 
the health of Oregon's watersheds. This science panel (called the 
Independent Multidisciplinary Science Team) also reflects key 
provisions of a Memorandum of Agreement between the State of Oregon and 
the National Marine Fisheries Service. As part of its responsibilities, 
this panel has the capacity to review OWEB's grant program as well as 
the adequacy and appropriateness of the monitoring efforts discussed 
above to ensure that funding decisions and long-term assessments of 
progress continue to be based on sound science.

IV. Comments Specific to S. 1825

A. Peer Review Provisions
    Section 4 of S. 1825 establishes a peer review process modeled upon 
that of the Northwest Power Planning Council. That peer review process 
evolved from and reflects the Council's unique needs, in which members 
representing the four states became responsible for reviewing and 
approving projects submitted by their colleagues. This is an effective 
model for the Council and could usefully serve as a default process for 
states that do not have a peer review process for their restoration 
projects. However, it is not as effective as scientific review 
processes like Oregon's and Washington's that are tailored to ensuring 
accountability while also addressing the realities of implementing 
locally sponsored restoration projects. For this reason, Oregon 
suggests that Section 4 be amended to allow a state to use a scientific 
review process that is mandated in state statute and regulations in 
lieu of a federally imposed process.

B. Annual Spending Plan Provisions
    On first reading, Section 3's requirement of an annual spending 
plan makes good sense. However, upon reflection the provision 
inadvertently reverses the community based process that has guided and 
been at the heart of watershed restoration programs in Oregon from 
their inception. The provision creates a process in which a federal 
administrator would/could set the priorities for local watershed 
councils. Oregon recommends that subsection 3(a) be dropped and 
replaced with an annual report of expenditures to insure continued 
accountability. It appears that this could be accomplished with 
amendments to current language in Section 7 of the bill.

C. Conservation and Salmon Restoration Plan Provisions
    Where a state has through statute or regulation established a 
comprehensive plan for restoring watersheds and promoting the recovery 
of listed fish stocks, that plan should be accepted by the National 
Marine Fisheries Service after expedited review. Perhaps the most 
valuable lesson learned from the current efforts to protect and restore 
native salmonids in the Northwest is that it is critical to honor 
different approaches in different areas as the most appropriate vehicle 
to promote recovery of listed stocks. Restoring watersheds and 
enhancing critical fish habitat occurs stream mile by stream mile and 
watershed by watershed using a variety of different approaches. Bill 
provisions mandating a conservation and salmon restoration plan must 
honor this premise or risk impeding state and local efforts to 
accomplish the most effective restoration activities in a manner that 
can be accepted and sustained by landowners and communities in every 
part of Oregon and the Northwest.

D. Need for Continued Program Authorization Provisions
    Current authorization ends after federal Fiscal Year 2003 giving 
rise to the need to extend authorization for another 5 years as this 
bill does. The State of Oregon also supports this bill's expansion of 
the program to include the State of Idaho with the stated adjustments 
increasing the total authorization levels, and for equal share among 
participants in the program. If time runs out, however, and Congress is 
unable to complete work on this bill or H.R. 1157, then there is a real 
need to increase the appropriation level for federal Fiscal Year 2003 
to accommodate Idaho without adversely impacting current participants 
in the program.
                                 ______
                                 
                                               Attachment A

  State of Oregon Progress Report on Expenditures of Pacific Coastal 
  Salmon Recovery Funds Awarded From June 1, 2000 to December 31, 2001
                         (without attachments)

April 5, 2002

I. Introduction and Background
    Congress appropriated $9 million to the State of Oregon in June 
2000, $8.9 million in June 2001 and $6.1 million in September 2001 as 
part of the Pacific Coastal Salmon Recovery Program (PCSRP). The funds 
are dedicated to support salmon and steelhead restoration efforts in 
the coastal and Columbia River drainages of Oregon. Funding was awarded 
by grant agreement NA06FP0421 on June 26, 2000. This report covers the 
period of June 1, 2000 through December 31, 2001 and includes grant 
agreements made during that time period. Additional grants relying on 
these funds have been awarded in 2002, but are not included in the 
scope of this progress report.
    The Oregon Watershed Enhancement Board (OWEB) budgeted PCSRP funds 
to award as part of Oregon's existing watershed improvement grant 
program. Between June 2000 and December 2001, OWEB invested a total of 
$49 million for watershed and salmon habitat improvement in Oregon. 
This amount includes $38 million in state funds, and $10.9 million in 
PCSRP funds.

II. State Match of Pacific Coastal Salmon Recovery Program Funds
    The State of Oregon is required to provide a 25 percent non-federal 
match ($6,001,625) to the $24 million congressional appropriation to 
Oregon from the PCSRP. In the July 1999 through December 2001 state 
budget cycle, Oregon committed over $34 million in state lottery funds, 
state general funds, and other non-federal funds to invest in salmon 
recovery and watershed restoration efforts. To date, since June 2000, 
OWEB alone has invested over $38 million in non-federal funds, not 
including substantial program funds dedicated by other state natural 
resource agencies implementing the Oregon Plan for Salmon and 
Watersheds.
    Limitations on the use of state funds require the majority of 
OWEB's funds to be spent on on-the-ground watershed enhancement 
projects. PCSRP funds provide important flexibility for supporting 
watershed councils, watershed assessments, monitoring, and education 
and outreach--all of which are essential to achieving restoration of 
salmon and watershed health. By integrating use of the federal PCSRP 
funds into Oregon's existing infrastructure that invests in voluntary 
salmon recovery and watershed enhancement efforts, OWEB is able to 
substantially enhance the effectiveness of the Oregon Plan for Salmon 
and Watersheds.

III. Work Accomplished and Benefits to Salmon
    Oregon is actively working toward restoration through 
implementation of the Oregon Plan for Salmon and Watersheds--a 
comprehensive statewide effort initiated by Governor Kitzhaber in 1997. 
The Oregon Plan has four components: (1) coordinated delivery of agency 
regulatory programs promoting improved habitat, water quality, and 
riparian functions; (2) funding of voluntary watershed restoration 
actions implemented by local citizen groups; (3) integrated monitoring 
of the effectiveness of restoration and recovery efforts; and, (4) 
independent scientific review and oversight. The Plan directs improved 
enforcement of existing federal and state laws, and promotes citizen 
and landowner efforts to restore watershed health through a statewide 
network of organized local groups.
    Currently, over 90 local watershed councils and 45 soil and water 
conservation districts are implementing restoration projects in Oregon, 
partnering with agencies and private interests, educating and involving 
people in restoration, and monitoring watershed conditions to 
understand the effectiveness of restoration work. OWEB is the state 
agency responsible for supporting this local infrastructure, with 
strategic funding of restoration projects, watershed assessment and 
monitoring, public education and outreach, and technical assistance for 
local efforts.
    To accomplish this, OWEB invests up to approximately $15 million 
annually from state lottery funds dedicated to watershed and salmon 
habitat improvement, along with other private and federal funds, 
including the PCSRP appropriations. OWEB administers congressional 
PCSRP funds, as well as state and other funds, allowing flexibility to 
target investments to meet local needs and achieve significant, long-
term improvements in salmon and watershed health.

IV. Accountability and Effectiveness of Restoration Investments
    OWEB achieves strategic investment of public funds and cost-
effective restoration through rigorous technical review of grant 
proposals, monitoring of restoration projects and results, and balanced 
Board leadership and policy direction. OWEB's investments are guided by 
a 17-member Board comprised of a representative from each of Oregon's 
natural resources commissions, Native American tribes, five federal 
agencies, the land grant university extension service, and five 
citizens from different regions of the state. Criteria for assessing 
proposals and awarding funds are established by administrative rule, 
and are applied through regional teams composed of state and federal 
natural resource field staff with first-hand knowledge of local 
conditions. These teams use their collective expertise to review grant 
applications and make funding recommendations to OWEB. The Board 
maintains a data base of all funded projects to track local progress 
and to communicate investment results, and collaborates with federal 
and state agencies to ensure that all investments demonstrate long-term 
watershed improvement.
    OWEB and the National Marine Fisheries Service have entered into an 
agreement governing expenditure of all money distributed from the 
PCSRP. The agreement ensures that federal funds will be administered 
using the Board's existing funding criteria for activities supporting 
recovery of anadromous salmon listed under the Endangered Species Act. 
Thus, federal funds are now being used to supplement Oregon's 
commitment of state funds to support voluntary restoration projects, 
watershed assessments, monitoring, and outreach efforts. Used in this 
manner, the funds appropriated by Congress are a substantial 
enhancement to the state's ongoing investments in salmon recovery and 
habitat improvement.

V. Project Funding Categories
    Sections A-H below describe the types of projects these funds have 
supported, and the total amounts of PCSRP funds invested in each 
project category to date.

A. Salmon Habitat Restoration
    Between June 2000 and December 2001, OWEB committed a total of 
$29.7 million for locally sponsored restoration projects designed to 
recover pacific salmon and restore and enhance watershed health. This 
amount includes $29.3 million in state funds and approximately $413,600 
in PCSRP funds. Because the state constitution limits use of 65 percent 
of dedicated state funds to on-the-ground projects, OWEB targets 
Oregon's investment of PCSRP funds to activities supporting habitat 
restoration activities rather than toward funding the projects 
themselves.
    Oregon initiated a watershed restoration project program in 1995. 
OWEB documents the cost and monitors the effectiveness of each 
watershed restoration project it and other state grant programs fund. 
The project monitoring program is coordinated with the federal land 
management agencies (U.S. Forest Service and Bureau of Land Management) 
having jurisdiction in recovery funding areas. The state reports 
annually on the implementation of watershed restoration projects. This 
reporting data base is useful in evaluating changes in design through 
time, the extent to which projects meet design guidelines, and the 
relative investment in different restoration activities.
    Watershed councils, soil and water conservation districts, and 
other groups implement projects that are identified as priorities in 
watershed assessments and that involve local citizens and landowners. 
These projects result in a wide variety of watershed improvements, 
including:

  <bullet>  creation of salmon habitat in critical stream reaches;

  <bullet>  removal of barriers to salmon migration;

  <bullet>  enhancement of riparian, wetland, and estuarine areas;

  <bullet>  reduction of point and non-point sources of water 
        pollution;

  <bullet>  reduction of non-natural erosion to streams;

  <bullet>  increase in in-stream water flows to benefit salmon; and

  <bullet>  acquisition of interests in land and water to protect 
        salmon and watershed health.

    Local groups use the Oregon Aquatic Habitat Restoration and 
Enhancement Guide developed specifically for the Oregon Plan to design 
projects that follow sound recovery and restoration methods.
    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments A-1, A-2, and A-3.

B. Assessment of Watershed Conditions
    Between June 2000 and December 2001, OWEB invested a total of $2.7 
million for locally sponsored assessments of watershed conditions. This 
amount includes $340,567 in state funds, and $2.3 million in PCSRP 
funds. Using a template designed by the state in collaboration with 
federal resource agencies, local watershed councils and soil and water 
conservation districts conduct watershed assessments to determine 
where, within a given watershed, work is needed to restore natural 
processes or features related to fish habitat and water quality. 
Specifically, watershed assessments enable local groups to:

  <bullet>  identify features and processes important to salmon habitat 
        and water quality;

  <bullet>  determine how natural processes are influencing those 
        resources;

  <bullet>  understand how human activities are affecting salmon 
        habitat and water quality; and

  <bullet>  evaluate the cumulative effects of land management 
        practices over time.

    Watershed councils and soil and water conservation districts use 
OWEB grants to purchase assessment equipment, hire watershed 
consultants, and do watershed mapping necessary for assessment. The 
template used by these groups is the Oregon Watershed Assessment Manual 
developed by OWEB. The manual helps ensure that local groups accurately 
assess watershed conditions, which in turn enables them to 
strategically plan salmon recovery and watershed restoration actions 
where the investment of time and money will yield the best results.
    Watershed assessments have been completed throughout much of the 
state, particularly in the coastal, Willamette, and Deschutes basins. 
Additional investments are planned for, or are under way, in other 
basins key to recovering listed stocks.
    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments B-1 and B-2.

C. Monitoring of Watershed Conditions
    Between June 2000 and December 2001, OWEB invested a total of $2.2 
million for locally sponsored projects monitoring watershed conditions. 
This amount includes $408,361 in state funds, and $1.8 million in PCSRP 
funds. Additional investments of state and PCRSP funds were also made 
in agency monitoring program efforts identified in Section G, below.
    Watershed councils, state and federal agencies, and other groups 
monitor local watershed conditions to better understand trends in 
salmon populations and watershed health, and to determine whether 
completed restoration projects have achieved their intended goals. OWEB 
grants fund a variety of different types of monitoring, including:

  <bullet>  salmon and aquatic insect monitoring;

  <bullet>  water quality and stream flow monitoring;

  <bullet>  wetland, estuarine, stream, riparian and upland condition 
        monitoring; and

  <bullet>  restoration project effectiveness monitoring.

    Data collected through monitoring are used to develop projects and 
plans to restore watershed health. Local groups and state and federal 
agencies use the Water Quality Monitoring Guidebook developed for the 
Oregon Plan to ensure sound monitoring techniques and to produce widely 
accessible information. OWEB has adopted a Monitoring Strategy to guide 
future investments in monitoring of salmon populations, environmental 
conditions, and project effectiveness. Locally sponsored monitoring 
proposals funded by OWEB are reviewed and evaluated by an 
interdisciplinary team in the context of the state's overall monitoring 
effort.
    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments C-1 and C-2.

D. Education and Outreach
    Between June 2000 and December 2001, OWEB invested a total of $1.5 
million for locally sponsored education and outreach. This amount 
includes $137,627 in state funds, and $1.4 million in PCSRP funds. 
Public education and outreach regarding watershed conditions and 
restoration opportunities are a necessary part of gaining community 
support for and participation in watershed enhancement projects. 
Watershed councils and soil and water conservation districts are 
effective in citizen education and outreach because they operate at the 
local community level. Grants to these local groups support citizen 
learning with funding for education, coordination, materials, and 
training. Examples include:

  <bullet>  conducting watershed restoration workshops for landowners 
        and educators;

  <bullet>  providing students with opportunities for field study and 
        watershed learning;

  <bullet>  engaging youth and adults in programs of water quality 
        monitoring;

  <bullet>  developing community informational materials, such as 
        brochures, interpretive signs, and newsletters; and

  <bullet>  developing and implementing a watershed-based science 
        curriculum for K-12 teachers, and providing training.

    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments D-1 and D-2.

E. Technical Assistance
    Between June 2000 and December 2001, OWEB invested a total of 
$971,098 to provide technical assistance to watershed councils, soil 
and water conservation districts, and individual landowners for 
engineering design, conservation planning, fluvial geomorphology, and 
other technical services supporting restoration project implementation. 
This amount includes $212,050 in state funds, and $759,048 in PCSRP 
funds. Technical assistance funding is necessary to enhance the quality 
of local restoration activities, and support implementation of the 
federal Conservation Reserve Enhancement Program. Lack of resources 
supporting technical design, planning, permitting, and application of 
technology is a significant constraint that impedes on-the-ground 
restoration work. This allocation by OWEB directly supported project 
development and implementation by 21 local watershed groups around the 
state.
    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments E-1 and E-2.

F. Watershed Council Support
    Between June 2000 and December 2001, OWEB invested a total of $4.4 
million to support the capacity of local watershed councils to 
undertake restoration activities. This amount includes $2.4 million in 
state funds, and $2.07 million in PCSRP funds. More than 90 watershed 
councils are established in Oregon, implementing restoration projects, 
partnering with agencies and private interests, educating and involving 
people in restoration, and monitoring watershed conditions to 
understand the effectiveness of restoration work. Watershed councils 
are comprised of volunteers from local Oregon communities. They provide 
a forum for citizens, landowners, businesses, government, and other 
stakeholders to discuss local watershed conditions and to collaborate 
on restoration opportunities. OWEB grants support a variety of 
watershed council operations, including:

  <bullet>  salaries and support for council coordinators;

  <bullet>  training of council coordinators;

  <bullet>  materials used by the coordinator to conduct council 
        business; and

  <bullet>  restoration action planning for council coordinators.

    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments F-1 and F-2.

G. Agency Projects Supporting Local Watershed Restoration
    Between June 2000 and December 2001, OWEB invested a total of $2.6 
million in state agency projects principally relating to monitoring and 
data collection and supporting restoration and recovery efforts. This 
amount includes $1.0 million in state funds, and $1.6 million in PCSRP 
funds. Coordination among state agencies to implement programs and 
provide assistance to local groups is a necessary part of achieving 
improvements in salmon and watershed health. OWEB grants have enabled 
other state agencies to support watershed councils, local governments, 
landowners, and others with technical assistance for watershed 
enhancement projects, monitoring, assessment, and education.
    Oregon's investments in this project category are itemized by grant 
project commitment in Attachments G-1, G-2, G-3, G-4, and G-5.

H. Agency Administration
    Between June 2000 and December 2001, OWEB invested a total of $4.3 
million in administering the state's grant, monitoring, data 
coordination, and outreach programs at OWEB supporting the Oregon Plan 
for Salmon and Watersheds. This amount includes approximately $3.8 
million in state funds and $537,000 in PCSRP funds.

    Senator Smith. Geoff, can you describe Oregon's peer review 
that, in your opinion, is working well? Can you describe it for 
us and how it differs from the one proposed in the bill?
    Mr. Huntington. Certainly, Senator Smith, I'd be happy to. 
That which is proposed in the current language of the bill sets 
up an overarching peer review with a single panel that would 
have appointments to it and would require that projects be 
reviewed prior to funding by the agencies, in my reading of the 
legislation.
    Oregon has a process that is similar but very, very 
different in some key ways. As soon as applications come into 
Oregon, into the door at OWEB, the Oregon Watershed Enhancement 
Board, we send them out to five regional technical teams that 
are made up of about 12 to 15 people that have every discipline 
represented but also have local knowledge of what's going on in 
that part of the state and the kinds of restoration activities 
that are successful, those that aren't, and design criteria 
standards that need to be done to successfully implement those 
projects. They review every application for the use of federal 
and state dollars for technical merit and for also looking at 
the appropriateness of the siting of the proposed restoration 
activity.
    Those recommendations then come back into my office, and my 
board does a level of peer review prior to funding that is 
based on a more strategic level by the membership of my board 
representing five federal agencies and five state agencies, 
along with the University Extension Service advising the 
citizen representatives on the strategic value of the types of 
investments that have been recommended for funding by the 
technical review teams.
    On top of that, then, Oregon has overlaid a science panel 
that is an independent panel that does a constant review of the 
appropriateness of our investments and whether the questions we 
are asking are scientifically based in a way that can assure 
the long-term effectiveness of the efforts.
    The important difference between what is in the federal 
legislation and at least how Oregon currently is operating is 
that we have a--we run three grant cycles a year through our 
process to allow landowners and local restoration groups to 
participate on a frequent basis. And having a single panel that 
is modeled off the Power Planning Council process, which is 
also very successful but is only structured to allow a review 
on a very periodic, almost annual, basis, could cause a 
significant problem for us in getting dollars on the ground to 
projects being implemented for landowners that are interested 
in participating voluntarily.
    Senator Smith. I think the main thing is that, at the end 
of the day, all parties to this have confidence that what is 
reviewed has integrity and is scientifically sound, and then 
everybody, I think, is prepared to live with objective 
scientific conclusions.
    Mr. Huntington. I could give you a long-winded answer, but 
that's absolutely correct.
    Senator Smith. That's the goal. So if you have a better 
way, maybe Oregon's a good model. We're not locked into one 
way, but we do want to be able to say, with more confidence 
than we currently do, that the science we're using is 
legitimate; that it's not political science, it's factual. And 
people can then live with the law because they know it is 
objective.
    Okay, thank you very much, Geoff.
    Next on Senator Boxer's list is Mr. James Caswell, the 
Director of the Idaho Office of Species Conservation, which has 
jurisdiction over Idaho's salmon recovery work. Mr. Caswell?

    STATEMENT OF JAMES CASWELL, DIRECTOR, OFFICE OF SPECIES 
                  CONSERVATION, STATE OF IDAHO

    Mr. Caswell. Thank you, Senator. It's a privilege to come 
here today and offer testimony in support of Senate Bill 1825. 
My name is Jim Caswell, and I serve as the director of our 
Governor's Office of Species Conservation for the State of 
Idaho. And our Governor and, of course, the former senator, 
Dirk Kempthorne, sends his warmest regards.
    Passage of S. 1825 is crucial and very important to the 
state. That's reflected, I believe in the original co-
sponsorship of the bill by both Senator Craig and Senator 
Crapo. And I wish to thank them for their efforts.
    Past Pacific Coast Salmon Recovery Fund allocations have 
largely overlooked Idaho despite the important role that 
Idaho's anadromous stocks play in the overall recovery of 
Pacific salmon. All of the native anadromous stocks are listed 
under ESA as either threatened or endangered within the borders 
of the state. I've traveled here to stress Idaho's support for 
S. 1825. From an Idaho perspective, the greatest good resulting 
from the passage of this bill would be the formalized 
recognition of Idaho's importance to the recovery of our 
anadromous stocks.
    In that regard, I'd like to make three points. One, that 
the salmon crisis in the Northwest cannot be resolved without 
restoring Idaho's anadromous stocks. Two, failure to restore 
anadromous runs in Idaho will prevent fishermen in both the 
Pacific Coast, California, and Alaska from being able to access 
healthy runs. And, three, that Idaho has sufficient spawning 
and rearing habitat to support restored runs of spring and 
summer chinook, sockeye, and steelhead.
    The threatened status of Snake River stocks has constrained 
the Pacific Salmon Treaty and other coastal fisheries 
stretching from California to Alaska. Idaho hopes that our 
inclusion in future funding allocations will help reverse these 
declines. That Idaho is a worthy recipient of coastal salmon 
moneys is a viewpoint not confined to the borders of the state. 
Both the Department of Commerce and the Columbia River Inter-
Tribal Fish Commission support Idaho's inclusion.
    When the Governors of the four states chose to address 
salmon recovery together, they did so on a regional basis, and 
the result was the Four Governors' recommendation on salmon 
recovery. This partnership is accomplishing more in a way that 
honors the roles of the individual states and tribes while 
promoting planning at the local level for full salmon life-
cycle restoration. The Four Governors' plan can work in concert 
with the 2000 Federal Columbia River Power System Biological 
Opinion. And the key, in our view, to that is to fully 
implement that biological opinion.
    Having mentioned our support for S. 1825, I'd like to take 
a moment and point out a few ways in which the Act might be 
improved. As an administrator, I appreciate the enormous 
financial resources committed to the restoration of these 
species. I'm sensitive to the desires to ascertain that the 
moneys authorized and appropriated are spent in the most 
efficient manner and that the states and the tribes are held 
accountable for their actions.
    It's in that vein that I suggest that some of the processes 
required by this bill are duplicative of processes and 
safeguards already in place throughout much of the Northwest. 
For example, under the Power Act and through the Northwest 
Power Planning Council, the states of Idaho, Washington, 
Oregon, and the tribes have already established a thorough and 
scientific peer-review program.
    Suppose the state determined that we were going to connect 
some habitat and establish and spend money to do this project 
through both coastal salmon funding and through the Northwest 
Power Planning Council funding. As it's now written, there 
would be two or more duplicative approaches that would have to 
take place, one at the local planning level--two different 
approaches there--citizen advisory committees--two different 
approaches there--looking at separate planning documents, 
looking at long-term accounting and followup on that project 
until the--throughout the life and until any dirt actually 
could be turned.
    I'd simply suggest that the Committee amend the bill to 
allow existing processes in the region to fulfill the Act's 
intent where they already exist. I can assure you, the 
Committee, that Idaho and the region as a whole, actually, has 
in place processes that meet the Act's desires for annual 
plans, peer review, and public participation.
    Let me close by saying that Idaho appreciates the 
recognition granted in S. 1825. It's an important role for our 
anadromous stocks to play in the region. We have both dedicated 
biologists and concerned property owners who anxiously await 
coastal salmon funds so we can advance efforts. We ask that 
processes in place be granted deference so that precious time 
and resources are not lost in the duplicative efforts.
    And I thank you for your time and attention.
    [The prepared statement of Mr. Caswell follows:]

  Prepared Statement of James L. Caswell, Director, Office of Species 
                      Conservation, State of Idaho

    Madam Chairman and Honorable Members of the Oceans, Atmosphere and 
Fisheries Subcommittee:
    It is a privilege to come before you today and offer testimony in 
support of Senate Bill 1825--the Pacific Salmon Recovery Act. My name 
is James Caswell and I serve as the Director of our Governor's Office 
of Species Conservation for the State of Idaho. Our Governor and your 
former senate colleague, Dirk Kempthorne, sends his warmest regards.
    Passage of S. 1825 is of crucial importance to the State of Idaho. 
Its passage will allow Idaho to help the Federal Government fill its 
responsibility. That importance is reflected by the original co-
sponsorship of this bill by our Senators, Larry Craig and Mike Crapo. I 
wish to thank them for their efforts.
    Past Pacific Coast Salmon Recovery Fund allocations have largely 
overlooked Idaho despite the important role Idaho's anadromous stocks 
play in the overall recovery of Pacific Salmon. All of Idaho's native 
anadromous stocks are listed under the federal Endangered Species Act 
as either threatened or endangered. Though they spawn and are reared 
far from the shores of the Pacific Ocean, some Idaho stocks travel in 
excess of 1000 miles to reach and return from the Pacific Ocean, these 
majestic fish call the same Pacific Ocean home for a portion of their 
life cycle.
    I have traveled here to stress Idaho's support for S. 1825. From an 
Idaho perspective the greatest good resulting from passage of this bill 
would be the formalized recognition of Idaho's place in assisting the 
Federal Government in meeting its responsibilities by dedicating a 
portion of future Pacific Coastal Salmon Recovery Fund distributions to 
Idaho.
The salmon crisis in the Pacific Northwest cannot be resolved without 
        restoring Idaho's anadromous stocks

  <bullet>  Four of the eleven (36 percent) listed Evolutionary 
        Significant Units (ESUs) in the Columbia River originate in the 
        Snake River Basin: Snake River Sockeye, Snake River Spring/
        Summer Chinook, Snake River Fall Chinook, Snake River 
        Steelhead.

  <bullet>  Anadromous stocks from Idaho are the backbone of the 
        Columbia River run.

  <bullet>  Idaho produces the largest components of the spring/summer 
        Chinook and steelhead run.

Failure to restore anadromous runs in Idaho will prevent fisherman in 
        the Pacific Northwest, California, and Alaska from being able 
        to access healthy runs

  <bullet>  The ESA has placed onerous constraints on fisherman to 
        reduce harvest, at great expense to fishing families and 
        communities.

  <bullet>  Idaho's salmon are mixed with stocks from other areas in 
        traditional fishing areas. If runs from Washington and Oregon 
        are restored, but those in Idaho are not, fisheries from 
        Southeast Alaska to California will continue to be constrained.

Idaho has sufficient spawning and rearing habitat to support restored 
        runs of spring and summer chinook, sockeye and steelhead

  <bullet>  Idaho has 3,700 miles of habitat accessible to salmon and 
        steelhead, which represents enormous production potential.

  <bullet>  The remaining key spawning and rearing habitat for the 
        Snake River Fall Chinook is found mostly in Idaho or in the 
        Snake River bordering Idaho.

  <bullet>  Idaho streams comprise the largest percentage of habitat 
        and produce the bulk of wild spring and summer Chinook and 
        summer steelhead in the Columbia River Basin.

  <bullet>  The Snake River retains the potential to produce 63 percent 
        of natural-origin summer steelhead in the Columbia River Basin.

    The threatened status of Snake River fall chinook has constrained 
Pacific Salmon Treaty and other coastal fisheries stretching from 
California to Alaska. Idaho hopes that our inclusion in future 
allocations of the PCSRF will help reverse these declines which have 
cost the coastal states millions of dollars in lost revenue and jobs. 
The decline of spring/summer and fall Chinook salmon and steelhead in 
Idaho greatly constrains fisheries not just in Idaho, but Pacific 
coastal and Columbia River fisheries.
    That Idaho is a worthy recipient of PCSRF monies is a viewpoint not 
confined to the borders of the Gem State. I would like to draw your 
attention to a letter from Theodore W. Kassinger, General Counsel of 
the Department of Commerce, wherein he states ``In particular, we (the 
Department of Commerce) support the expansion of this funding (Pacific 
Coast Salmon Recovery Funds) to Idaho. As you know, many watersheds 
within Idaho contain some of the best salmon habitat in the Columbia 
River Basin. Support for the Pacific salmon recovery should be 
comprehensive and focused on opportunities to provide the greatest 
benefits to recovery of wild salmon populations. . . .'' The Columbia 
River Inter-Tribal Commission echoes these comments in stating: `` The 
Columbia River tribes continue to support expanding the program to 
explicitly include the State of Idaho's salmon restoration efforts.'' 
If Pacific salmon recovery is to be effective, its focus and the 
resources committed to these efforts must be spread out across the 
region.
    When the Pacific Northwest Governors affiliated with the Northwest 
Power Planning and Conservation Act and the Northwest Power Planning 
Council choose to address salmon recovery they did so on a regional 
basis; the result was the Four Governors' Recommendations on Salmon 
Recovery. This was the first time that the states of Idaho, Washington, 
Oregon and Montana had come together on a common approach that 
acknowledged that the only way to progress on real recovery is with a 
partnership between the states and Federal Government. They acted in 
this manner because they knew no single state can solve the problem and 
as stated by Jim Connaughton, Chair of the Council of Environmental 
Quality, ``When you speak as a region, you have our undivided 
attention''. This partnership is accomplishing more in a way that 
honors the roles of the individual states and tribes while promoting 
local planning for full salmon life-cycle restoration. The region has a 
plan upon which we all agree. This Four Governors plan can work in 
concert with the 2000 Federal Columbia River Power System biological 
opinion. The key is to now fully implement the federal biological 
opinion. With this spirit of cooperation among states and in 
partnership with the Federal Government, we are asking that Idaho be 
included in future allocations of the Pacific Salmon Coastal Recovery 
Fund. Let me be clear, any improvement in Idaho's listed anadromous 
stocks benefits all of our states that are committed to salmon recovery 
in the Pacific Northwest.
    Having mentioned our support for S. 1825, I'd like to take a moment 
and point out a few ways in which the Act might be improved. As an 
administrator tasked with conserving threatened and endangered species, 
I appreciate the enormous financial resources committed to the 
restoration of these species. I am sensitive to your desires to 
ascertain that the monies you authorize and appropriate are spent in a 
most efficient manner and that the states and tribes are held 
accountable for their actions. It is in that vein that I suggest that 
some of the processes required by this bill are duplicative of 
processes and safeguards already in place throughout much of the 
Pacific Northwest. Sec. 3(h)(1) asks that each eligible state and tribe 
``carefully coordinate the salmon conservation activities of that state 
or tribal government to eliminate duplicative and overlapping 
activities'' yet passage as written would in fact cause duplicative and 
overlapping activities. For example, under the Pacific Northwest 
Electric Power Planning and Conservation Act, the states of Idaho, 
Washington and Oregon and the tribes therein, already have an 
established, thorough scientific peer review program--the Independent 
Scientific Review Board. Suppose the State of Idaho determined to 
reconnect a once productive riparian area to currently existing habitat 
and determined to use both NWPPC Columbia River Basin Fish and Wildlife 
Program monies and PCSRF monies to complete the project. As the act is 
now written this project would have to be endorsed by both a local sub-
basin planning working group and some form of a citizen advisory 
committee, presented in two separate annual planning documents and then 
be presented initially to two scientific review panels with subsequent 
responses to address concerns raised by both review panels before one 
shovel of dirt could be turned. The accounting and follow up reporting 
would proceed down two separate tracks as well for the life of the 
project. Following that partial and yet lengthy example of the 
potential quagmire that awaits state and local conservation officers I 
would simply suggest that the Committee amend the bill to allow 
existing processes in the region to fulfill the Act's intent where and 
when they already exist. I can assure the Committee that Idaho already 
has in place processes that meet the Act's desire for annual plans, 
peer review and public participation.
    Let me close by saying that Idaho appreciates the recognition 
granted in S. 1825 as to the important role our anadromous stocks play 
in the region's salmon recovery efforts. We have both dedicated 
biologists and concerned property owners who anxiously await PCSR funds 
so that we can advance efforts which will pay dividends from Alaska to 
California. We ask that processes in place be granted deference so that 
precious time and resources are not lost in duplicative efforts. Thank 
you for your time and attention.

    Senator Smith. Thank you very much.
    Next we'll hear from Ms. Laura Johnson, Executive Director 
for the Inter Agency Committee on Outdoor Recreation/Salmon 
Recovery Funding Board for the State of Washington.

STATEMENT OF LAURA E. JOHNSON, EXECUTIVE DIRECTOR, INTERAGENCY 
 COMMITTEE ON OUTDOOR RECREATION/SALMON RECOVERY FUNDING BOARD

    Ms. Johnson. Good afternoon, Senator Smith. Thank you for 
the opportunity to be before the Subcommittee this afternoon. I 
am the Executive Director for the Washington Salmon Recovery 
Funding Board. Our administrative offices are with another 
state agency (``IAC''), which no one can pronounce, including 
myself.
    [Laughter.]
    Ms. Johnson. Washington State has faced this issue of 
endangered salmon for a number of years, including before the 
Pacific Coastal Salmon Fund was officially enacted in the 
appropriations process.
    At this point, we have 15 runs of wild salmon that are 
listed as threatened or endangered. Listings cover 75 percent 
of the land base of the State of Washington and about 90 
percent of where the population now lives. That population is 
just about 6 million people, so we have an enormous public-
policy challenge of how to restore the fish, how to protect the 
remaining habitat, and to do it in a way that achieves public 
support and also recognizes the reality that there are a large 
number of people living in the watersheds that the fish also 
live in or could live with restoration assistance.
    Our state legislature and our Governor have recognized this 
challenge in a variety of ways. They've established a 
Governors' Salmon Recovery Office, which is a separate 
institution from our board. We have had a major public 
enactment called the Forest and Fish Program which covers 
virtually all of the forestlands of the State of Washington and 
provides outstanding protection in a number of efforts in that 
regard.
    The legislature also had, I think, the great wisdom to 
recognize that people needed to be involved in this effort, and 
particularly in regard to habitat restoration. In that regard, 
the legislature, with the Governor's full support, established 
the Salmon Recovery Funding Board, and its local institutions 
that we call ``lead entities''. Every one of the 26 throughout 
the State of Washington has a slightly different official name; 
the best title the legislature could come up with was ``lead 
entity''. But 26 of these locally based watershed-based 
institutions now exist, and all funds that are spent by the 
state must go through the lead entity process.
    At each lead entity, there's local public review. There's 
local volunteer effort. There's identification of sponsors for 
projects--of course all on a willing basis, willing landowner 
basis. And those local efforts are then forwarded to the Salmon 
Recovery Funding Board, which is appointed by the Governor, and 
currently chaired by a gentleman named Bill Ruckelshaus, who 
was also the first administrator of the EPA.
    And I would note also, Mr. Smith, that he is also serving 
on this Subcommittee's Oceans Task Force and is not available 
to be here today because he is at a meeting of that group; he 
sends his apologies. He also extends his willingness to this 
Subcommittee, to appear at some point in the future, should you 
wish have his comments on this issue.
    Very much like the other states, and particularly very 
similar to Oregon, our funding board has a rigorous process 
that includes both the local public review, the local technical 
review, a state technical panel, and a state public-process 
review. The net result of this has been the investment to date 
of approximately $60 million of state funds and a little over 
$100 million of federal funds. Some of the projects are 
captured, like Mr. Huntington, in the report that we just did 
on a portion of that, the 18 months of the federal funding 
officially known as the Pacific Coastal Salmon Fund.
    Very similar to other states, but in some respects 
different, Washington State also shares the concerns of the 
other states about the duplication of process. We believe we 
have established methods which assure credibility, but also 
excellent public participation and an excellent grassroots 
approach that really builds the citizen support that will be 
necessary if salmon recovery is going to be a reality in the 
State of Washington. This is not an issue that can be imposed 
from the top down. This is something that people who live in 
the watersheds really are going to have to participate in. And 
the Federal funds and the state funds have not only done good 
work in and of themselves in issues such as relieving fish 
passage problems or habitat restoration, but they've also done 
the tremendous public good of getting citizens involved and 
getting citizens to care. And that, we think, is an equally 
important product--very difficult to measure, I grant you, but 
a very important issue.
    So we are concerned about the duplication that might 
present itself with the current version of the bill, and we do 
certainly share with the other states the willingness to work 
on technical language and other approaches.
    We'd also comment that we share, with the State of Alaska--
we do have the treaty responsibilities that were expressed by 
Senator Stevens earlier, Senator, before you were able to be 
present. And so we do have a concern that the distribution of 
funding by any formula, whether it's by appropriation or 
statute, does need to take into account those very real 
differences that the states have--of population, of length of 
streams, of previous legal requirements; in our case, we have a 
number of treaty requirements with our tribal communities. 
Likewise, we have a number of efforts underway with the 
Northwest Power Planning Council. And I think the complexities 
of these issues need to be adequately reflected in the bill.
    With that, Mr. Smith, I thank you for your time.
    [The prepared statement of Ms. Johnson follows:]

Prepared Statement of Laura E. Johnson, Executive Director, Interagency 
     Committee on Outdoor Recreation/Salmon Recovery Funding Board

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify regarding the Pacific Salmon Recovery Act, S. 
1825. I am Laura Johnson, Executive Director for the Washington State 
Salmon Recovery Funding Board (SRFB) and its office, the affiliated 
agency known as the Interagency Committee for Outdoor Recreation (IAC). 
I will comment briefly on Washington's actions to help restore wild 
salmon by building community support for strategic restoration 
investments.
    Fifteen runs of wild salmon have been federally listed as 
threatened or endangered across 75 percent of Washington State's land 
base--where 90 percent of our population lives. The magnitude and 
geographic extent of the listings pose a significant policy challenge--
how can we most effectively restore the vitality of the salmon 
resources in a state that now has almost 6 million residents.
    Washington's Governor and the State Legislature have responded with 
a framework for Washington citizens to address salmon recovery. The 
Congress has also offered its assistance in addressing the challenge 
posed by the federal listings.
    My remarks will highlight the state's 1999 enactment of the 
``Salmon Recovery Act'', Ch. 77.85, Revised Code of Washington. The Act 
established two key elements of the state's recovery framework--the 
Washington Salmon Recovery Funding Board (``SRFB''), and its associated 
local watershed partners, called ``lead entities.'' Because the Salmon 
Recovery Funding Board's work is directly related to proposed S. 1825, 
I will also comment on the interaction of the federal measure and our 
existing state processes.
Overview of Washington's Recovery Initiatives
    Before I offer a more detailed explanation of the SRFB process, let 
me also point out a few of the other related salmon recovery processes 
underway in Washington State:

  <bullet>  The Governor's Salmon Recovery Office coordinates the 
        state's overall recovery strategy, as set out in the Statewide 
        Strategy to Recover Salmon: Extinction is Not an Option 
        (September 1999). The Office also leads the Cabinet of natural-
        resource agency directors as they ensure interagency 
        coordination, accountability of programs, and leadership.

  <bullet>  The Independent Science Panel, established by the state 
        legislature and appointed by the Governor based on 
        recommendations from the American Fisheries Society, is tasked 
        with providing high-level advice on monitoring, data and 
        recovery activities.

  <bullet>  The Forests and Fish Agreement, a voluntary pact negotiated 
        by forest landowners, covers 8 million acres of forestland and 
        60,000 miles of streams.

  <bullet>  Hatchery management changes are underway to help ensure 
        hatchery and wild fish do not compete, and harvest practices 
        have also been modified.

  <bullet>  The Comprehensive Monitoring Strategy is a project 
        requested by the Governor and SRFB, and enacted by the 2001 
        Legislature. It will develop a comprehensive monitoring 
        strategy and action plan to guide our management and 
        accountability tools--that is, where and how we measure our 
        fish and watersheds.
    Attachment A provides a more detailed review of current recovery 
initiatives.
Watershed Habitats--The Role of the Salmon Recovery Funding Board

         ``If we are going to be successful in recovering salmon 
        habitat it will be based on the energy and commitment of local 
        people supported by good science. The legislative wisdom of 
        creating a citizen-based, science-informed process is starting 
        to pay off in real results. I am confident it will return even 
        more significant benefits in the future.''

        --William D. Ruckelshaus, Chairman, Washington Salmon Recovery 
        Funding Board

    State policymakers and others understood that for wild salmon 
recovery to be successful, Washington would have to address the loss of 
spawning and rearing habitat in our watersheds. In 1999, the Washington 
Legislature provided for the habitat element of recovery by enacting 
the Salmon Recovery Act, Ch. 77.85 RCW. The Act established the Salmon 
Recovery Funding Board (SRFB), and created so-called ``lead 
entities''--or local citizen groups--to promote and coordinate salmon 
recovery activities in their communities and watersheds.
Salmon Recovery Funding Board Composition
    The funding board is comprised of 10 members--five citizens 
appointed by the Governor and five directors from state natural 
resource agencies. A wide range of interests and expertise are 
represented. Current Board Members are:

  <bullet>  William D. Ruckelshaus, Seattle Chairman of the Board

  <bullet>  Frank L. ``Larry'' Cassidy, Jr., Vancouver (Chairman, NW 
        Power Planning Council)

  <bullet>  Brenda McMurray, Yakima (Watershed & Environmental Issues)

  <bullet>  James Peters, Olympia (Natural Resources Director, Squaxin 
        Tribe)

  <bullet>  Steve Tharinger, Port Angeles (County Commissioner, Clallam 
        County)

  <bullet>  Conservation Commission, Steven P. Meyer, Executive 
        Director

  <bullet>  Department of Ecology, Tom Fitzsimmons, Director

  <bullet>  Department of Fish & Wildlife, Jeffrey Koenings, Director

  <bullet>  Department of Natural Resources, Doug Sutherland, 
        Commissioner

  <bullet>  Department of Transportation, Douglas B. MacDonald, 
        Secretary

    The Board meets approximately monthly at locations around the 
state. All meetings are open to the public, and participation is 
encouraged. The administrative office of the Salmon Recovery Funding 
Board is with the Interagency Committee for Outdoor Recreation (IAC), 
which ensures compliance with grant agreements as well as performing 
policy development and other duties.

Lead Entities--Local Restoration Partners
    The 1999 Salmon Recovery Act also created the local framework for 
restoration work, through a system of `` lead entities.'' As of May 
2002, the state has 26 lead entities, operating in all salmon-bearing 
watersheds.
    The lead entities are organizations of local or regional scale, 
convened by cities, counties, tribes, and including nonprofits and 
other interested parties in the area. The lead entities create 
inclusive citizen-based committees to solicit and prioritize local 
habitat project lists. They are responsible for using limiting factor 
analysis and other watershed assessment tools to identify and 
scientifically review projects that benefit salmon habitat within local 
watersheds. The lead entities must also work with local Technical 
Assistance Groups (TAGs) to include local scientific knowledge.

Selecting Restoration Projects and Efforts
    Once a lead entity has developed its local prioritized list, 
proposals on that list are submitted to the SRFB for possible funding. 
The Board's primary responsibility is to help fund the best salmon 
habitat projects and activities.
    To provide an independent statewide review of the proposals' 
science and technical merit, the SRFB has established a Technical Panel 
comprised of distinguished scientists and recovery experts. The 
Technical Panel applies its expertise and uses published criteria. 
Proposals are reviewed for their Benefit to Fish as well as the 
Certainty of Success that those benefits can be attained. The Technical 
Panel also reviews the lead entity's salmon recovery plans, and 
assesses how the proposed portfolio of projects supports the locally-
identified strategic directions for salmon recovery. The Panel's final 
recommendations are provided to the SRFB.

Public Participation and Accountability
    From its inception, the SRFB has insisted that its own processes 
for review, project selection and program administration be as 
transparent and accountable as possible.
    All meetings are open to the public, decisions are made on 
published criteria, and the Board has actively encouraged public 
participation by meeting throughout the state and by seeking advice 
(even critiques) on how to improve its work. Fund administration is 
rigorous, based on contracts for defined grant deliverables, 
``milestones'' to track progress, and requirements for site monitoring. 
IAC manages the grants with a state-of-the-art computer system 
available through the Internet. IAC also contracts with National Marine 
Fisheries Service (NMFS) to provide permitting assistance for needed 
environmental reviews, so grant funds can be implemented on-the-ground 
as swiftly as possible.
    In summary, Washington's system is premised on engaging and 
encouraging local citizens to make informed salmon habitat decisions. 
By offering incentives to the watersheds--primarily financial and 
technical assistance--and by establishing a structure for the 
watersheds to identify and support the best local projects, 
Washington's habitat recovery can achieve the support of those who live 
in the watersheds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Types of Projects Selected--A Competitive Process
    Restoration activities such as in-stream fish passage improvements 
or riparian habitat restoration are eligible for SRFB funding, as are 
habitat site acquisitions (in fee or by conservation easement), and 
assessments and studies designed to identify or improve restoration 
projects' feasibility. By law and Board policy, all proposals must be 
voluntarily submitted by the sponsor. Except under limited 
circumstances, funding cannot supplant existing resources and may not 
support actions otherwise required by law or regulation.
    The Board's process has proven to be popular, and highly 
competitive. Since 1999, the Board has held three full ``Grant Rounds'' 
(yearly Calls-for-Proposals), as well as assuming administration of 
earlier grants awarded under SRFB predecessors. In the three SRFB grant 
rounds, the lead entities submitted requests for 713 proposals, seeking 
$152.7 million in assistance. The Board reviewed all the proposals, 
and, since 2000, has awarded grants for just under $82 million to 359 
proposals.
    SRFB grants must have at least a 15 percent match from the project 
sponsor. The match can be from the sponsor's local financial resources 
(such as local stream restoration funds). SRFB also allows and 
encourages match by in-kind methods such as contribution of volunteer 
time, labor, professional consulting expertise, or materials. In 
practice, SRFB has found that sponsors often bring far more than the 
minimum 15 percent match to the grant.

Funding Salmon Habitat Restoration Efforts
    Both the Washington State Legislature and the Congress have 
provided significant funds to the SRFB to support salmon recovery 
projects and activities:

   State Funds, July 1999--June 2003 Biennial Appropriations:

     $ 64.9 million

   Federal Funds, Fiscal Year 1999 to 2002:

     $101.4 million

    Approximately $23 million of the federal funds to SRFB were subject 
to congressional marks to programs such as Forests and Fish 
implementation and Fish Mass Marking. $78 million of Federal funds were 
at SRFB disposal for local salmon recovery grants.
    The federal funds for grants are administered by SRFB using the 
competitive review process described above. A formal Memorandum of 
Understanding is in place between the SRFB and the National Marine 
Fisheries Service (NMFS). Reports are provided to the Governor and 
State Legislature on a biennial basis, and to the NMFS on an annual 
basis. A copy of our recent report on the Pacific Coastal Salmon funds 
is enclosed, Attachment B. (Electronic version of attachment does not 
include detailed project lists which will be provided to the Committee 
in paper format.)

S. 1825--Relation to Washington's Salmon Recovery Funding Process
    The support Congress has given to Washington's recovery efforts has 
been vital, and is deeply appreciated. Whether that support is 
expressed in an appropriations measure or by legislation such as S. 
1825, Washington will work towards salmon recovery using state and 
federal funds in the manner described above.
    Most of the elements and criteria expressed in S. 1825 are already 
in place in the Washington State system, and are important criteria for 
recovery funding, including:

  <bullet>  Accountability

  <bullet>  Transparency of process; opportunities for public 
        participation

  <bullet>  Application of science

  <bullet>  Strategic focus on benefits to fish

    However, Washington is concerned that the detailed requirements of 
S. 1825 will pose challenges to Washington's established processes. 
Because S. 1825 adds plans and an additional (third) layer of review to 
processes already being carried out, it will create delay and cost to 
our recovery participants. It is also not clear to us that the specific 
federal processes outlined in the measure will add accountability or 
criteria beyond that already included in the state's system. Washington 
therefore encourages the Committee to consider modifying the measure to 
avoid unnecessary duplication of plans and accountability measures.
    For example, in respect to the Peer Review process outlined in Sec. 
4, the states should be able to use the outlined process or an 
alternative process, for those states where peer review is already 
mandated and in use under state rules (with NMFS review and concurrence 
through the Memorandum of Understanding process, of course.) Likewise, 
Sec. 3 expresses legitimate goals for planning and reporting. However, 
we believe existing Washington methods in this regard already address 
the bill's criteria, and would support modification of the bill to 
allow existing state processes as an alternative to accomplish the 
desired result. Finally, because Washington has been able to contribute 
significant state funds to its recovery effort, any funding formula and 
processes should not operate as a disincentive to state policy and 
financial commitments. We will be pleased to work with the Committee 
and the other states to offer specific draft text in these regards, 
should the Committee so desire.

Conclusion
    Salmon recovery will continue to be a huge challenge for Washington 
State. SRFB Chairman Ruckelshaus has outlined where Washington now 
stands and our progress to date, Attachment C. Many of the key steps 
for the recovery of the salmon are in place. Through institutions such 
as the Washington Salmon Recovery Funding Board, credible public 
investments of state and federal funds assist our citizens in designing 
their own sustainable strategies for salmon resources. We deeply 
appreciate the efforts and enthusiasm of the thousands of Washington 
citizens now engaged in this work. On the federal level, we thank you 
for your efforts and support as well.
                                 ______
                                 
                                               Attachment A

  Status of Salmon Recovery Initiatives, Washington State--April 2002
   Washington Governor's Salmon Recovery Office, Olympia, Washington

Introduction
    Fifteen runs of wild salmon have been federally listed as 
threatened or endangered across 75 percent of Washington State. The 
reasons for the decline are long-term and complex: we have over-fished, 
hatchery fish have competed with wild fish for limited space and food, 
and human activity has radically changed the physical landscape and 
habitat over the last 150 years. And, as growing numbers of people--our 
population has more than doubled in the last 50 years and is expected 
to double again in the next 50--take water from rivers, there is less 
water to supply the needs of salmon.
Endangered Species Act Listings in Salmon Recovery Regions

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



Washington Coast                      Puget Sound                           Northeast Washington
  <bullet> Bull Trout                   <bullet> Bull Trout                   <bullet> Bull Trout
  <bullet> Lake Ozette Sockeye          <bullet> Chinook
                                        <bullet> Chum
Lower Columbia River                  Upper Columbia River                  Snake River
  <bullet> Bull Trout                   <bullet> Bull Trout                   <bullet> Bull Trout
  <bullet> Chinook                      <bullet> Chinook                      <bullet> Chinook
  <bullet> Chum                         <bullet> Steelhead                    <bullet> Sockeye
  <bullet> Steelhead                  ....................................    <bullet> Steelhead
                                      Middle Columbia River
                                        <bullet> Bull Trout
                                        <bullet> Steelhead
 

Management
State Adopts Important Administrative Actions
    Responding to the listings of fish in urban, forest, and 
agricultural settings is a slow and complex process. The Governor's 
Office and legislature have provided a coherent framework--the 
foundation--upon which to lay future crucial building blocks so that 
that people of Washington may collectively build salmon recovery.
    Salmon Recovery Funding Board. This five member citizen board, 
appointed by the Governor and chaired by William Ruckelshaus, supports 
salmon recovery by funding habitat protection and restoration projects 
and related programs and activities that produce sustainable and 
measurable benefits for fish and their habitat. The directors of five 
state agencies assist them.
    Governor's Salmon Recovery Office. The legislature established this 
office within the Governor's Office to coordinate the state's strategy 
for salmon recovery and assist in development of a broad range of 
recovery activities.
    Independent Science Panel. This body, also established by the 
legislature and appointed by the Governor from recommendations by the 
American Fisheries Society, is tasked with providing advice on 
monitoring, data, and recovery activities.
    Joint Natural Resources Cabinet. In 1997 Governor Locke brought 
together the state agencies that most affect salmon management in a 
forum called the Joint Natural Resources Cabinet. This cabinet of 12 
agency directors has created the guidance and accountability tools used 
in Washington and provides an ongoing avenue for interagency progress.
    The Statewide Strategy to Recover Salmon: Extinction is Not an 
Option. This strategy was completed in September 1999 and is our guide 
for what needs to be done over the long-term to recover salmon.
    State Agency Action Plans. Produced for each biennium, these detail 
specific salmon recovery activities undertaken by state agencies.
    Salmon Recovery Scorecard. This is the state's performance 
management system for salmon recovery actions; it contains a mix of 
natural environment and human-focused indicators that are intended to 
measure our progress.
    Comprehensive Monitoring Strategy. The 2001 Legislature mandated 
development, by December 2002, of a comprehensive monitoring strategy 
and action plan for watershed health with a focus on salmon recovery.
State Implements Early Management Actions
    Implementation of the Statewide Strategy to Recover Salmon: 
Extinction is Not an Option (September 1999) is a long-term task. 
Efforts during the first few years have focused available resources on 
specific activities intended to build state and local capacity, 
undertake immediate habitat protection actions, and prevent further 
losses of salmon and their habitat.
    Fisheries harvest. In 1999 Governor Locke and Canadian Fisheries 
and Ocean Minister Anderson re-negotiated a critical component of the 
landmark Pacific Salmon Treaty; it reduces the Canadians' catch of 
Chinook and coho whose home streams are in Washington. This follows an 
important 1998 Locke/Anderson agreement on conservation that had the 
effect of increasing by 30 percent the number of Puget Sound Chinook 
that return to our streams to spawn.
    Hatcheries management. How the state manages fish hatcheries is 
also changing to ensure hatchery fish do not compete with wild fish. 
One-third of the 100-plus hatcheries in Washington State are involved 
in recovering wild salmon runs; guidelines have been developed to 
protect the genetic integrity of wild salmon; and a first-ever 
scientific review of federal, state, and tribal hatchery practices is 
now underway.
    Water policy. To address the growing concerns about our ability to 
provide adequate water for people and for fish, Governor Locke and the 
State Legislature adopted initial reforms during the 2001 legislative 
session, aimed at making Washington's water laws more flexible. They've 
also created a Joint Executive-Legislative Water Policy Group that 
developed a proposal for the 2002 legislature. Water legislation was 
introduced to address three policy areas: instream flows for fish, safe 
and reliable water supplies for growing communities, and water saving 
incentives so farmers don't face the consequences of the current ``use 
it or lose it'' doctrine.
    Forests and Fish Agreement. This is a voluntary pact negotiated by 
large and small forest landowners; and federal, state, tribal, and 
county governments. It covers 8 million acres of forestland, protecting 
60,000 miles of streams and is the first agreement of its kind in the 
country. (In September of 2000, the Washington Environmental Council 
(WEC) and other environmental groups filed two lawsuits that challenged 
Washington's Forests and Fish Report and actions the Environmental 
Protection Agency (EPA) and The National Marine Fisheries Service 
(NMFS) have taken that endorse the Report. Recently, U.S. District 
Court Judge Barbara Rothstein dismissed both lawsuits. The Court left 
open, however, the possibility that 4 of WEC's 5 claims could be re-
filed once the state applies to NMFS for coverage for Forests and Fish 
under the 4(d) Rule and NMFS makes a decision on that application.)
    Shorelines Regulations. In August, the state Shorelines Hearings 
Board invalidated shoreline management guidelines adopted last November 
by the state Department of Ecology. Various business, local-government 
and private interests challenged the rules, intended to protect 20,000 
miles of freshwater and saltwater shorelines. Officials representing 
the state, environmentalists and business interests announced in late 
September that they would attempt to negotiate an agreement on new 
shorelines guidelines for the state.
    Agriculture, Fish and Water (AFW). Beginning in December 1999, 
state, federal, environmental, tribal and agriculture interests entered 
into negotiations to develop an agreement on how farmers could meet the 
needs of salmon under the Endangered Species Act and the Clean Water 
Act. To date, the negotiations have successfully produced guidelines 
for comprehensive irrigation district management plans and a mechanism 
to review pesticide registrations to ensure fish life is protected. 
Direct negotiations with the agricultural community are on hold for the 
next six months while several tasks are being concluded: the 
agricultural community will develop a scientific review of the buffer 
science in agricultural landscapes; and application will be made to the 
USDA to modify the Conservation Reserve Enhancement Program to reflect 
agreements on management for modified and near-natural agricultural 
watercourses.

State Supports Local Recovery Actions
    More than 800 government jurisdictions and agencies, and many more 
farms, businesses, homeowners, and private citizens are involved in 
salmon recovery. The Governor's Office and Joint Natural Resources 
Cabinet have set a high standard of collaboration, coordination, and 
mutual support to ensure local efforts have a strong likelihood of 
success. The key roles local partners play will be the major focus of 
state agencies for the next few years.
    Watershed Planning Units. Created by the Watershed Planning Act, 
these planning bodies include county and city governments, water 
purveyors, tribal representatives, and private citizens. Their task is 
to decide what actions need to be taken in their watersheds to provide 
adequate water for people and fish. Presently, there are 32 Planning 
Units covering 41 WRIAs.
    Lead Entities for Salmon Recovery. In the Salmon Recovery Planning 
Act, the legislature focused on the need to coordinate local action to 
restore habitat conditions necessary for salmon recovery. Lead Entities 
spearhead these local efforts and are responsible for recommending 
projects to the Salmon Recovery Funding Board for approval. There are 
26 Lead Entities covering 45 WRIAs.
    Regional Fisheries Enhancement Groups. Created by the legislature 
in 1990, these groups work under the guidance of the Washington 
Department of Fish and Wildlife. Sixteen of these non-profit groups 
develop projects in partnership with tribes, sports, fishers, private 
landowners and local, state and federal agencies.
    Regional Salmon Recovery Organizations. There are currently four 
organizations engaged in recovery planning for an entire salmon 
recovery region (roughly equal to an Evolutionarily Significant Unit, 
or ESU); a fifth group is in the beginning stages of organizing. These 
organizations are partnerships among governments, organizations, and 
landowners with a stake in recovering salmon; they perform many 
different functions, from assessing factors for decline of salmon, 
participating in development and implementation of the habitat portion 
of a recovery plan, to organizing and approving recovery projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Funding
    The 2001-2003 biennial budget for the State of Washington includes 
$270 million in salmon related expenditures for new activities, or 
changes to existing activities necessary to recover salmon or to meet 
the requirements of the Endangered Species Act (ESA). The budget is 
predicated upon $90.7 million in federal funding for the two-year 
period, and includes appropriations for federal Fiscal Year 2002 and 
2003. Major components include:

Salmon Recovery Funding Board Grants
$68.7 million ($26.3 M State Bonds, $42.4 M Federal)
    The Salmon Recovery Funding Board (SRFB) provides grants to local 
governments, tribes, nonprofit organizations, and state agencies for 
salmon habitat restoration, acquisition and assessments. In the 1999-
2001 biennium, the SRFB awarded $99.4M ($36.2M State and $63.2M 
Federal) in grants and programmatic activities for salmon recovery. To 
date, the SRFB has provided grants for 517 projects with a value of 
$96.4M.
    The 2001-2003 biennial budget assumes $43.6 ($30.0M for FFY 2002 
year and $14.0M for FFY 2003, less $358K administrative overhead) from 
the Pacific Salmon Coastal Recovery program, administered by the 
National Marine Fisheries Service (NMFS). A match of $26.3M is assumed 
in the state budget.

Forests and Fish Implementation
$20.9 million ($12.7 M State, $8.2 M Federal)
    In 1999, the State legislature passed revisions to the state's 
forest practices regulations to make changes in timber harvest 
activities to meet ESA and Clean Water Act requirements. The Forest 
Practices Board has adopted a final rule package to implement the 
Forests and Fish Agreement. The Department of Natural Resources is 
developing data systems, hiring enforcement staff, operating a small 
landowner office and other work necessary to implement these rules.
    The 2001-2003 biennial budget includes $20.9 million in state and 
federal funds to implement the Forests and Fish rules. The State budget 
assumes that a minimum of $4 million a year in federal funds will be 
provided for FFY 2002 and FFY 2003 through the Pacific Salmon Coastal 
Recovery program in the NMFS budget. This is the same level as provided 
in FFY 2000 and FFY 2001. This funding would continue to be passed 
through the SRFB to the Department of Natural Resources.
    State agencies managing forestlands also need to inventory and 
modify forest roads to protect salmon. The state budget includes $4.9 
million for the Departments of Natural Resources, Fish and Wildlife, 
and the State Parks and Recreation Commission to begin meeting these 
requirements. The Department of Fish and Wildlife assumes $200,000 of 
this amount in federal funding from the Bonneville Power Administration 
(BPA) to help meet their obligations.

Hatchery Reform
$23.7 million ($9.3 M State, $13.9 M Federal, $0.5 M Local)
    Washington State, federal agencies and Washington treaty tribes 
operate the largest system of hatcheries in the world. The NMFS 4(d) 
rule requires all hatcheries to develop and implement Hatchery Genetic 
Management Plans (HGMPs) to ensure that these facilities do not harm 
salmon species listed under the ESA. In FFY 2000, Congress provided 
$3.8 million through the U.S. Fish and Wildlife Service for the 
Washington Hatchery Improvement Project to conduct scientific research, 
and to redesign hatcheries to meet ESA requirements.
    The 2001-2003 biennial budget assumes $5 million for FFY 2001, and 
$5.6 million for both FFY 2002 and FFY 2003 for continuation of the 
Washington Hatchery Improvement program. The Washington State 
Interagency Committee for Outdoor Recreation, which also supports the 
SRFB grant process, would administer this funding.
    The budget for the Department of Fish and Wildlife includes $9.8 
million in state and local funds to redesign and improve state 
hatcheries. It also assumes $2.7 million in federal funding through the 
BPA for reforms at Mitchell Act hatcheries.

Fish Passage Barriers and Screens
$16.2 million ($6.7 M State, $8.3 M Federal, $1.2 M Local)
    Inadequate fish passage and improper screens on irrigation 
diversions are significant factors limiting recovery of salmon. Not 
only are smolts inadvertently sucked into irrigation pumps, spawning 
adults lack access to important habitat.
    The 2001-2003 biennial budget includes $16.2 million to correct 
fish passage barriers and screens. This includes $6.7 million in state 
funds, $4.3 million of federal funding from BPA, $550,000 from the U.S. 
Fish and Wildlife Service Dingel-Johnson allocation, and $3.5 million 
anticipated under Pub.L. 106-502  The Fisheries Restoration and 
Irrigation Mitigation Act of 2000 for the Department of Fish and 
Wildlife to correct blockages and screens at its facilities. The budget 
also includes state funding for the Department of Transportation to 
correct fish passage barriers. Fish passage barriers will also be 
corrected as state agencies begin updating forest roads to meet the 
requirements of the Forests and Fish agreement on state lands.

Pacific Salmon Treaty Implementation
$6.7 million ($1.7 M State, $5 M Federal)
    The 1999 Pacific Salmon Treaty requires buyback of commercial 
salmon fishing licenses. The state has provided $1.7 million in state 
funds to be matched by $5 million in federal funds appropriated in FFY 
2001.

Pesticide Strategy
$1.6 million State Funds ($1.3 M State, $0.3 M Federal)
    The state is developing a comprehensive strategy for assessing 
pesticide impacts on threatened and endangered salmonids in Washington 
State. This strategy is being developed by the Washington State 
Department of Agriculture in conjunction with the National Marine 
Fisheries Service NW Region, U.S. Fish and Wildlife Service Western 
Washington Office, U.S. Environmental Protection Agency Region 10, U.S. 
Geological Survey (USGS), Washington State University, and the 
Washington State Departments of Ecology, Natural Resources, and Fish 
and Wildlife. The strategy will use surface water monitoring to 
determine salmonid exposure to pesticides, evaluate the impact of 
exposure at various life stages, and then propose appropriate 
mitigation actions. In addition to the $1.3 million in state funds, 
$245,000 in additional federal funding per year is requested to expand 
the surface water monitoring program in Washington State. This funding 
will allow expanded monitoring in basins representing the various 
cropping patterns in the state and which provide critical habitat for 
salmon.

Future Actions
    The 1999 Statewide Strategy to Recover Salmon recognizes that most 
habitat protection and restoration initiatives are best implemented at 
the watershed level in partnership with local, tribal, and private 
entities, and with state and federal guidance and support. The Strategy 
also notes recovery plans that integrate habitat, hydropower, 
hatcheries, and harvest are best built collaboratively by local 
participants. In the remainder of the present biennium (i.e., through 
June 2003), the focus for salmon recovery will be in continuing support 
for local salmon recovery activities, providing water for fish, and in 
completing the statewide comprehensive monitoring strategy.

Supporting Regional Salmon Recovery Planning
    Regional Action Plan. Recently, state agencies and regional 
organizations developed an action plan to support regional efforts at 
achieving diverse and productive wild salmon populations. The action 
plan includes specific state agency and regional organization 
commitments to enhance the effectiveness of everyone's efforts.
    Guidance Documents. The Governor's Salmon Recovery Office assists 
regional organizations in assessments; planning; monitoring; managing 
data; and integrating hatchery, hydropower and harvest issues. The 
types and extent of support provided to the regions changes through 
time, depending on the success, needs and maturation of the region. The 
Office has produced several documents to assist local organizations in 
the development of recovery plans:
    Guidance on Watershed Assessment for Salmon (2001). This 
publication helps watershed groups, state agencies and others 
understand what kinds of assessment are needed to make decisions about 
projects and other actions to protect and restore habitat for salmon.
    Roadmap for Salmon Habitat Conservation at the Watershed Level 
(2002). This document helps local groups take key steps needed for 
salmon habitat conservation in their watershed and relate their work to 
regional salmon recovery planning. The Salmon Office offers workshops 
to state agency staff to support their efforts helping local and 
regional partners apply the Roadmap to their watersheds.
    Reference Guide to Salmon Recovery. This document explains what 
salmon recovery means, what is happening, and who is involved at 
different geographic scales. This information will help people who are 
interested in salmon recovery and salmon habitat conservation in their 
watershed better understand the broad context of salmon recovery. It 
also identifies some sources of additional information that are 
available.
    Recovery Plan Model. This model will identify the essential 
elements of a recovery plan, a document that will comprehensively 
define actions necessary to recover one or more salmon populations 
within a region.
    Identifying Limiting Factors. The Conservation Commission has 
completed reports on habitat factors that limit salmon and steelhead 
production in watersheds for 36 of the 62 Water Resource Inventory 
Areas. By the end of the 2001-2003 biennium, all watersheds with a Lead 
Entity will have a completed report. This will provide important 
baseline assessment information for setting priorities for habitat 
restoration projects.

Providing Water for Fish
    Sixteen major water basins do not have enough water for fish. 
Adoption of in-stream flow regulations in 4 high-priority basins will 
be accelerated and local planning units will receive state financial 
and technical assistance. Stream flow restoration plans, water 
conservation and waste water reuse programs will be implemented in high 
priority basins. This includes buying water rights to increase the 
water supply for fish, providing technical and financial assistance for 
small water systems, and creating a new water conservation program for 
farms.

Monitoring Results
    Measuring progress toward salmon recovery helps those involved know 
if they're making the right decisions and taking the most appropriate 
actions. Some early salmon recovery actions included monitoring 
components, but they were not always consistent, comprehensive, or 
coordinated. Responding to recommendations of the Independent Science 
Panel, the 2001 Legislature established a committee to develop a 
statewide comprehensive monitoring strategy and an action plan with an 
adaptive management framework. The plan will address watershed health 
with a focus on salmon recovery. Federal, tribal, and local government 
partners are part of the endeavor. The committee report is due in 
December 2002 and it will identify steps needed to have the monitoring 
strategy fully implemented by June 30, 2007.
                                 ______
                                 
                                               Attachment B
              Pacific Coastal Salmon Recovery Fund (PCSRF)
                    December 31, 2001 Annual Report

I. Introduction and Background
    FFY 1999: In the immediate predecessor to the Pacific Coastal 
Salmon Recovery Fund, the State of Washington received federal funding 
of $19 million through the U.S. Fish and Wildlife Service. These 
dollars were earmarked for particular areas of the state and 
distributed by the Governor's Salmon Recovery Office. Grants were 
issued for habitat restoration, land acquisition, local capacity 
building, and plans and assessments.
    FFY 2000-2001: Through its new Salmon Recovery Funding Board 
(``SRFB''), the State of Washington received federal Pacific Coastal 
Salmon Recovery Funding (``PCSRF'') in the federal 2000 and 2001 
appropriations: $47.9 million total. The National Marine Fisheries 
Service (NMFS) is the federal administrator. $8.0 million of the funds 
were earmarked for direct support to the ``Forests and Fish'' program. 
The remaining funds were used by the Salmon Recovery Funding Board to 
make grants for: habitat restoration; acquisition of land, rights and 
easements; and plans and assessments. The second issuance of 2001 
federal funds ($12.0 million) is being allocated for programmatic 
activities, such as regional recovery capacity, instream flow 
protection and drought relief, the Forests and Fish Program, and 
restoration projects.
    The 3 years of federal PCSRF funds have funded 111 organizations 
conducting 287 projects. These projects have also included non-federal 
matching funds and volunteer support with a value of over $18 million. 
See attachment A for a detailed listing of the funded projects and 
their matches.
    During the same time, the State of Washington has contributed state 
funds in the amount of $36 million towards salmon recovery efforts 
through the SRFB. The state funds have supported 95 locally-based 
organizations conducting 211 projects, and are matched with over $24 
million in value contributed by the projects' sponsors. See attachment 
B for a detailed listing of these funded projects.
    With the PCSRF support, Washington State has also funded activities 
and programs. Federal funds have funded two rounds of Forests and Fish 
activities and state dollars have funded 13 programs, totaling over $9 
million. See attachment C for a detailed listing of the funded 
activities and programs.
    Washington's concentrated effort to offer grants to support 
locally-based salmon recovery projects is relatively new. In a few 
projects, fish have already started using newly-opened habitat. For 
most projects, however, because of salmon life-cycles, it will be 
another year or two before we may see the benefits to fish resources 
that we started to help in 1999. It will probably take at least two 
full salmon life-cycles, or until 2010, before the states in PCSRF are 
able to reach ``recovery''.
    Washington recognizes that the recovery of fish is a long-term 
investment. Not all the pieces of an ``ideal'' recovery structure are 
in place now. For example, final federal recovery goals have not been 
set for each species, and the state's Plan(s) to address such Goals are 
necessarily dependent in part on such targets. While we are building 
the longer-term structure for recovery, the state is not ignoring the 
need to take interim actions; we must implement some short-term 
improvements for the fish. Washington's interim actions include strong 
emphasis on involvement of local governments, active participation by 
stakeholders in their watersheds, gaining knowledge through 
comprehensive assessments, and funding to support actions that improve 
conditions for fish, including unblocking habitat and protecting 
habitat areas.
    To ensure it is part of the effort to move effectively toward the 
more ideal structure for recovery, the SRFB is using an adaptive 
management approach in its work. The Board is continually refining its 
process to fund better projects and ensure the success of actions 
taken.
    The Board recognizes that local efforts and science are the keys to 
the success of salmon recovery. Local support coupled with good science 
and technical expertise are essential in ensuring the best projects are 
proposed to the Board for funding in its annual grant process.
    To help ensure local support and participation, the Board works 
through local organizations called lead entities. These organizations 
are required to develop a strategy to identify and prioritize their 
area's project proposals. Lead entities use local technical experts to 
evaluate the technical merits and certainty of project technical 
success. Then, local Citizen Committees rank the proposals to ensure 
priorities and projects have the necessary community support for 
success. Finally, the Board's Technical Panel helps the Board ensure 
overall benefits to fish and certainty of success of the project 
proposals.

II. Work Accomplished and Benefits to Salmon

A. Salmon Habitat Restoration
    The SRFB funds restoration and acquisition projects in the 
following categories, using federal and state funds, together with 
local contributions for match:

  <bullet>  In-stream Diversions:  These projects include those items 
        that affect or provide for the withdrawal and return of surface 
        water, such as screening of fish from the actual water 
        diversion (dam, headgate), the water conveyance system (both 
        gravity and pressurized pump), and by-pass of fish back to the 
        stream.

  <bullet>  In-Stream Passage:  These projects include those items that 
        affect or provide fish migration up and downstream to include 
        road crossings (bridges and culverts), barriers (dams, log 
        jams), fishways (ladders, chutes, pools), and log and rock 
        weirs.

  <bullet>  In-Stream Habitat:  These freshwater projects address or 
        enhance fish habitat below the ordinary high water mark of the 
        water body. Elements include work conducted on or next to the 
        channel, bed, bank, and floodplain by adding or removing rocks, 
        gravel, or woody debris. Other items necessary to complete 
        these projects may include livestock fencing, water conveyance, 
        and plant removal and control.

  <bullet>  Riparian Habitat:  These projects include those freshwater, 
        marine near-shore, and estuarine items that affect or will 
        improve the riparian habitat outside of the ordinary high water 
        mark or in wetlands. Projects may include plantings or plant 
        management, livestock fencing, stream crossings, and water 
        supply.

  <bullet>  Upland Habitat:  These projects address sites or activities 
        that affect water quality and quantity important to fish, 
        occurring above the riparian or estuarine area. Elements can 
        include the timing and delivery of water to the stream; 
        sediment and water temperature control; plant removal, control, 
        and management; and livestock fencing and water supply.

  <bullet>  Estuarine/Marine Nearshore:  These projects address sites 
        or activities that affect or enhance fish habitat below the 
        ordinary high water mark of the water body. Projects include 
        work conducted in or adjacent to the intertidal area and in 
        subtidal areas. Items may include beach restoration, bulkhead 
        removal, dike breaching, planting or plant management, and tide 
        channel reconstruction.

  <bullet>  Acquisition:  These projects include the purchase of land, 
        access, or utilization of rights in fee title or by perpetual 
        easement. Rights or claims may be acquired, provided the value 
        can be established or appraised.

         The grant awards and number of projects for restoration and 
        acquisition categories awarded by the Salmon Recovery Funding 
        Board with FFY 2000 and 2001 funds are shown below:

------------------------------------------------------------------------
                                                                 No. of
           Category             PCSRF Funding   State Funding   projects
------------------------------------------------------------------------
In-Stream Diversions.........        $277,400        $675,207          6
In-Stream Passage............       3,825,698       2,171,841         40
In-Stream Habitat............       4,347,355       5,396,791         53
Riparian Habitat.............         495,289         596,185         15
Upland Habitat...............       1,073,016         898,403         14
Acquisition..................       8,153,626       4,595,935         38
Combination [Acquisition &          4,204,385       4,202,849         21
 Restoration]................
                              ------------------------------------------
    Total....................     $22,376,769     $18,537,211        187
------------------------------------------------------------------------
Note: U.S. Fish and Wildlife funds awarded in 1999 and the Interagency
  Review Team awards in 2000 are not included in this chart.

B. Planning/Assessments
  <bullet>  Assessments and Studies:  These types of projects may 
        include feasibility studies; channel migration studies; reach-
        level, near-shore, and estuarine assessments; and inventories 
        such as barriers, unscreened water diversions, and landslide 
        hazard areas. A feasibility study could include assessing the 
        willingness of landowners to allow access to their land for a 
        habitat restoration project or to consider selling a property 
        interest.

         The results of proposed assessments must directly and clearly 
        lead to identification, siting, or design of habitat protection 
        or restoration projects. Assessments intended for research 
        purposes, monitoring, or to further general knowledge and 
        understanding of watershed conditions and function, although 
        important, are not eligible for SRFB funding.

         Assessments must be closely coordinated with other assessments 
        and data collection efforts in the watershed and with federal, 
        tribal, state, regional, and local organizations to prevent 
        duplication and ensure the use of appropriate methods and 
        protocols. To improve coordination, lead entities and 
        applicants are encouraged to partner with each other. 
        Assessments and studies must be completed within 2 years unless 
        additional time can be justified by the project sponsor.

         The grant awards and number of awards for Assessments/Studies 
        and programmatic activities awarded by the Salmon Recovery 
        Funding Board is shown in the following table:

------------------------------------------------------------------------
                                                                 No. of
           Category             PCSRF Funding   State Funding   projects
------------------------------------------------------------------------
Local Assessments/Studies....      $1,390,975       3,866,990         47
Forests and Fish.............       8,836,000  ..............          3
Regional Capacity............       2,000,000  ..............          1
Nearshore Project............  ..............         375,000          1
Other programs and activities  ..............       8,888,222         12
In-Stream Flows..............       6,000,000  ..............          1
                              ------------------------------------------
    Total....................     $18,226,975     $13,130,212         65
------------------------------------------------------------------------
Note: The U.S. Fish and Wildlife funds awarded in 1999 and the
  Interagency Review Team awards in 2000 are not included in this chart.

         A paragraph on each project funded can be found in Attachment 
        D.

C. Salmon Research and Monitoring
    Measuring our success in recovering salmon and maintaining 
watershed health is vital. Policy makers and salmon advocates must have 
tools to know what is working for fish and watersheds, so they can 
determine the success of public, private and volunteer investments. The 
SRFB requested state legislative support for a major strategic 
initiative during 2001 and 2002. This effort, known as the 
Comprehensive Monitoring Strategy, will identify current monitoring 
efforts, and recommend future approaches to regional, watershed and 
project-scale monitoring. The Strategy will also address the state's 
Independent Science Panel (ISP) recommendation that the state develop a 
coordinated monitoring strategy and action plan to meet salmon recovery 
goals and objectives.
    A Monitoring Oversight Committee has been established. It is co-
chaired by the director of the Governor's Salmon Recovery Office and 
the Chair of the Salmon Recovery Funding Board. The directors of 8 
state agencies are members. The treaty tribes, federal agencies such as 
EPA, and local government and watershed groups also participate. 
Legislative oversight is provided by a bipartisan legislative steering 
committee of 4 legislators.
    An interim Report was provided to Governor Locke and legislative 
committees on March 1, 2002. A final report is due by December 1, 2002. 
The final report must include the monitoring strategy and an action 
plan for implementation. The recommendations must be based on a goal of 
fully implementing an enhanced and coordinated monitoring program by 
June 30, 2007.
    The ISP will advise the oversight committee, review all work 
products, and make recommendations to the Monitoring Strategy Project. 
The ISP may be contacted at http://www.governor.wa.gov/esa/science.htm.
    The Strategy will enable the state to more effectively identify the 
type and extent of monitoring needed at differing scales, such as 
region-wide, watershed or at the level of each individual project. In 
the meantime, project-level monitoring is a required element of SRFB-
funded projects. SRFB is also supporting a number of watershed-scale 
assessments. These assessments provide specific identification of 
worthy future projects, but also help establish baseline information 
that will be needed to understand future monitoring results.
    Numerous agencies and citizen organizations are engaged in 
monitoring a wide range of salmon recovery activities. The SRFB is 
committed to encouraging a greater degree of coordination of these 
efforts.

D. Outreach and Education
    SRFB encourages active public participation. The Board's monthly 
and semi-monthly meetings are held in watershed locations around the 
state, and the Board also seeks on-the-ground tours of local areas with 
local salmon advocates. The Board's Technical Panel--experts assembled 
to review all project proposals--has traveled to each of the state's 
lead entities areas before reviewing project requests. The Board also 
works closely with the Governor's Natural Resources Cabinet and federal 
agencies.
    In addition to the Board, a number of organizations in the State of 
Washington are focused on outreach and education, such as Regional 
Fisheries Enhancement Groups, schools, People for Salmon, and Long Live 
the Kings.

E. Salmon Enhancement/Supplementation
    A number of organizations in the State of Washington are focused on 
salmon enhancement/supplementation, such as Regional Fisheries 
Enhancement Groups. At this time, the SRFB is focusing on on-the-ground 
projects and relying on other organizations for supplementation.

F. Local Capacity
    Local capacity for salmon project sponsorship and related actions 
is primarily funded through other organizations. Listed below are a few 
of the local organizations the Salmon Recovery Funding Board works 
closely with:

  <bullet>  Lead entities:  (With Washington State Department of Fish 
        and Wildlife)

   Lead entities are organizations in a geographic area that come 
        together with a common goal to recover salmon. A lead entity's 
        statutory responsibility is to use limiting factors analysis 
        and other watershed assessments or studies to identify and 
        prioritize projects that benefit salmon habitat within a 
        defined geographic area. Technical sub-committees typically 
        perform the role of screening and reviewing applications for 
        scientific merit. Citizen committees, composed of diverse 
        habitat interests, are statutorily responsible for adopting 
        habitat project lists using information from the science sub-
        committees. Habitat project lists are submitted to the Salmon 
        Recovery Funding Board (SRFB) or other granting sources for 
        funding.

  <bullet>  Local planning units:  (With Washington State Department of 
        Ecology)

   Local Watershed Planning Units were created to develop local 
        watershed plans for managing water resources for in-stream and 
        out-of-stream use.

  <bullet>  Conservation districts:  Washington Conservation Commission

   Conservation districts are a unique form of non-regulatory agency, 
        matching local resource needs with technical and financial 
        resources, and helping landowners apply conservation on the 
        ground.

  <bullet> Watershed stewards:  Washington State Department of Fish and 
        Wildlife

   Watershed Stewardship Teams have been formed to assist lead entities 
        efficiently utilize the resources and expertise within 
        Washington State Department of Fish and Wildlife. Team members 
        are to provide leadership, coordination, and technical 
        assistance to facilitate the development, effectiveness, and 
        success of local community salmon recovery efforts.

  <bullet> Regional Fisheries Enhancement Groups:

   The Regional Fisheries Enhancement Group (RFEG) program is a 
        legislative program designed to include citizens in salmon 
        restoration efforts. Twelve non-profit groups of volunteers 
        cooperate with the Washington Department of Fish and Wildlife 
        (WDFW) to improve salmon resources throughout the state. 
        Dedicated funding supports project activities.

G. Administration
    The federal funds have limited the amount of administrative 
overhead that the SRFB can use to operate the PCSRF program to 1 
percent for the State of Washington. One percent is not sufficient to 
administer these funds, therefore, state funds are used to supplement 
the federal administration dollars. Total administration dollars for 
the state and federal funds is under 4 percent.
                                 ______
                                 
                                               Attachment C

                          Washington's Salmon
                          Getting To Recovery
An Update For Congress
March 2002

    Dear Reader,
    When I accepted the chairmanship of Washington's Salmon Recovery 
Funding Board, I did so out of optimism:

  <bullet>  Optimism that the fish are worth saving, for their own sake 
        as well as for the recreational and economic benefits they 
        bring to so many citizens;

  <bullet>  Optimism that by benefiting the fish and their habitats, we 
        will also benefit our communities' clean water, land base, and 
        business climate;

  <bullet>  Optimism that our citizens, by crafting locally-based 
        recovery measures, will create salmon recovery strategies that 
        are better and more sustainable than regulation or court action 
        alone could achieve;

  <bullet>  Optimism that our state and federal governments will 
        provide sufficient resources for at least two more salmon life 
        cycles, to assist our citizens in designing their own 
        sustainable salmon future.

    These views are tempered by some real truths:

  <bullet>  This work is painfully slow;

  <bullet>  Some of our work will fall short. (But, we should call it 
        failure only if we do not learn from these ``mistakes''); and,

  <bullet>  As we make strides towards recovery, it is very difficult 
        to identify how we are making progress along the way. However 
        difficult, we must and will do our best to show that 
        improvement is being made--and how the public and decision 
        makers are connected to that progress.

    This paper outlines how an ideal strategy for salmon recovery would 
look, where we believe we are now, and how we are proceeding in the 
interim towards healthy and sustainable conditions, for fish and for 
people, in our watersheds.
    We invite your support.

Chairman William D. Ruckelshaus

Washington Salmon Recovery Funding Board
     What Would the Ideal Structure for Salmon Recovery Look Like?
Ideally, we should have:

  <bullet>  Recovery Goals, set for all salmon species in each region;

  <bullet>  A Plan that integrates all ``H'' factors (habitat, harvest, 
        hydro & hatcheries), so as to meet the recovery goals;

  <bullet>  Clear and strong community support for actions, and a 
        timeline to meet the goals;

  <bullet>  Adequate funding to support actions on the timeline;

  <bullet>  A Monitoring system to measure success; and

  <bullet>  Enforcement of resource protection standards.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Fall 2001--Returning Chinook salmon find a restored new channel and log 
jam shelters instead of a bare concrete channel, at Gorst Creek, near 
Bremerton
SFRB Project # 00-1111.
                       To Help Achieve That Ideal
Actions To Support the Ideal Strategy Will Include:

  <bullet>  Developing recovery goals and plans at regional levels for 
        listed species;

  <bullet>  Coordinating efforts on habitat, harvest, and hatcheries at 
        the regional level;

  <bullet>  Fostering inclusive watershed and regional groups to help 
        determine goals and make commitments necessary to achieve them;

  <bullet>  Assessing habitat conditions;

  <bullet>  Developing strategies to prioritize habitat actions;

  <bullet>  Funding conservation, preservation, and restoration 
        projects that improve immediate conditions for fish;

  <bullet>  Developing hatchery management plans consistent with ESA 
        requirements and reform practices;

  <bullet>  Continuing to improve harvest management--and to make these 
        decisions more transparent; and, not least

  <bullet>  A communication plan to inform, build support, involve and 
        mobilize citizens.

                      Interim Measures of Success

The ideal longer-term Structure and Strategy are not yet in place. As 
        we move in that direction, Interim Measures of Success are 
        needed, likely through at least 2010. Progress in the 
        ``Interim'' is shown by:

  <bullet>  An expanded involvement of local governments, tribes, and 
        citizens in developing salmon recovery goals and plans for each 
        region--goals that address all water uses and continued 
        prosperity of the region.

  <bullet>  A clear structure for integrating harvest, hatchery and 
        habitat actions.

  <bullet>  An inclusive involvement of stakeholders at the watershed 
        level in habitat conservation, preservation, and restoration 
        projects.

  <bullet>  Comprehensive assessments of habitat conditions in each 
        watershed.

  <bullet>  Locally developed watershed strategies that list the 
        priority habitat actions and target areas are developed or 
        underway.

  <bullet>  Implementation of the most important conservation, 
        preservation, and restoration actions in each watershed, with 
        active local support.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  <bullet>  Implementation of the Forest and Fish Agreement for forest 
        practices, and similar efforts to address agricultural issues.

  <bullet>  Funding necessary to support the development of goals, 
        plans, and implementation of projects.

  <bullet>  Improved conditions for fish, measured by indicators such 
        as fish access to blocked habitat, improved riparian 
        conditions, acres of key habitat protection, or volume of water 
        restored.

  <bullet>  Recovery actions are adjusted as monitoring information and 
        new science becomes available.
       By 2010, How Should We Measure Success in Salmon Recovery?

Ultimate Measures of Success Will Be:

  <bullet>  The increased abundance, productivity, diversity, and 
        spatial distribution for all species.

  <bullet>  Growing percentage of healthy wild stocks, and de-listing 
        of all endangered salmon species.

  <bullet>  Abundance of salmon for harvest.

  <bullet>  Healthy watershed conditions.

  <bullet>  Supportive communities.

  <bullet>  Integration and consistency between salmon recovery, 
        community and economic development, natural resource practices, 
        and other community interests.

                 CURRENT EXAMPLES FROM WASHINGTON STATE

  <bullet>  SRFB works through 26 locally-organized citizen-led groups 
        known as ``lead entities'', covering almost all watersheds of 
        the state.

  <bullet>  Four major regional areas have organized within the last 
        year. SRFB funding support will help these regional efforts get 
        underway in developing their local recovery strategies.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Tree planting near the Deschutes River in Tumwater. Revegetating 
riparian areas helps provide erosion control and shade. Volunteers 
often participate along with personnel from local, tribal and state 
agencies. In October 2000 the local Stream Team reported that over 220 
volunteers, Miller Brewery employees, Conservation Corps and Community 
Youth Services groups, and other community members planted 4000 native 
plants and shrubs along the Deschutes riparian corridor.

  <bullet>  For the SRFB's third round of grants in Fall 01-Spring 02, 
        we estimate that well over 1,500 local citizens are directly 
        involved in their lead entities or in sponsoring local 
        projects.

  <bullet>  In 2001, the SRFB and the Governor's Salmon Recovery Office 
        initiated the Comprehensive Monitoring Strategy Project. The 
        final report in December 2002 will provide the first 
        comprehensive model for the state's regional, watershed and 
        project-scale monitoring efforts.

  <bullet>  Federal Fiscal Year 1999-2001 Pacific Coastal Salmon 
        Recovery Funds have been placed into 111 organizations 
        conducting 287 projects.

  <bullet>  These projects have included non-federal match (cash, 
        volunteers or labor) with a value of over $18 million.

  <bullet>  During the same period, the State of Washington has 
        provided $36 million towards salmon recovery efforts through 
        the SRFB.

  <bullet>  State funds through the SRFB have supported 95 
        organizations conducting 211 projects, and are matched with 
        over $24 million in value contributed by the projects' 
        sponsors.

  <bullet>  With federal support, SRFB has also helped fund 2 years of 
        ``Forests and Fish'' activities, and, with state dollars, 
        funded 13 other programs.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Smith. Thank you very much for your testimony, Ms. 
Johnson.
    We'll now hear from Glen Spain, Northwest Director of the 
Pacific Coast Federation of Fishermen's Association, an 
organization that represents fishing interests in all the 
states affected by this bill. Welcome.

          STATEMENT OF GLEN SPAIN, NORTHWEST REGIONAL 
 DIRECTOR, PACIFIC COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS

    Mr. Spain. Thank you, Senator Smith. Greetings from our 
mutual home State of Oregon.
    I'm the Northwest Director of the West Coast's largest 
organization of commercial family fishermen. Our folks have 
been devastated--I can't stress that enough--by the losses over 
the last two to three decades of salmon runs all along the 
coast, all the way up into Alaska. My colleague here will speak 
to some of the Alaska issues, but I want to speak particularly 
to the issues in the Northwest.
    We have lost almost $1.25 billion worth of net economic 
benefits to the Northwest regional economy from the salmon 
runs. That was the figure that was generated for the economy in 
that region in as recently as 1988, our last really good year. 
That has been cut down to--we've lost roughly 90 percent of 
that. And with what is remaining we're hanging on very hard and 
working like the dickens to try to restore these streams.
    Our organization, for instance, has a salmon stamp program. 
California fishermen assess themselves through that program, 
which goes into a fund that is managed by commercial fishermen 
for habitat restoration. We've spent as much as a million 
dollars a year on self assessment taxes, if you will, through 
the salmon stamp program to put that directly back into the 
watershed.
    We are very familiar with some of the problems, pitfalls, 
and advantages of salmon restoration work, particularly in 
California. And I personally work very closely with folks in 
Oregon and Washington to do the same.
    There are certain things, certain principles that we have 
to keep in mind. One is that the salmon runs and the salmon 
problem are totally interwoven and interconnected. No one state 
is unaffected by what happens in another state. For instance, 
28 percent of all the chinook salmon harvested in southeast 
Alaska originate in Washington, particularly the Columbia River 
or the Puget Sound. Thus, it makes very good sense--I wish 
Senator Stevens were here to hear this--to have Alaska invest 
in the restoration of Columbia River salmon runs. It makes 
sense for the economy in Southeast Alaska. It makes sense to 
reduce the constraints that those damaged Columbia River runs 
impose on Alaska under weak stock management under the Magnuson 
Act and also under the ESA and other constraints.
    It also makes sense for Oregon and Washington to invest in 
California salmon restoration, because 50 to 70 percent of all 
the salmon harvested in Oregon come from the California Central 
Valley Hatchery System. There are a lot of interconnections. 
And, likewise, whatever constraints are imposed because of weak 
stocks in the Columbia cause closures all the way down to 
Central California.
    In fact, the collapse in the Columbia salmon runs was a key 
issue that contributed to the collapse of the Pacific Salmon 
Treaty and our treaty obligations with Canada. The fish that 
Canadian fishermen lost to Alaska, they looked south to find, 
but those fish had disappeared. There was thus a tremendous 
imbalance in the treaty. And that precipitated a lot of the 
collapse of the former treaty.
    So there are interstate, inter-regional, and international 
issues all of which are triggered by the declines of the West 
Coast salmon runs in addition to coastal economies that have 
suffered severely.
    Another principle is that salmon restoration is an 
investment, it is not a cost. Like any investment, it will, if 
wisely done, provide dividends to the economy. One and a 
quarter billion dollars is not chicken feed for these coastal 
economies. We can restore it to those levels. And that alone is 
nowhere near the historic levels. That's the level that we were 
able to achieve in 1988. Historic levels are much greater.
    And if we can move more over the next 20 or 30 years toward 
historic run sizes, and I think we can, this is a multi-
billion-dollar benefit in dividends that will be paid each and 
every year to our regional economies and to coastal economies. 
It is an investment. And like any investment--like any investor 
making an investment, they want to make wise use of their 
money.
    Another principle is that we have been lurching along for a 
long time on 50-year restoration plans with a year-by-year 
appropriation process that is essentially ad hoc. We can't 
continue to do that without basically damaging the efficiency 
of the program. Thus, we strongly support this bill, and 
Representative Thompson's bill on the House side (H.R. 1157), 
that institutionalizes and creates quality control and peer 
review and accountability criteria that make it assured that 
those funds will be wisely spent and that there will be a 
continuity of institution that is comparable to what we need in 
terms of the length of effort.
    Another thing we need to do, of course, is have ways of 
funding this in a perpetual way. And again, this bill is a good 
move in that direction. There are two areas where we would 
suggest some improvements. One is that H.R. 1157, Section 11 
sets a standard for recovery. This bill does not. That 
standard, I think, should be the Four Governors' declaration in 
the year 2000, which said the standard that we are trying to 
achieve is a harvestable surplus. That is the standard that 
will achieve the economic benefits, the return on our 
investment, the dividends to our communities.
    It's not sufficient to recover to the point where we have a 
few museum runs. We want our people working. We want our 
communities working. We want our fishermen to be able to 
deliver high-quality seafood to their restaurants, to their 
processors, to the chain of markets, and for export as a major 
resource in what was and is the United States' oldest industry.
    Thank you.
    [The prepared statement of Mr. Spain follows:]

Prepared Statement of Glen Spain, Northwest Regional Director, Pacific 
              Coast Federation of Fishermen's Associations

    Thank you for the opportunity to testify on this very important 
issue of salmon restoration funding--a subject that means life or death 
to many west coast fishing-dependent communities.
    My name is Glen Spain, and I am the Northwest Regional Director of 
the Pacific Coast Federation of Fishermen's Associations (PCFFA). We 
are commercial fishermen and women, working in America's oldest 
industry. Our members provide this country with one of its most 
important and highest quality food resources and a major source of 
exports, and our efforts provide tens of thousands of jobs in western 
coastal communities, jobs supported by the bounty of the sea.
    PCFFA is the West Coast's largest organization of commercial 
fishermen and fishing families, representing the interests of small and 
mid-sized family-owned commercial fishing operations working and living 
in ports from San Diego to Alaska. We are a federation of 25 different 
port and vessel owners organizations coastwide, representing several 
thousand fishing families with a combined vessel asset and industrial 
infrastructure investment of nearly $1 billion.
    Fishermen are family food providers, but in order to be able to 
produce high quality seafood and maintain thousands of jobs in coastal 
communities, we need something to catch! Most of our people are now, or 
have been, salmon fishermen. However, every year for decades now, the 
long-term trend has been that there have been fewer and fewer juvenile 
fish surviving to come out of damaged west coast watersheds. Widespread 
habitat loss, massive forest liquidation and the destruction wrought by 
the thousands of West Coast dams, many no longer cost effective or even 
needed, has now pushed many once abundant wild salmon runs to such low 
numbers that NMFS has had to put 25 separate and distinct runs of 
Pacific salmon and steelhead on the Federal Endangered Species list.\2\ 
In fact, ESA protections are all that now stands between many of these 
irreplaceable salmon runs and complete extinction. Several additional 
populations are also still under consideration for ESA listing, and 
will and should be listed unless we work in earnest to prevent their 
further declines and eventual restoration.
---------------------------------------------------------------------------
    \2\ For the current status of salmonid listing decisions see 
Attachment B, from the National Marine Fisheries Service web site: 
http://www.nwr.noaa.gov/1salmon/salmesa/pubs/1pg300.pdf. For online 
maps of the many ESUs now listed see: http://www.nwr.noaa.gov/1salmon/
salmesa/mapswitc.htm. For general information on the listings, see: 
http://www.nwr.noaa.gov/1salmon/salmesa/specprof.htm.
---------------------------------------------------------------------------
    Thus, even though we are a heavily regulated industry ourselves 
under the ESA, we strongly support these listings and fully support 
maintaining a strong Endangered Species Act generally. We also support 
all efforts toward speedy recovery for these salmon runs. Extinction is 
not an option. Salmon extinctions mean economic extinction for many of 
our most important west coast fisheries supporting tens of thousands of 
fishing jobs as well as hundreds of rural fishing-dependent 
communities.
    I have often heard statements from representatives of the very 
inland extractive industries that have caused and profited by the 
destruction of our salmon watersheds blame fishermen for the declines 
of the West Coast's salmon runs. At best, these statements are 
disingenuous, little more than the fox blaming the geese for the sudden 
disappearance of other geese.
    While there have certainly been instances of salmon overfishing in 
past decades, the facts show that at least since the passage of the 
Magnuson Act in 1976 in federal waters, and in California and other 
states decades before back to the late 1800s, west coast Pacific Salmon 
runs have been increasingly state and federally managed to target 
hatchery fish, not wild stocks, and that we are getting better and 
better at maintaining sustainable fisheries.
    Today, only a very small portion of the total of all human caused 
salmon mortality can be attributed to fishing. So many once abundant 
fisheries are now closed already that meaningful salmon recovery simply 
cannot be achieved through more such closures. ESA listed coho salmon 
fisheries, for instance, were completely closed in California in 1994, 
and are now closed in all lower 48 states. Even complete closure of all 
the rest of the salmon fisheries, which target hatchery fish, would 
provide only a very small benefit compared to the massive salmon 
mortality incurred at all the other stages of the salmon's lifecycle, 
i.e., in the watersheds. Blaming the fishermen for salmon declines 
today is like blaming the victim of a rape.
    There are efforts underway everywhere to actually solve these 
problems, however, by protecting and restoring our watersheds and 
estuaries. Various state and local plans now exist for restoring 
depressed salmon runs and reinvesting in the natural resources which 
sustain them. However, particularly in this era of strained state 
budgets and budget deficits, the states cannot and should not go it 
alone.
    The desperate need, as well as the value of providing matching 
federal investments to supplement ongoing state and local salmon 
restoration efforts, should be clear. The wanton destruction of this 
valuable economic and cultural resource is a national disgrace for 
which the Federal Government also bears considerable responsibility.
    Reinvestment in our watersheds also makes excellent economic sense. 
As recently as 1988, just before the current collapses, salmon fishing 
in all its forms (sport and commercial) brought more than $1.2 billion 
to the West Coast economy outside of Alaska, supporting some 62,750 
family wage jobs.\3\ Though many of these jobs have now been lost or 
are at risk, a wise investment in this resource now will bring many of 
them back, helping to revitalize a whole region's coastal economy, and 
producing a multitude of other economic benefits for all.
---------------------------------------------------------------------------
    \3\ From The Economic Imperative of Protecting Riverine Habitat, 
Pacific Rivers Council Report No. 5 (January, 1992).
---------------------------------------------------------------------------
    Representative Mike Thompson's bill (H.R. 1157), passed 
overwhelmingly in the House on 13 June 2001 by a vote of 418-6, 
represents an important effort to commit the needed funds to help 
redress this economic disaster, and we commend him for his efforts. 
Representative Thompson has long been a friend of the fishermen. 
Likewise, so has Senator Barbara Boxer, whose S. 1825 is parallel to 
Representative Thompson's bill, with only slight differences. We thank 
them both for their leadership in restoring this economically and 
culturally important part of our West Coast economies and the nation's 
oldest industry. Either of their bills would be acceptable, frankly, 
which puts us in the enviable position of being able to improve what 
are already good bills. Our comments, therefore, concern ways to merge 
these two bills into one, taking the best of both.
Appropriations vs. Stand Alone Bill
    There appears to be some continuing debate over whether these funds 
could be obtained directly through the appropriations process (as was 
done in previous years) or whether a separate authorizing bill is 
really necessary. We firmly believe there is ample authority under the 
ESA to fund the recovery efforts that the ESA requires through 
appropriations alone, if necessary. Every major salmonid species on the 
coast (including coho, chinook, chum, and steelhead) are now listed 
under the ESA in large parts of their range and for many genetically 
distinct major subpopulations (ESUs).\4\ The geographic area in which 
they are listed ranges from San Diego to nearly the Washington-Canada 
border. The ESA, as you know, requires recovery plans for listed 
species, which necessarily implies the funds to make them a reality. 
Given that general and very broad authority, and given a past history 
of similar appropriations, a special appropriation to provide federal 
matching funds to assist ongoing state ESA recovery efforts makes 
perfect sense.
---------------------------------------------------------------------------
    \4\ Listings decisions are made on the basis of genetically similar 
subpopulations, called ``Evolutionarily Significant Units'' or ESUs.
---------------------------------------------------------------------------
    If there is any real question on this point, the Subcommittee Chair 
should refer the question to Legislative Counsel for a prompt opinion 
and proceed accordingly. What would be inappropriate would be to hold 
up the process of getting these desperately needed funds out to 
projects on the ground by allowing these kinds of trivial procedural 
questions to block the funding process itself.
    A stand-alone bill also makes perfect sense for authorizing this 
program for a longer period of time, such as 5 years, and providing it 
more structure and institutional strength. Such an authorizing bill 
would help prevent future confusion and would help maintain more stable 
funding--a desperate need for any salmon recovery program, which of 
necessity must be long term. Senator Boxer's S. 1825 does just that.
    In the interim, however, until a stand alone bill has been passed 
and signed, Congress should be pursuing both routes simultaneously. The 
real point is--get these programs the money and get the money to 
improvements on the ground. Don't let the funding bog down in 
procedural complexities and side issues that, ultimately, are 
irrelevant.
    All over the coast we need to be getting the restoration job done, 
and any delays would just further jeopardize fishing-dependent 
economies and make ultimate recovery that much harder as well as more 
expensive.

Assuring Accountability and Targeting Priorities
    A much more important issue is assuring that these limited funds 
are well spent on salmon watershed investments that make biological 
sense and which will give the most `` bang for the buck.'' 
Specifically, we have been concerned in the past about the lack of 
guidelines to date to the states on how this money is to be spent. We 
worry that this money will simply disappear down a rathole on 
ineffective half-measures, much like what happened on the Columbia 
River, with little to show in the end in the way of increased fish 
populations. Moreover, our ability in the future to seek federal 
dollars for salmon could be seriously compromised if these funds are 
mismanaged. This is why we need a bill like S. 1825 or H.R. 1157, to 
provide ``side bars'' on how these funds will be spent, and to assure 
accountability.
    Frankly, in California at least, we have already had some 
difficulty with previous federal salmon money already given that state. 
Counties, the timber industry and agriculture groups are all scrambling 
to grab these funds to cover, we fear, projects that may be ineffective 
or themselves damaging, or to merely subsidize industry's existing 
legal obligations to mitigate impacts from their past operations (e.g., 
decommissioning logging roads) on fish and fish habitat. Many of the 
projects proposed in California have not in fact been for new projects, 
and some of the work being proposed is not even salmon-related.
    Restoration plans and scientific standards are necessary, as are 
checks and balances to prevent waste and duplication. Those in the 
fishing-dependent communities in greatest need will have to bear the 
consequences of the Administration's or Congress's failure to provide 
the oversight necessary to assure that these limited funds are wisely 
invested. Both H.R. 1157 and S. 1825 require organized salmon 
restoration and recovery plans by state recipients for just that 
purpose.

Some Guidelines Required for Accountability and Efficient Use
    We do not believe it necessary for the Federal Government to 
micromanage how the money is spent, but we do believe, at a minimum, 
that some common-sense guidelines are needed to keep these limited 
funds from being wasted. The guidelines we have recommended in the past 
in congressional budget and/or bill language for these funds are as 
follows:

   1. Funds should only be expended for work or projects conducted 
        pursuant to an approved salmon fishery restoration or recovery 
        plan which has had scientific review and which is likely to be 
        biologically effective;

   2. No funds should be expended for any work or project, in whole or 
        in part, for salmon habitat restoration or to rebuild or 
        restore salmon populations where there is an already existing 
        legal or contractual obligation by another entity, public or 
        private, to carry out or pay for that work or project, or to 
        mitigate for past damage to the resource;

   3. No funds should be used for any work or project for salmon 
        habitat restoration or to rebuild or recover salmon populations 
        unless there exist rules or regulations that reasonably assure 
        that other activities near or adjacent to the work or project 
        or within the watershed of the work or project will not 
        adversely affect, damage or destroy the work or project 
        proposed for use of these funds.

    The above common sense guidelines would, we believe, provide the 
National Marine Fisheries Service and states the necessary direction 
for developing memorandums of understanding with the states that would 
govern how these funds are best spent. Without these guidelines it 
would be next to impossible for NMFS agents in the region to negotiate 
strong MOUs with the states that will, in fact, help the fish. These or 
similarly helpful guidelines are in both H.R. 1157 and S. 1825 in 
various forms.

Salmon Restoration Planning Is Not Difficult--Requiring a Plan Will 
        Support Efficient Implementation
    Provisions in both H.R. 1157 and S. 1825 would require, as a 
prerequisite to receiving funds under this program, that there be a 
state approved salmon restoration and protection plan. Oregon has long 
since developed and is currently implementing a comprehensive statewide 
salmon and steelhead recovery plan (the ``Oregon Plan''--see website 
at: http://www.oregon_plan.org). Among other things the Oregon Plan 
contains the following elements:

   (1) Both statutory and Administrative support--the Oregon Plan was 
        created by both statute and Executive Order of the Governor;

   (2) Independent scientific review and oversight--an Independent 
        Multi-Disciplinary Science Team (IMST) was created by statute 
        to assure the scientific legitimacy of the plan, to assure that 
        recovery measures were biologically sound and to oversee 
        monitoring and adaptive management efforts over time;

   (3) A source of permanent funding--in addition to Legislative funds 
        each year, some $44 million a year was dedicated to the Oregon 
        Plan by a statewide ballot initiative (Measure 66) in 
        perpetuity;

   (4) A system of screening and prioritizing projects--There is a 
        clear project review process intended to get the best use of 
        funding;

   (5) Comprehensive--the Oregon Plan is state-wide, involving both 
        salmon and steelhead, and directly involves the counties while 
        assuring cross-county consistency.

    Washington State also has most of the elements of a similar 
comprehensive recovery plan, including a screening and prioritization 
process for grants, and scientific oversight. Neither Oregon nor 
Washington would have significant problems meeting the minimal 
accountability and effectiveness criteria set forth in S. 1825. Nor 
would Alaska, given its very active and committed Department of Fish 
and Game and the models of both Oregon and Washington to emulate. 
States with already existing plans have already done their homework, 
and should be allowed to have those plans expeditiously reviewed and 
signed off on by the NMFS and other federal agencies so they can start 
receiving those funds.

    Unfortunately, even today California has no statewide salmon and 
steelhead restoration plan, though several counties have combined to 
create a regional plan. As to California, requiring appropriate 
planning and accountability as does language in both H.R. 1157 or S. 
1825--or alternatively, comparable language in any appropriations or 
budget report--as suggested above could only benefit the salmon 
resource, save federal taxpayers money by targeting investments wisely 
for the greatest return, and serve to provide California a strong 
incentive to make sure that there is in fact a California State 
recovery plan in place as soon as possible.

Some Improvements That Would Result From Integrating Both Bills
    There are some differences between the two bills (S. 1825 and H.R. 
1157) that should be reconciled, and the best of each incorporated into 
a consolidated bill perhaps through the vehicle of S. 1825. The 
principle changes that could be made are as follows:

   (1) A Standard for Recovery: The goal of salmon recovery is clearly 
        the direction of all our efforts. However, it is often unclear 
        just what ``recovery'' means in these contexts, and so it is 
        important to have a standard or goal in mind within the statute 
        itself. This standard appears most clearly in H.R. 1157, Sec. 
        11, with a reference to the declaration of July 2000 of the 
        Four Governors of Idaho, Montana, Oregon and Washington that 
        established that the recovery goal should be ``to protect and 
        restore salmon and other aquatic species to sustainable and 
        harvestable levels'' while meeting the standards of all 
        applicable laws.
     The Four Governor's Declaration is the clearest statement yet of 
        the desired goals for salmon recovery programs ever produced in 
        a policy paper, and Section 11 of H.R. 1157 should be 
        incorporated verbatim into S. 1825. Indeed, recovery to 
        ``harvestable levels'' is the only goal that makes economic 
        sense, as it is the only way that the economic investment in 
        salmon recovery can be recovered--ultimately many times over--
        by society. The ESA goal of just enough of a population to keep 
        them (barely) off the endangered species list will lead only to 
        museum runs, and the Four Governor's clearly recognized this in 
        their joint statement.

   (2) State to State Flexibility of Planning: The status of salmon 
        recovery plans varies considerably from state to state, with 
        Oregon's the most developed and California's the least. 
        Approval of a state's existing salmon recovery plan, 
        particularly those most developed, should be expedited under 
        this process to avoid bureaucratic barriers to success, while 
        those states that have not yet adopted a statewide plan should 
        be required to pass through all the steps outlined in S. 1825.
     Oregon, for instance, already imposes two levels of scientific 
        peer review on its salmon recovery plan, first at the statewide 
        level through its legislatively created Independent Multi-
        disciplinary Science Team (IMST), and second at a project level 
        for each project. Additionally, its internal guidelines for 
        stream restoration projects have already been peer reviewed and 
        approved by the National Marine Fisheries Service (NMFS), which 
        has worked in close collaboration with the State of Oregon 
        throughout the process. Asking for a third level of review 
        would be redundant and unnecessary, and I am sure this was not 
        the intent of the language in S. 1825. If a credible and 
        independent scientific review processes is already in place, 
        this should be recognized as potentially sufficient to meet 
        these requirements. We believe this was the intent of S. 1825 
        language to that effect, but minor wording changes could be 
        made to more clearly state that intent.

   (3) Accountability and Annual Funding Plans: There should be some 
        provision for the submission of existing state salmon recovery 
        and funding plans and their meeting these accountability 
        criteria and annual spending plan requirements of S. 1825. 
        Again, the State of Oregon, which has a well developed salmon 
        recovery plan now being implemented, including ongoing funding 
        mechanisms, could easily use its existing procedures and 
        documents to meet these conditions, and it should be made clear 
        that there is no need for redundant documents when the same 
        documents can serve both functions. Some language allowing 
        states to submit existing and approved statewide recovery and 
        funding plans to satisfy those requirements in S. 1825 is a 
        good idea to prevent such duplications.

   (4) Level of Funding: We believe that the proposed level of funding 
        authorized in S. 1825, $350 million per year for 5 years, split 
        among the various states and Tribes as indicated in the bill, 
        is the correct amount. Remember that these funds are an 
        investment. Eventually these funds invested will help restore a 
        billion dollar a year west coast fishery, and will thus be 
        repaid as dividends to the regional economy and to coastal 
        communities many times over.
     We caution, however, that these funds should not be seen as in 
        lieu of additional and much needed separate funding for the 
        Columbia River salmon recovery plan now in place, the CALFED 
        process underway to help restore the aquatic ecosystem of the 
        California Bay Delta, or any other existing salmon protection 
        program. We need to do all of these things, and these other 
        restoration programs are also required by other statutes. The 
        funds designated in S. 1825 (and similarly in H.R. 1157) are 
        intended to fill the gaps in funding primarily for coastal and 
        other salmon restoration efforts that currently cannot be met.

    Summary: Overall, these problems are minor wording and 
clarification issues, and may be merely differences in interpretation. 
Certainly the structure of S. 1825 is excellent, and the concepts of 
accountability and peer review are sound and necessary. Only minor 
changes need be made to promote the kind of state-by-state, from-the-
ground-up, recovery planning process that recognizes that one size will 
not fit all circumstances.
    PCFFA strongly supports S. 1825 in concept, and believes it will be 
a long step forward toward making cost effective and economically 
beneficial use of salmon restoration funds that will greatly help our 
hard pressed coastal fishing communities and economies.

  Summary: Salmon Restoration Is an Investment That Will Repay Itself 
                            Many Times Over

    Salmon are a self-reproducing and extremely valuable national 
resource that mean jobs and dollars in every west coast coastal and 
many inland communities. Well targeted investments in salmon habitat 
restoration, coupled with efforts to curtail or mitigate factors which 
lead to their loss, will without any doubt return many dollars on each 
dollar invested--if invested wisely.
    However these funds are provided--whether solely by an 
appropriation, or through longer term funding through specific 
authorizing legislation, or some combination of both--this Congress and 
the implementing agencies have an obligation to the federal taxpayers, 
and to coastal communities, to see that these funds are wisely and 
effectively spent in accordance with the common sense criteria 
presented above or their equivalent. We believe that either S. 1825 or 
H.R. 1157, and preferably a bill combining the best of both, is the 
best route to follow and will greatly benefit the whole west coast 
regional economy.

    Senator Smith. Glen, do you believe that if we pass this 
bill, and assuming that the stocks are recovered, that you'll 
be allowed to go fishing again?
    Mr. Spain. Well, the essence of any recovery plan is to 
achieve recovery. My view is that we can most likely achieve 
that by a consistent, organized effort over the long term.
    Senator Smith. And this bill helps you to do that?
    Mr. Spain. Absolutely.
    Senator Smith. What's your position on the use of 
hatcheries for mitigation and restoration?
    Mr. Spain. Well, our organization has run hatcheries, we've 
funded hatcheries, we've fought for hatchery reform. They are a 
tool, a management tool. Where hatcheries will actually 
conflict with recovery of wild stock, those have to be 
rethought and reorganized and re-managed.
    Senator Smith. Are you convinced NMFS is doing that now?
    Mr. Spain. Well, they are in the process of a review of 
their hatchery policy. The State of California is just 
completing a hatchery review. The State of Oregon is doing the 
same. There was a major scientific peer review of the 
Washington Hatchery Program with a number of recommendations--I 
think there were well over a hundred recommendations for 
reforms there. These are all in play and need to be pursued, 
yes. But remember that hatchery fish come from wild genetic 
stock. If we lose the fundamental genetic stock, the wild fish 
that have evolved for millions of years, we will eventually 
lose those hatcheries, as well.
    Senator Smith. I agree with that. I believe you are saying, 
though, that there is a scientific standard by which, if 
they're operated, they could be very helpful.
    Mr. Spain. Yes.
    Senator Smith. OK. How much, in your view, has farm raising 
of Atlantic salmon hurt the Pacific salmon fishery?
    Mr. Spain. My colleague from Alaska will have words on that 
one, I'm sure. That is a disaster in the making. There is no 
question that some of those fish--many, many, many tens of 
thousands--escape. We've gotten a number of scientific reports 
that they are colonizing and competing with wild fish in 
British Columbia and some in Alaska. You know, the farm fish 
operations have their place, but obviously it's a whole 
different area. They need to be controlled so that they do not 
impact, they do not escape, and they do not spread disease to 
the wild populations.
    Senator Smith. Very good, thank you.
    Our final witness, then, is Mr. Robert Thorstenson, 
President of the United Fishermen of Alaska, to present the 
perspective of commercial fishing interests in Alaska. And they 
are his children we met earlier.
    Mr. Thorstenson. Yes, thank you, Senator.
    Senator Smith. They've got a good looking momma, 
apparently.
    [Laughter.]
    Mr. Thorstenson. I hear that often.
    Senator Smith. I hope you know I'm kidding you, but those 
are very handsome children.
    Mr. Thorstenson. Thank you.

STATEMENT OF ROBERT THORSTENSON, PRESIDENT, UNITED FISHERMEN OF 
                             ALASKA

    Mr. Thorstenson. Alaskan fishermen share the vision that 
brought this bill before you, the desire to preserve and 
protect salmon. However, Alaskan fishermen have a somewhat 
different perspective regarding the origins of the salmon 
recovery legislation and the objectives it should serve.
    The original authorization for and funding of Pacific 
salmon recovery grew out of conflicts arising from the 
application of the Pacific Salmon Treaty. The funding was 
intended to address two basic objectives: restoring salmon runs 
and mitigating the economic impacts that our commercial 
fisheries and coastal communities suffered as a consequence of 
depleted runs. S. 1825 dramatically modifies the fund, steering 
it on a course sharply different from the ones conceived by its 
original proponents, disregarding the nexus with the Pacific 
Salmon Treaty and preventing use of the funds to foster a 
sustainable salmon industry.
    Alaska depends on the salmon. Alaska salmon runs are 
abundant, with no stocks listed under the Endangered Species 
Act. In our coastal communities, commercial fisheries provide 
more than half of the basic private-sector employment. Over 
10,000 Alaskans operate commercial fishing vessels and hold 
permits to fish for salmon. Tens of thousands more work as crew 
on commercial fishing boats. Many more Alaskans process salmon 
in numerous processing facilities that dot the coast. In 
addition to the direct employment from commercial fisheries, 
support services in industries from fuel suppliers to banks to 
freight companies depend on commercial fisheries for much of 
their revenue. I could go on and on, but let's just say salmon 
is Alaska's equivalent of Boeing and Microsoft.
    The Pacific Salmon Treaty between the United States and 
Canada brought dramatic restrictions to the fisheries in 
Alaska. Under that treaty, Canada and the states of Washington, 
Oregon, and Alaska, as well as 28 Pacific Northwest Native 
American tribes sought to conserve and share the harvest of 
salmon that migrated along the coast from Northern Oregon to 
Southeast Alaska. Efforts to apportion the burdens of 
conservation and to share the benefits of a harvest of a far-
ranging resource led to serious conflicts between the two 
nations and among interests within the United States.
    Over 95 percent of the salmon harvested in Southeastern 
Alaska are bound for Alaska's streams and rivers, but because 
of the concerns about troubled salmon stocks originating in 
Washington, Oregon, and Canada, Alaska was asked to reduce its 
harvest of healthy Alaskan-origin salmon in order to reduce the 
incidental take of salmon originating elsewhere.
    To address these concerns raised by the Northwest states 
and tribes and by Canada, Alaskan salmon fisheries suffered a 
series of cutbacks between 1985 and 1992. These cutbacks cost 
Alaska the harvest of tens of millions of salmon worth hundreds 
of millions of dollars. Salmon stocks in Canada and the Pacific 
Northwest suffered a continuing productivity decline in the 
1990s intensifying conflict between Alaska and the Pacific 
Northwest. The conflict manifested itself in the press and the 
courts and in the salmon treaty negotiations.
    For several years, the treaty negotiators were unable to 
reach agreements on conservation or on harvest sharing. In an 
effort to compel the United States to grant concessions to the 
treaty negotiations, Canada prosecuted aggressive fisheries 
that harvested salmon from endangered and depleted runs 
originating in Washington and Oregon. Even when U.S. managers 
stopped U.S. fishing on these runs, Canada continued to fish 
those runs, saying they would stop only if the U.S. agreed to 
concessions in Alaska.
    Finally, in 1999, the two nations and the diverse interests 
within the United States negotiated a long-term agreement to 
address the conservation and sharing of migratory salmon 
stocks. However, peace with Canada and the protection of 
depleted Washington- and Oregon-origin salmon from fishing by 
Canada came at a high price for Alaska since the agreement 
instituted yet another set of restrictions on Alaskan 
fisheries.
    The funding for Pacific salmon recovery has been important 
to Alaska to address both of the primary objectives of the 
program: conservation of the resource and improving fishery 
economies. To these ends, Alaska has funded important research 
programs, habitat conservation, and programs to mitigate the 
economic impacts of the fishery restrictions imposed in 
response to salmon conservation problems in the Pacific 
Northwest and Canada.
    Specifically, the Salmon Recovery Appropriation has funded 
salmon escapement enumerations, salmon habitat assessment, and 
stock identification work. Equally important, Alaska has used 
salmon recovery funding for a salmon marketing program. Faced 
with significant harvest reductions under the treaty, Alaska 
seeks to gain more value from the limited harvest. Furthermore, 
the funding has been used to increase production in Alaska's 
Salmon Enhancement Program and thereby increase the harvest 
fishermen can take from abundant and carefully enhanced salmon 
stocks.
    The Pacific Salmon Recovery Appropriation that was first 
passed by Congress in 1999 was conceived by Alaskans and had 
its roots in the conflicts arising from the Pacific Salmon 
Treaty Agreements. While Alaskan fishermen applaud efforts to 
conserve salmon, we are concerned that S. 1825 takes this 
appropriation in a new direction and ignores many of the 
primary objectives with the original legislation. There are 
other issues of concern in the text of S. 1825, but the 
principal policy issue is that S. 1825 fails to provide for the 
special circumstances which are related to the implementation 
of the Pacific Salmon Treaty. Given that fact, we cannot 
support this legislation as it is drafted.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Thorstenson follows:]

         Prepared Statement of Robert Thorstenson, President, 
                       United Fishermen of Alaska

    I appreciate the opportunity to appear before this Committee on S. 
1825, the Pacific Salmon Recovery Act. I am appearing today as the 
President of the United Fishermen of Alaska, a statewide organization 
and coalition of commercial fishermen, and as a member of the Northern 
Panel of the Pacific Salmon Commission.
    Alaskan fishermen share the vision that brought this bill before 
you--the desire to preserve and protect salmon. However, Alaskan 
fishermen have a somewhat different perspective regarding the origins 
of the salmon recovery legislation and of the objectives it should 
serve. The original authorization for, and funding of, Pacific salmon 
recovery grew out of conflicts arising from the application of the 
Pacific Salmon Treaty. Alaska fishermen were foremost among the 
proponents of the salmon recovery legislation. The funding was intended 
to address two basic objectives--restoring salmon runs and mitigating 
the economic impacts that the commercial fisheries and coastal 
communities suffered as a consequence of depleted salmon runs.
    S. 1825 dramatically modifies the fund, steering it on a course 
sharply different from the one conceived by its original proponents, 
disregarding the nexus with the Pacific Salmon Treaty and preventing 
use of the funds to foster a sustainable salmon industry.
    Maritime Alaska depends on the salmon. Alaska's salmon runs are 
generally abundant with no stocks listed under the Endangered Species 
Act. In our coastal communities, commercial fisheries provide more than 
half of the basic, private-sector employment. Over 10,000 Alaskans 
operate commercial fishing vessels and hold permits to fish for salmon. 
Tens of thousands more work as crew on commercial fishing boats. Many 
more Alaskans process salmon in the numerous processing facilities that 
dot the coast. In addition to the direct employment from the commercial 
fisheries, support services and industries, from fuel suppliers to 
banks to freight companies, depend on commercial fisheries for much of 
their revenue.
    The Pacific Salmon Treaty between the United States and Canada 
brought dramatic restrictions to the fisheries in Alaska. Under that 
Treaty, Canada and the states of Washington, Oregon, and Alaska as well 
as 28 Indian tribes sought to conserve and share the harvest of salmon 
that migrate along the coast from Northern Oregon to Southeast Alaska. 
Efforts to apportion the burdens of conservation and to share the 
benefits of the harvest of a far-ranging resource lead to serious 
conflicts between the two nations and among interests within the United 
States.
    Although Alaskan fisheries harvested principally very productive 
local stocks, a very small percentage of the Alaskan harvest was 
comprised of salmon migrating from Canada or the Northwest into Alaskan 
waters. Because of the concern about troubled salmon stocks originating 
in Washington, Oregon and Canada, Alaska was asked to reduce its 
harvest of healthy Alaska origin salmon in order to reduce the 
incidental take of salmon originating elsewhere. To address these 
concerns raised by the Northwest states and tribes and by Canada, 
Alaskan salmon fisheries suffered a series of cutbacks between 1985 and 
1992.
    For example, because of amendments to the Pacific Salmon Treaty, 
the Alaskan Noyes Island purse seine fishery, which harvested abundant 
Alaska origin pink salmon runs, was severely curtailed to reduce the 
catch of sockeye salmon originating in Canada. The Treaty restrictions 
forced Alaskan fishermen to sacrifice the harvest of 60 million salmon 
to prevent the harvest of a few hundred thousand Canada-bound sockeye. 
Hundreds of fishing vessels that once plied the waters near Noyes 
Island found the only remaining opportunity in the early part of the 
salmon season to be in carefully managed fisheries near salmon 
enhancement facilities.
    Restrictions extended to other fisheries as well. Although Alaska 
implemented a Chinook conservation and stock rebuilding program prior 
to implementation of the Pacific Salmon Treaty, the Treaty instituted 
further harvest restrictions on sport and commercial fisheries, placing 
a quota on the Chinook salmon harvest. While Chinook abundance 
increased dramatically through the 1980s and early 1990s Alaskan 
fisheries remained constrained by the Treaty quota of 263,000 fish 
annually.
    Salmon stocks in Canada and the Pacific Northwest suffered a 
continuing productivity decline in the 1990s, intensifying conflict 
between Alaska and the Pacific Northwest as the different jurisdictions 
sought to impose harvest restrictions on the incidental catch in Alaska 
of non-Alaska origin Salmon. The conflict manifested itself in the 
press, in the courts and in the salmon treaty negotiations. For several 
years, the Treaty negotiators were unable to reach agreements on 
conservation or harvest sharing. In an effort to compel the United 
States to grant concessions in the Treaty negotiations, Canada 
prosecuted aggressive fisheries that harvested salmon from endangered 
and depleted runs originating in Washington and Oregon. Even when U.S. 
managers stopped U.S. fishing on these runs, Canada continued to fish 
those runs saying they would stop only if the U.S. agreed to 
concessions in Alaska.
    Finally, in 1999, the two nations and the diverse interests within 
the United States negotiated a long-term agreement to address the 
conservation and sharing of migratory salmon stocks. However, peace 
with Canada and the protection of depleted Washington and Oregon origin 
salmon from fishing by Canada came at a high price for Alaska since the 
agreement instituted yet another set of restrictions on Alaskan 
fisheries.
    For example, the sport and commercial Chinook salmon fishery saw 
its harvest drop from a quota of 263,000 salmon to harvest levels that 
are but a fraction of that. The Noyes Island fishery, which, as noted 
above, had already been severely restricted in prior Pacific Salmon 
Treaty agreements, and which was now constrained from harvesting more 
than 5 million fish per year, was cut back by an additional 10 percent. 
The Tree Point fishery was slashed from a four-day-per week fishery to 
two with consequent loss of harvest.
    With the long-term treaty agreement completed in June 1999, 
Alaskans turned their attention to developing legislation to solve some 
of the underlying problems created by the Pacific Salmon Treaty. 
Commercial fishermen worked with the State of Alaska and Senator 
Stevens to develop federal appropriations that would help to fund 
salmon conservation in the Treaty area, including Washington and 
Oregon, and also help restore salmon fisheries and local economies 
devastated by the severe restrictions imposed by the Treaty and the 
decline of Northwest salmon stocks. To these ends, Senator Stevens 
included in the omnibus appropriation bill for Fiscal Year 2000 funding 
``for salmon habitat restoration, salmon stock enhancement, salmon 
research, and implementation of the 1999 Pacific Salmon Treaty 
Agreement and related agreements. . . .'' Pub.L. 106-113. Similarly the 
following year, the Congress appropriated money for Pacific Coastal 
Salmon Recovery ``for necessary expenses associated with the 
restoration of Pacific salmon populations and the implementation of the 
1999 Pacific Salmon Treaty Agreement between the United States and 
Canada. . . .'' Pub.L. 106-105.
    The funding for Pacific salmon recovery has been important to 
Alaska to address both of the primary objectives of the program--
conservation of the resource and improving fishery economies. To these 
ends, Alaska has funded important research programs, habitat 
conservation, and programs to mitigate the economic effects of the 
fishery restrictions imposed in response to salmon conservation 
problems in the Pacific Northwest and Canada. Specifically, the salmon 
recovery appropriation has funded salmon escapement enumeration, salmon 
habitat assessment, and stock identification work. Equally important, 
Alaska has used salmon recovery funding for a salmon marketing program. 
Faced with significant harvest reductions under the Treaty, Alaska 
seeks to gain more value from the limited harvest. Furthermore, the 
funding has been used to increase production in Alaska's salmon 
enhancement program and thereby increase the harvest fishermen can take 
from abundant and carefully enhanced salmon stocks.
    The Pacific salmon recovery appropriation that was first passed by 
Congress in 1999 was conceived by Alaskans and had its roots in the 
conflicts arising from the Pacific Salmon Treaty agreements. While 
Alaskan fishermen applaud efforts to conserve salmon, we are concerned 
that S. 1825 takes this appropriation in a new direction and ignores 
many of the primary objectives of the original legislation.
    In addition to the dramatic change of course envisioned by S. 1825, 
the bill incorporates a number of problematic elements. Section 
3(b)(3)(D) does not contain important language found in H.R. 1157 
permitting Alaska to use funds to mitigate the economic impacts of the 
Pacific Salmon Treaty by increasing economic opportunities for salmon 
fishermen. Similarly, list of eligible activities on Section 3(d) omits 
a significant provision in H.R. 1157 allowing states and tribes to use 
funds allocated to them for projects outside their jurisdiction. This 
provision was included to allow parties affected by the Pacific Salmon 
Treaty to work co-operatively in salmon restoration and enhancement 
projects. The deletion of these provisions reflects the fact that S. 
1825 fails to recognize important Pacific Salmon Treaty issues.
    A major flaw in H.R. 1157 that is repeated and magnified in S. 1825 
is that ``salmon'' is defined to include only naturally produced runs. 
S. 1825 then specifically restricts certain eligible activities to 
those benefiting only naturally produced salmon runs. The net effect of 
this is to arbitrarily exclude any run which has been enhanced by 
management activities and any mixed run. This overly restrictive 
limitation will redound to the detriment of many runs and will 
undermine each state's ability to assist in the recovery of depleted 
salmon runs.
    S. 1825 then adds a cumbersome and unnecessary peer review program. 
Alaska, like other Pacific Salmon Treaty states, has an outstanding 
scientific peer review program which ensures the scientific and 
programmatic quality of projects. S. 1825 adds another stage of review 
and approvals which is nothing more than a bureaucratic duplication of 
existing peer review programs.
    There are other issues of concern in the text of S. 1825 but the 
principal policy issue is that S. 1825 fails to provide for the special 
circumstances which are related to implementation of the Pacific Salmon 
Treaty. Given that fact, we cannot support this legislation as drafted.
    Thank you for this opportunity to testify.

    Senator Smith. In addition to commercial salmon harvests, 
Alaska has a strong sport fishery. Do you have any estimates on 
what the sport fishing industry contributes to the Alaskan 
economy?
    Mr. Thorstenson. In Southeast Alaska, in the treaty region, 
on the most recent year that I've got numbers from, the sport 
harvest of chinook salmon was 60,000, the sport harvest of coho 
salmon was 320,000. Just a ballpark guess in Southeast, that 
would probably be in the neighborhood of, you know, $20-$30 
million, maybe $50 million if you start adding in hotels, 
restaurants and--but the actual--the impact from the treaty 
that's been taken on sport fishing runs into the tens of 
millions of dollars, at least, just for sport fishing alone, 
because in Southeastern Alaska, a non-resident coming into the 
state to fish is only allowed two king salmon per 365-day 
calendar year and one king salmon per day. I believe this year 
the Columbia River Basin is going to be higher numbers, and I 
think we're going to be seeing better production for most of 
our driver stocks, so hopefully we'll have an opportunity for 
outside fishermen to come in and catch two per day this year, 
but that's what we've been living under. It's a pretty tight 
sport restriction, as well. I've spoken mostly to commercial 
because I represent commercial fishermen, but also we've had 
some tremendous sport impacts with the treaty, as well.
    Senator Smith. Over the last several years, we've had 
tremendous returns to the Columbia Basin. And, as I understand 
the testimony today, Alaska's fishing is directly correlated to 
the Columbia River.
    Mr. Thorstenson. Part of the problem----
    Senator Smith. What have these strong returns done for you, 
anything?
    Mr. Thorstenson. Part of the problem we've had in 
Southeastern Alaska is the treaty is based on a very 
complicated chinook model, and so the increase in the Columbia 
River Basin, where it should be rising, the tides at the same 
level across the whole range of the resources, the last 2 years 
were the lowest chinook harvest we've been allowed probably in 
50 years. So what happened is the model is based upon Robinson 
Creek, West Coast, Vancouver Island, a lot of different 
scenarios across--up and down the coast. And even though the 
Columbia River is a huge driver stock to upriver rights, the 
lack of flexibility in that model, the lack of flexibility in 
the agreement has kept our harvest reduced significantly for 
both sport and commercial.
    Senator Smith. Let's just say, hypothetically, if these 
returns remain high--based on the current law, if you're 
opposed to this bill--do you anticipate that they would let you 
go fishing again?
    Mr. Thorstenson. That's going to depend upon Canada and 
Washington and Oregon and the Columbia River tribes. We have a 
working arrangement in the treaty with them, and we're going to 
have to work through that model.
    Senator Smith. OK.
    Geoff, have you estimated the cost of the restoration 
projects that have already been proposed in Oregon? What is it 
going to run?
    Mr. Huntington. Senator Smith, the average right now that 
we're running--we have not done a long-term estimate. What I 
can tell you is that at putting in about $25 million a year 
just into voluntary restoration projects on privately-owned 
lands, we are far short of the capacity of willing landowners 
to be undertaking better stewardship projects. We are unable to 
provide adequate technical assistance so that folks can get 
through a permitting process and design process to get more 
projects on the ground. We have not even begun to scratch the 
surface, I don't believe, on replacing fish screens for 
diversions for--agricultural diversions that are directly 
threatening fish. And so we have really looked at this program 
as being the starting point for a long-term engagement where 
we're investing in key strategic ways over time that would at 
least be two life cycles of the listed fish stocks.
    Senator Smith. Have the Oregon watershed councils been able 
to leverage Federal monies, matching funds for these coastal 
salmon issues?
    Mr. Huntington. Senator Smith, the watershed councils and 
the soil and water conservation districts that are the primary 
recipients of funds all are required to at least have a 25-
percent match for any of the dollars we give. That usually runs 
more on the order of a 50-percent match, frankly, and it's not 
uncommon at all to see more money coming in from outside 
sources on any given project.
    Overall, as we run a tally, we see a ratio of about 3 to 1 
being invested by private dollars going into restoration 
activities by commercial forest industry and other private 
landowners to every public dollar that's being invested in 
Oregon right now.
    Senator Smith. Well, you've got currently budgeted $25 
million to go to the ground.
    Mr. Huntington. That's approximately what we spend each 
year on projects on the ground and activities associated with 
getting those projects on the ground.
    Senator Smith. What would those activities be? Fish 
screens?
    Mr. Huntington. The on-the-ground projects?
    Senator Smith. Yes.
    Mr. Huntington. Fish screens, fish passage barrier 
removals, push-up dams, modifying grazing practices, fencing 
and shading riparian areas, putting large woody debris in 
streams in order to improve structure of habitat, acquisitions 
of conservation easements that help improve and protect water 
quality if they're done with willing sellers and in the context 
of local community values. We----
    Senator Smith. The $25 million isn't even scratching the 
surface, then.
    Mr. Huntington. No, sir, it is not.
    Senator Smith. That's amazing.
    Mr. Blackwolf, again, thank you for coming. You're familiar 
with the success in reestablishing salmon runs in the Umatilla 
River. And I wonder if, in your view, this bill is compatible 
with those efforts. Does it support what's been done there?
    Mr. Blackwolf. Yes, sir, Senator Smith. You know, the 
Umatilla is just one of the projects that's been a success for 
bringing--putting fish back in the streams again. I don't know 
how many years the Umatilla River has been without salmon, but 
the project that the Umatilla Tribe, along with the voluntary 
work of the landowners, they got salmon back in the river, and 
people are catching salmon right in the town of Pendleton now.
    Senator Smith. Yes, they do. It's wonderful to see. I have, 
I hope you know, tried to be very supportive of the tribe there 
and their efforts to restore salmon runs, and they are really 
restored. And it's wonderful to see all these fish coming back 
onto the reservation, through the community and Pendleton. It's 
a very gratifying success story, and I'm anxious to make sure 
that there's nothing in this bill that in any way inhibits 
future successes for other tribes and other communities as we 
try and recover these stocks. So if you find anything in here 
that doesn't contribute to that end, you let me know.
    But in the meantime, we thank you all for your testimony 
today. It's been helpful to have your input on this bill. It's 
a work in progress. We will work with our Alaskan and 
Washington colleagues to make sure that its benefits are 
equitably distributed, because we're really in this together, 
and it's got to work for all if it's going to work for any.
    So thank you all for being here, and we're adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                           Donald R. Knowles

    Question 1. I understand that 26 runs of Pacific Salmon are listed 
as endangered or threatened under the Endangered Species Act (ESA). 
What activities has NMFS or other NOAA line offices taken under the ESA 
to restore these runs?
    Answer. The National Marine Fisheries Service (NOAA Fisheries) has 
taken numerous actions under the Endangered Species Act (ESA) to 
protect and restore the 26 Evolutionarily Significant Units (ESUs) of 
Pacific salmon that have been listed as threatened or endangered under 
the ESA since 1989 (22 ESUs were listed after 1995). The agency is 
implementing changes needed to protect and recover these fish, 
including those necessary to address human impacts from habitat 
destruction, dams, hatcheries, and harvest. NOAA Fisheries has sought 
to reduce or eliminate threats to the species as the first step towards 
recovery. NOAA Fisheries has also sought to minimize the impacts to 
affected parties and to fulfill its treaty obligations with Native 
American tribes. There is no single factor in salmon declines, and 
there is no single solution for their restoration. The recovery of 
salmon runs will be a cooperative effort involving hundreds of affected 
parties and federal, state, local and tribal governments. NOAA 
Fisheries is working with many partners to take the incremental steps 
needed to recover salmon, and those actions are reducing the 
probability of extinction. While the specific actions taken by NOAA 
Fisheries are too numerous to list in this document, a few examples are 
given below. All of these examples have led to improved salmon survival 
and will aid in future recovery of the runs.

Harvest
    The goal in harvest management since listing salmon along the West 
Coast has been to minimize the impacts to ESA listed stocks, while 
maximizing the harvest of unlisted hatchery-produced salmon in tribal, 
commercial and recreational fisheries. These changes have taken a 
variety of forms from development and ratification of the United 
States/Canada Pacific Salmon Treaty to development of tribal and state 
resource management plans under the ESA 4(d) rules for threatened 
species. These management changes will allow the rebuilding of 
depressed runs over time. A few of the changes that have been 
implemented are listed below.

Participation in the U.S. v. Oregon forum to advocate harvest 
        management reforms to limit the impact of fisheries on ESA-
        listed fish consistent with the Basinwide Salmon Recovery 
        Strategy
    The U.S. v. Oregon parties reached agreement on a 5-year, 
abundance-based harvest plan that will constrain harvest rates on 
listed salmon during the spring and summer season tribal and non-tribal 
fisheries, while encouraging increased testing and deployment of 
selective fisheries gear and methods. The fisheries target surplus 
salmon returning to hatcheries on the Columbia and Snake rivers.

Evaluation of 2 joint state/tribal resource management plans to allow 
        Washington State and all 17 Puget Sound treaty Indian tribes a 
        limited harvest of ESA-listed Hood Canal summer chum and Puget 
        Sound chinook
    The management plans have strict limits on how many salmon can be 
taken and require the state and the tribes to carry out crucial 
sampling and monitoring. The strict harvest limits, plus the wealth of 
information that will come from the state and tribes over the next 2 
years, will help fishery scientists better understand the Sound's 
salmon populations and improve the fishes' chances of recovery.

Approval of an innovative fisheries management and evaluation plan for 
        Willamette Basin spring chinook fisheries
    This fisheries management and evaluation plan, developed in 
coordination with the Oregon Department of Fish and Wildlife, helps 
recover Willamette Basin spring chinook, while allowing fishers to 
catch a higher number of hatchery-produced chinook than in the past.

Evaluation of a tribal resource management plan for managing spring 
        chinook in the Imnaha River in 2001
    This plan, developed in coordination with the Nez Perce Tribe and 
the State of Oregon, ensures that important tribal and recreational 
fisheries in northeast Oregon can take place while still protecting 
listed salmon.

Implementation of provisions of the Sustainable Fisheries Act of 1996 
        for commercial and recreational salmon fishing off the West 
        Coast
    The agency proposed Amendment 14 to the fishery management plan, 
took comments, and published the final rule. Provisions included 
descriptions of essential fish habitat, a new definition of 
overfishing, and new bycatch provisions. The amendment also addressed 
revisions to management objectives for a number of key salmon 
populations, and changed some fishery allocation rules.

Completion of the 1999 United States/Canada Pacific Salmon Treaty and 
        related ESA section 7 consultation
    Completion of the 1999 United States/Canada Pacific Salmon Treaty 
and related ESA section 7 consultation resulted in an abundance-based 
fishery management scheme that limits impacts to ESA listed salmon 
runs. The ESA consultation included an evaluation of the impacts of 
Canadian fisheries on listed runs, and it was determined that the 
United States and Canadian fisheries would not jeopardize the continued 
existence of the listed runs along the West Coast.

Habitat
    The destruction or modification of habitat has been one of the 
major factors leading to the long-term decline in salmon populations. 
Habitat will also take the longest to restore and recover. NOAA 
Fisheries has developed three major target areas for habitat protection 
and recovery: (1) ESA section 7 consultation on actions that affect 
habitat; (2) development of agreements (Habitat Conservation Plans) 
with private landowners to protect and restore habitat; and (3) funding 
of restoration projects through the Pacific Coastal Salmon Recovery 
Fund.
    NOAA Fisheries has completed thousands of informal and formal ESA 
section 7 consultations on actions that may affect listed salmon. NOAA 
Fisheries has sought to minimize the number of individual consultations 
that are conducted and has focused on development of programmatic 
consultations for a variety of activities. One programmatic 
consultation can negate the need for hundreds of individual 
consultation actions.
    An example of programmatic consultation is the completed biological 
opinion covering 15 categories of permit actions regulated by the Army 
Corps of Engineers (Corps). Many of the most severe and direct adverse 
impacts to salmon habitat occur as a result of dredge and fill 
activities, channel modifications, bank stabilization, and in-channel 
construction. Most of these activities require a Clean Water Act 
section 404 permit issued by the Corps. This is a federal action 
requiring ESA section 7 consultation when the results may affect listed 
species or their critical habitat. Application of the programmatic 
biological opinion will dramatically improve NOAA Fisheries' 
effectiveness in implementing the ESA by streamlining the agency's 
review of hundreds of Corps permits. The new programmatic approach 
represents a significant departure from the past practice of consulting 
on each individual project, and paves the way for similar opportunities 
for NOAA Fisheries to meet its strategic goal of recovering protected 
species through cooperative partnerships with other federal agencies 
and private citizens.
    As part of the National Fire Plan, NOAA Fisheries secured 
additional staff to provide streamlined, expedited Endangered Species 
Act section 7 consultation, coordination, planning and review. These 
services support U.S. Forest Service and Bureau of Land Management 
efforts to carry out fire management projects as they implement the 
National Fire Plan. This plan responds to the extensive wildfires that 
ravaged the West during the summer of 2000. Much of forest plan work 
has the potential to affect salmon habitat, so NOAA Fisheries hired, 
trained and deployed 40 new biologists. To place these scientists close 
to where the work will occur, NOAA Fisheries opened seven new field 
offices in Salmon and Grangeville, ID; Ellensburg, WA; La Grande, OR; 
and Ukiah, Yreka, and Santa Barbara, CA.
    In August 2000, NOAA Fisheries signed the Record of Decision for 
the CALFED Bay Delta Program to restore the San Francisco Bay Delta 
ecosystem, including recovery of threatened and endangered salmon and 
steelhead, while ensuring the water supply reliability for the 20 
million water users that depend on the water exported from the Delta.
    NOAA Fisheries has completed 10 Habitat Conservation Plans related 
to industrial forestland operations, hydropower operations, and 
withdrawal of water for residential, municipal, industrial and 
agricultural use. These agreements provide for the protection of listed 
species while allowing the activities to continue in modified form.
    Habitat restoration is very important for the recovery of self-
sustaining salmon populations. The Pacific Salmon Recovery Fund has 
been instrumental in making this happen through a variety of activities 
such as watershed planning, land acquisition, fish passage, road, 
riparian and water quality improvement, or through monitoring 
activities. NOAA Fisheries acts as the granting agent for the funds and 
provides limited project oversight. The Memoranda of Understanding with 
the funded entities outline the types of projects to be funded, and 
NOAA Fisheries is working cooperatively with the states and tribes on 
monitoring and evaluation of the funded projects.

Dam Operations (Hydro)
    Many actions have been taken to minimize the impact of dams and 
hydropower operations on listed salmonids. The largest of these actions 
was completion of the ESA section 7 consultation on the Federal 
Columbia River Power System in December 2000. The resulting biological 
opinion and accompanying ``Basinwide Salmon Recovery Strategy'' will 
help guide the operation of the hydropower system, as well as all 
actions taken to recover salmon in the Basin over the next 10 years. 
The resulting strategy is practical and comprehensive, and places the 
highest priority on those actions likely to produce the greatest 
benefit for the broadest range of species throughout the Basin. A 
central feature of the strategy is the establishment of explicit, 
scientifically-based performance standards to gauge the status of 
salmon and the success of recovery efforts. Progress will be measured 
against those standards in 5, 8 and 10 years to determine if more 
aggressive recovery efforts--including breaching of 4 lower Snake River 
dams--will be necessary.
    Other Hydropower actions include the following.

  <bullet>  NOAA Fisheries reached agreement on McKenzie River 
        (Willamette River Basin) hydro project operations. After more 
        than a decade of discussion, litigation and negotiation, NOAA 
        Fisheries, other federal agencies, and licensee Eugene Water 
        and Energy Board reached a settlement agreement. It resolved 
        outstanding issues at the Leaburg-Walterville Project. This 
        project is on the McKenzie River, a major tributary to the 
        Willamette River and stronghold of the remnant upper Willamette 
        River chinook salmon ESU, listed as threatened under the 
        Endangered Species Act. The agreement included construction of 
        passage facilities that will significantly reduce deaths of 
        migrating juvenile chinook, and optimize passage of adult fish 
        through the project.

  <bullet>  NOAA Fisheries signed a settlement agreement resolving a 
        lawsuit under the Endangered Species Act related to Savage 
        Rapids Dam on the Rouge River. NOAA Fisheries had been involved 
        for 6 years in negotiations and litigation to improve fish 
        passage at Savage Rapids Dam. The settlement requires Grants 
        Pass Irrigation District to stop using the dam for irrigation 
        by November 1, 2005, and to use properly screened electric 
        pumps instead. Removal of the dam will occur as soon as federal 
        authorizing and funding legislation is enacted.

  <bullet>  NOAA Fisheries signed an agreement protecting listed salmon 
        affected by the North Umpqua Hydroelectric Project. This 
        project, owned by Scottish Power, is on the west side of the 
        Central Cascade Mountain Range in southern Oregon. The North 
        Umpqua River has a 34-mile reach of wild and scenic river below 
        the project area, which contains 6 populations of wild salmon 
        and trout, including ESA-listed coho. For the past 2 years, 
        Scottish Power, NOAA Fisheries, the U.S. Forest Service, U.S. 
        Fish and Wildlife Service, Bureau of Land Management, State of 
        Oregon Office of the Governor, and Oregon Departments of 
        Environmental Quality, Fish and Wildlife, and Water Resources 
        participated in consensus-based negotiations that culminated in 
        the signing of the North Umpqua Settlement Agreement. During 
        the process, the parties first negotiated resource management 
        goals to set standards an agreement would have to meet. Both 
        environmental resources and power generation concerns were 
        protected under this agreement.

  <bullet>  NOAA Fisheries Northwest Fisheries Science Center is 
        conducting pre-project monitoring for removal of the Elwha 
        River Dam on the Olympic Peninsula in Washington State. This 
        monitoring will not only provide information on the effects of 
        the dam removal on the Elwha River, but will also provide 
        valuable research on how rivers respond to changes in sediment 
        loads and flow.

Hatcheries
    Pacific salmon hatcheries have been in operation for over 100 
years. In the past they have predominantly been operated to maximize 
production of fish to satisfy tribal treaty obligations, mitigate for 
other impacts on habitat, or to provide for commercial and recreational 
fisheries. With the ESA listing of salmon, significant changes are 
being undertaken to minimize the impacts that production hatcheries 
have on listed wild runs, while also developing hatchery programs for 
conservation of severely endangered runs, and supplementation programs 
to boost production of wild runs.
    One of the major changes will be the development of Hatchery 
Genetic Management Plans (HGMPs) for all hatchery operations. These 
HGMPS will guide hatchery operations and ensure that they do not 
interfere with recovery of listed wild runs. NOAA Fisheries will also 
be developing guidance in late 2002 on the use of hatcheries to aid in 
the recovery of wild salmon runs.
    NOAA Fisheries has worked on several gene conservation hatchery 
programs to help prevent the extinction of salmon runs. For example, 
the Snake River sockeye captive brood program, and the Lyons Ferry fall 
chinook program both have been instrumental in maintaining the genetic 
resources of endangered runs. This will allow the runs to be rebuilt 
after other recovery actions are taken to secure habitat and prevent 
mortality. The Snake River sockeye run has increased from near 
extinction up to 250 fish in 2001. The Snake River fall chinook run has 
increased from 78 individuals in 1990-1991 into the thousands over the 
past few years. Both of these programs have preserved options for 
future recovery.

Research and Monitoring
    NOAA Fisheries has developed an extensive research and monitoring 
program that is carried out by the Northwest and Southwest Fisheries 
Science Centers. A variety of projects are being conducted on tasks 
evaluating the efficacy of different habitat restoration techniques, 
the use and importance of estuaries for juvenile salmon, the growth and 
survival of salmon in the Columbia River plume and ocean environments, 
the passage of fish through dams and migration through the Columbia and 
Snake rivers, and the role of salmon carcasses in providing nutrients 
for juvenile fish production.
    As part of the implementation of the FCRPS Biological Opinion, NOAA 
Fisheries has begun implementation of a research, monitoring, and 
evaluation (RM&E) program. The RM&E program will provide the scientific 
information necessary to assess whether the Biological Opinion's 
performance measures are being achieved at the 2003, 2005, and 2008 
check-ins.
    Salmonid populations in California are at the southern extent of 
their natural range where environmental conditions (e.g., warm 
temperatures, Mediterranean climate and arid conditions) are marginal 
for them to exist. Consequently, their life history and population 
dynamics are different from those of the Pacific Northwest. Internal 
funds of NOAA Fisheries are being used to support cooperative research 
with academic institutions, the California Department of Fish and Game, 
and private industry on a wide variety of issues to guide the recovery 
process. For example, stream ecologists are monitoring population 
levels and habitat conditions, describing different life history 
strategies and competitive interactions between wild and hatchery fish. 
This information supports population modelers that are assessing the 
risk of extinction and the impacts of ocean harvest. Population 
geneticists are determining population structure of steelhead trout and 
chinook salmon needed to guide recovery planning, and economists are 
conducting studies to predict the economic effects of habitat 
restoration and regulatory impacts to commercial fisheries. Very little 
is known about the ocean and estuarine ecology of juvenile chinook 
salmon, and the potential for that knowledge to identify mortality 
factors to guide restoration and recovery. To that end scientists are 
investigating habitat use, growth, feeding, condition and survival in 
relation to production source (hatchery versus wild, natal stream and 
spawning date) in the Gulf of the Farallones and San Francisco Bay.
    An example that ties many of these actions together has occurred in 
the Central Valley of California. When Sacramento River winter-run 
chinook salmon were downgraded from threatened to endangered in 1994, 
returns had dropped to as low as 189 adult spawners in a single year. 
Numbers have stabilized at significantly higher levels (average 2,500) 
over the last 6 years. Actions taken include curtailment of incidental 
take in ocean salmon fishery, implementation of the Biological Opinion 
for the Central Valley and State Water Projects, fish passage 
improvements, construction of major new fish screens at large river 
diversion dams, reconfiguration of dams that impeded passage, 
temperature control on the spawning grounds, and a carefully managed 
artificial supplementation program.

    Question 2. In his testimony, Don Knowles, Director, Office of 
Protected Resources, National Marine Fisheries Service, stated that the 
Agency has entered into cooperative agreements with the states and 
tribes for restoring Pacific salmon. What kind of fiscal or legal 
accountability is provided under these agreements? Please provide us 
with copies of each of the agreements.*
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Answer. Through the Pacific Coastal Salmon Recovery Fund (PCSRF), 
$258 million has been appropriated and distributed since the program's 
inception in FY 2000. The PCSRF has been distributed through 
reimbursable grants to the states of Alaska, California, Oregon, and 
Washington; Tribal Fisheries Commissions; and through the Bureau of 
Indian Affairs for individual tribal governments. The grants to the 
states and Tribal Fisheries Commissions are based upon signed Memoranda 
of Understanding (MOUs) and standard grant provisions under NOAA 
Financial Assistance Awards. The MOUs outline the framework and 
criteria for transferring the funds to the states and tribes and for 
funding eligible projects within each state and tribal government. 
Specifically, the MOUs outline the types of funded activities, the 
process for project selection and review, the criteria for project 
selection, and reporting and monitoring requirements. For individual 
tribal funds not under MOUs, proposals are reviewed by NOAA Fisheries 
to ensure the projects meet PCSRF objectives. Funding to the states has 
a 25 percent non-federal matching requirement and limits the states to 
3 percent for administrative expenses. Funded entities are required to 
monitor projects and report annually to NOAA and Congress on the 
results of their recovery activities and the overall program. Copies of 
the signed MOUs for all entities and an example of the NOAA Financial 
Assistance Award for the State of California are attached.
    In January 2002, NOAA Fisheries hosted a workshop in Portland, 
Oregon, to discuss implementation of the Fund. The two needed 
improvements that were recognized at the workshop were the need for a 
more coordinated monitoring and evaluation component, and for 
coordinated reporting of project activities. During this year, NOAA 
Fisheries has worked with the states and tribes to improve these 
aspects of the program. A follow-up workshop is planned for December 
2002 in Seattle, Washington.
    MOUs are currently in place for the following entities and are 
attached for review: The states of Alaska, California, Oregon, and 
Washington; the Columbia River Inter-Tribal Fish Commission; the 
Northwest Indian Fisheries Commission; and the Klamath River Inter-
Tribal Fish and Water Commission. Grant proposals are submitted on an 
annual basis after PCSRF appropriations are made by Congress. Grants 
for the PCSRF are issued as Financial Assistance Awards by the NOAA 
Grants Office, similar to other NOAA grant programs, which include 
routine government accountability provisions established by law, OMB 
circulars, and NOAA provisions. Funds are dispersed to the states and 
tribes on a reimbursable basis, and all work must be conducted in 
accordance with the terms and conditions of the Financial Assistance 
Awards, consistent with the MOUs.

    Question 3. Additionally, the Committee requests documentation* of 
all endangered and threatened Pacific salmon-related projects funded by 
NMFS (including but not limited to funds from the Pacific Salmon 
Recovery Fund) for FY 2000-2002; including project name, location, 
principal investigator contact information, the approximate starting 
and end dates of each project, the goals and results of each project, 
and the amount of funding received through NMFS for each year.
    In the event such detailed information is not readily available 
from NMFS, the Committee respectfully requests that the Agency obtain 
the information, compile it and submit it to the Committee for review, 
as soon as possible but not later than September 1, 2002.
    Answer. A copy of the FY 2000-200l PCSRF report and a detailed 
listing of PCSRF projects is attached. A majority of the funds expended 
by NOAA Fisheries on Pacific salmon recovery projects are funded 
through the PCSRF. A description of the other ESA salmon recovery 
programs conducted directly by NOAA Fisheries and the funding 
associated with these programs is attached. In FY 2002, NOAA Fisheries 
expended $37.95 million on Pacific salmon programs related to recovery, 
regulation, risk management, population dynamics, habitat assessment, 
enforcement, and legal support.

    Question 4. Section 6 of the Endangered Species Act provides for 
Cooperative Agreements between the Agency and the States to collaborate 
on restoring threatened and endangered species, and sets forth 
criteria, under which funds should be allocated to states based on need 
and threat. Are the expenditures of funds under the Pacific Salmon 
Recovery Fund for endangered species governed by ESA section 6 
cooperative agreements? Please tell us which states have ESA section 6 
agreements governing Pacific salmon, and provide copies of each 
agreement. For States with no agreements, please explain why and 
indicate when such agreements will be completed.
    Answer. The expenditure of funds through the Pacific Coastal Salmon 
Recovery Fund is not governed by ESA section 6 cooperative agreements. 
Instead, consistent with congressional direction, the distribution of 
the funds is governed by MOUs between the funded entities and NOAA 
Fisheries. NOAA Fisheries does not have line item section 6 funding for 
Pacific salmon.

    Question 5. Over the past 3 years, hundreds of millions of dollars 
have been spent on the recovery of Pacific salmon. What progress has 
been made in recovering salmon stocks with the funds from the Pacific 
Salmon Recovery Fund? How is the success of individual projects tracked 
and evaluated?
    Answer. Recovery actions specifically tied to funding from the 
PCSRF are helping the recovery of Pacific salmon stocks. Since the 
inception of the Fund, over 800 projects have been completed. These 
projects will be reported to the Committee soon. These actions range 
from single projects to remove fish passage barriers and reduce 
sediment inflow to streams to larger projects which include monitoring 
of habitat and populations. The state and tribal governments that 
receive the PCSRF funds are responsible for individual project tracking 
and evaluation as part of the MOUs between the groups and NOAA.
    PCSRF projects are being tracked and evaluated at many different 
levels of detail and for a variety of purposes. The development of a 
consistent and coordinated monitoring and evaluation effort was 
highlighted as a major need at the PCSRF workshop convened in January 
2002, and NOAA Fisheries is working with the states and tribes to 
improve this portion of the program. Many of the states and tribes are 
currently developing their own monitoring and evaluation programs, and 
NOAA Fisheries is working with them to coordinate the programs and 
facilitate basin-level monitoring of Pacific salmon, including trends 
in abundance and habitat quality.
    The tracking of recovery of Pacific salmon involves much more than 
the tracking and evaluation of individual projects. As part of the 
FCRPS Biological Opinion and Basinwide Salmon Recovery Strategy, 
federal, state and tribal partners are implementing a monitoring and 
evaluation program in which monitoring will occur at a variety of 
spatial scales to monitor regional salmon population abundance, the 
link between salmon populations and habitat, and the effectiveness of 
individual recovery projects. This monitoring will determine if the 
established Biological Opinion performance standards for the Basin are 
being achieved at the 2003, 2005, and 2008 check-ins. As a first stage 
in this effort, NOAA Fisheries is currently working with the State of 
Oregon to implement a pilot monitoring program in the John Day River 
Basin in Oregon. Results of this pilot program will be applicable to 
the assessment of populations coastwide.

    Question 6. How are the 4 H's needed for effective restoration 
(habitat, harvest, hatcheries and hydropower) being addressed by each 
state and tribe? If all 4 H's are not being addressed by each state and 
tribe, please let us know which is being addressed and explain why.
    Answer. The states and tribes are addressing all 4 H's based on 
their assessment of salmon conservation priorities at the regional and 
local scale--they choose those projects that address the factors most 
limiting salmon recovery. Every state has a program to administer the 
funds as supported by testimony from the state representatives at the 
May 14, 2002, hearing on S. 1825. The tribal governments also have 
salmon conservation programs. For example, the Columbia River Inter-
tribal Fisheries Commission has developed WY-KAN-USH-MI WA-KISH-WIT to 
guide salmon recovery for their member tribes.
    In the Columbia River Basin, all 4 H's were important factors in 
the decline of listed salmonids, and all are being addressed by the 
states and tribes in recovery planning and implementation as part of 
the Basinwide Salmon Recovery Strategy. However, for Oregon Coast coho 
and most California Coastal ESUs, hydropower did not play as important 
a role in species decline as did habitat degradation, over-harvesting, 
and negative hatchery interactions. In these areas, non-hydropower 
actions are the focus of current recovery efforts. Alaska faces yet a 
different set of circumstances where listed salmon occur in commercial 
fisheries. In this case, Alaska has reduced fishing mortality on listed 
stocks (harvest), and is working to monitor, protect and prevent future 
degradation of habitat and future ESA listings.

    Question 7. Please explain the prospects and timetable for recovery 
of Pacific salmon to sustainable harvestable levels and how the agency 
will track recovery. Please report recovery progress to Congress.
    Answer. The recovery (delisting) of all 26 listed ESUs of Pacific 
salmon will be a monumental task. It took decades to get to this point 
of severely reduced fish populations, and it will take years to build 
them back up. With the three-to-five-year life cycle of most salmon, it 
will take at least several salmon generations before we can be sure 
recovery has been achieved. While it is a monumental task, it is 
achievable, as long as the long-term management systems are put in 
place to protect, recover, and maintain the species. On the whole, over 
the past 2 years salmon populations have shown increases in abundance. 
Much of this is due to a return of favorable ocean conditions along the 
West Coast, while some of the increase in spawning numbers can be 
attributable to improved salmon management.
    Currently, NOAA Fisheries is developing recovery plans for all of 
the listed ESUs. This process will be completed for the first recovery 
area (Puget Sound, Washington) by 2004, and we intend to complete 
recovery planning for all other ESUs by 2007. These recovery plans will 
present the status of the species; objective, measurable criteria for 
when the species will be recovered; and the specific actions that need 
to be taken to achieve recovery. The plans will include a monitoring 
and evaluation section and a description of how the agency will track 
recovery. Attached is a detailed table showing the schedule for 
developing and implementing recovery plans for each ESU (see response 
to question 12).
    An initial glimpse of the strategy that will be used to recover 
salmon in the Columbia River Basin can be seen in the Federal Caucus' 
Basinwide Salmon Recovery Strategy that was released in conjunction 
with the Biological Opinion on operation of the Federal Columbia River 
Power System in December 2000. The strategy outlines the actions that 
will be taken from 2000-2010 to recover salmon populations in the 
Basin. The strategy also outlines a research and monitoring program 
that included performance measures for gauging success of recovery 
efforts. These performance measures will help track the status of 
salmon populations over time, as well as the implementation of specific 
actions and the effectiveness of these actions in achieving their 
goals.
    NOAA Fisheries is currently evaluating current population levels 
coastwide by conducting status reviews for 24 listed ESUs of Pacific 
salmon as part of our response to the Alsea Valley Alliance v. Evans 
district court decision. These status reviews will analyze the risk of 
extinction of each ESU and determine if the species still warrants 
protection under the ESA. The updated status reviews are scheduled to 
be completed in late 2002 and early 2003 and will document if the 
declines in the runs have been halted and whether some of the runs have 
increased in abundance since listing.
    The most recent NOAA Fisheries Endangered Species Act Biennial 
Report to Congress (1998-2000) contains the recovery progress for 
listed salmon ESUs.

    Question 8. How does the funding for Pacific Salmon compare with 
funding provided for other protected species managed by NOAA Fisheries?
    Answer. The FY 2002 appropriations for NOAA Fisheries Protected 
Resources Research and Management under the Endangered Species Act and 
the Marine Mammal Protection Act totaled $143.6 million. Of this total, 
$37.9 million, or about 26 percent, is for ESA recovery of Pacific 
salmon. In addition, Pacific salmon received $130 million in pass-
through funds: $110 million of PCSRF funds to the states and tribes, 
and $20 million to the Pacific Salmon Commission for the 1999 U.S./
Canada Pacific Salmon Treaty Agreement stipulations.
    The amount of funding for Pacific salmon is driven by the magnitude 
and the urgency of the salmon crisis. Many recovery activities are 
occurring in an enormous land area and are influenced by numerous 
stakeholders including tribal, urban, agriculture, forestry, 
environmental and industrial interests. The 26 ESUs currently listed as 
threatened or endangered throughout the West encompass an area of 
159,000 square miles, or about 40 percent of the land area of the 
states of Washington, Oregon, California, and Idaho, and the 26 ESUs of 
Pacific salmon represent half of the 52 ESA listed species under NOAA 
Fisheries jurisdiction. The Pacific salmon listings have regional, 
national and international importance through their effect on rural and 
urban development, the production of electricity, timber and 
agricultural commodities, their importance to tribal, recreational and 
commercial fisheries, and their iconic status in the Northwest.

    Question 9. What administrative and review processes are in place 
to ensure that the legal and technical requirements under the ESA for 
Pacific salmon are being met by the states and tribes who are receiving 
Pacific Salmon Funds?
    Answer. See the response to question 6, above, for information on 
how the states and tribes select PCSRF projects. The FY 2000 
Appropriations Conference Report (H. Rept. 106-479, page 12301) 
encouraged the development of the MOUs with the states and tribes and 
that the MOUs would not require NOAA Fisheries approval of individual 
projects, but would define recovery strategies for projects. The FY 
2001 and FY 2002 distribution of funds were based upon the MOUs 
developed for the FY 2000 funding year. Per Congress' direction, NOAA 
Fisheries did not maintain direct oversight of each individual project. 
Instead, NOAA Fisheries worked with the funded entities on development 
of the MOUs and is collaborating with the states and tribes to review 
and improve the program where needed. The MOUs include provisions to 
ensure that legal and technical requirements of the ESA are being met. 
NOAA Fisheries scientists participate in the technical review of 
projects, and ESA section 7 consultations are conducted by NOAA 
Fisheries biologists on projects that affect listed species. PCSRF 
funds are issued through NOAA Financial Assistance Awards which include 
standard administrative and legal requirements for any pass-through 
funds. When awarding funds to individual projects, the states are also 
subject to standard legal and administrative requirements under their 
respective state grant provisions. The states and tribes are required 
to annually report their funding expenditures and program performance 
to NOAA. A report on FY 2000-2001 PCSRF activities is attached.*
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.

    Question 10. Witnesses from the States indicated that federal funds 
from the Pacific Salmon Recovery Fund are used to leverage state funds 
for salmon restoration projects. Please describe procedures, if any, 
the Secretary has put in place to ensure that funds distributed are not 
vulnerable to charges of waste, fraud, or abuse. How does the Secretary 
determine whether a use of funds is appropriate? Please provide the 
criteria used by the Secretary. If none exists, please explain why.
    Answer. The Secretary utilizes the MOUs between the states and 
tribes and NOAA Fisheries, along with the Financial Assistance Awards 
to ensure that funds are not vulnerable to waste, fraud, and abuse. The 
MOUs outline the project selection, reporting and monitoring 
requirements that must be followed in order to receive PCSRF funds. 
PCSRF funds are issued through NOAA Financial Assistance Awards which 
include standard administrative and legal requirements for any pass-
through funds. The grants require the states to leverage a minimum of 
25 percent cost match for funded projects. The states greatly exceeded 
the match requirements in FY 2000-2001 and in many cases have provided 
100 percent match to the federal funds. The MOUs for each of the states 
and Tribal Fisheries Commissions are attached.

    Question 11. Are the funds from the Pacific Salmon Recovery Fund 
provided to Alaska, Washington, Oregon, and California used for 
recovery activities not directly related to ESA-listed runs of Pacific 
Salmon? If so, please describe the activities.
    Answer. A portion of the PCSRF funds is used for non-listed salmon 
species. For example, there are no salmon species listed under the ESA 
that spawn in Alaskan waters. However, Alaska receives a portion of the 
PCSRF funds. The MOU with Alaska outlines that the funds are to be used 
for salmon habitat and stock research and monitoring, habitat 
stewardship and restoration, increasing economic opportunities for 
Southeast Alaska fishers, and cooperative projects with other Pacific 
Northwest states, Treaty tribes, and Canada. Many of the projects 
conducted in Alaska are preventative in nature, in that they are 
seeking to develop monitoring programs to track salmon abundance and 
habitat quality to prevent degradation. Projects conducted in Alaska in 
FY 2000 included: conducting habitat assessments, funding watershed 
councils, salmon research and monitoring, developing salmon processing 
infrastructure and salmon marketing, and public education. While one of 
the factors used to prioritize the distribution of funds by the states 
is the presence of ESA listed runs, it is not the only factor used to 
determine the distribution of the funds for eligible projects. The 
activities conducted to help monitor and improve non-listed salmon runs 
will be important in preventing future ESA listings and will help to 
increase overall salmon abundance along the West Coast.

    Question 12. Section 4(f) of the ESA requires a recovery plan to be 
developed and implemented on each listed species. I am aware that such 
plans do not exist for all listed ESUs of Pacific salmon. Please 
describe the progress and time line for completion of each plan.
    Answer. Recovery planning for Pacific salmon is a very complex 
issue involving hundreds of affected parties. The complexity of Pacific 
salmon recovery planning and the need to involve a wide variety of 
interest groups has increased the length of time needed to complete a 
recovery plan. To efficiently move through the recovery planning 
process for all listed ESUs, NOAA Fisheries has divided up the 26 
listed ESUs of salmon and steelhead into eight recovery areas or 
``domains.'' They are: Puget Sound, Willamette/Lower Columbia, Interior 
Columbia, Oregon Coast, Southern Oregon/Northern California, North-
Central California Coast, Southern California, and California Central 
Valley. Recovery planning efforts will be conducted in each domain and 
the recovery plans for each domain will address all listed salmon 
within that domain. Recovery planning for Pacific salmon will involve a 
two phase process where recovery scenarios will be developed by a group 
of science experts through a Technical Recovery Team (TRT), and 
recovery goals and actions will be determined by a fully representative 
Phase II policy group. TRTs for the first part of the process have been 
selected for six recovery domains and the remaining two TRTs will be 
selected shortly. The second phase policy groups have been established 
for the Puget Sound and Willamette/Lower Columbia Recovery domains. 
These groups are currently evaluating scenarios of salmon abundance and 
options for improving the ecosystem. The Puget Sound Recovery Plan is 
scheduled to be completed by 2004; the Interior Columbia and the 
Willamette/Lower Columbia Recovery Plans are scheduled to be completed 
in 2005. TRTs for the Upper Columbia, North-Central California Coast 
and Southern Oregon/Northern California Coast have begun work with 
emphasis on the initial tasks of identifying independent populations, 
and in many cases assembling data needed to accomplish TRT analyses for 
ESUs. The TRT for the California Central Valley Domain will soon begin 
work. The TRT for the Southern California Coast has yet to be formed; 
nominations for this team will soon be solicited. Given adequate 
funding, it is our intent to complete formal recovery planning for all 
26 ESUs by 2007.

                             Status of NOAA Fisheries ESA Recovery Planning Efforts
----------------------------------------------------------------------------------------------------------------
                                                        Phase I  Technical                       Estimated date
      Recovery Planning Domain         ESU's included      Recovery  Team    Phase II  process    of completed
                                                            established         established       recovery plan
----------------------------------------------------------------------------------------------------------------
Puget Sound.........................  Puget Sound       X                   X                   2004
                                       chinook
                                      Hood Canal
                                       Summer chum
                                      Ozette Lake
                                       Sockeye
----------------------------------------------------------------------------------------------------------------
Willamette/Lower Columbia...........  Upper Willamette  X                   X                   2005
                                       River chinook
                                      Lower Columbia
                                       River chinook
                                      Columbia River
                                       chum
                                      Upper Willamette
                                       River Steelhead
----------------------------------------------------------------------------------------------------------------
Columbia............................  Upper Columbia    X                   ..................  2005
                                       River Spring
                                       chinook
                                      Snake River
                                       Spring/Summer
                                       chinook
                                      Snake River Fall
                                       chinook
                                      Upper Columbia
                                       River steelhead
                                      Mid-Columbia
                                       River steelhead
                                      Snake River
                                       steelhead
                                      Snake River
                                       sockeye
----------------------------------------------------------------------------------------------------------------
Oregon Coast........................  Oregon Coast      ..................  ..................  2006
                                       coho
----------------------------------------------------------------------------------------------------------------
S. Oregon/N. California Coasts......  Southern Oregon/  X                   ..................  2006
                                       Northern
                                       California
                                       Coasts coho
----------------------------------------------------------------------------------------------------------------
N. Central California Coast.........  California Coast  X                   ..................  2006
                                       chinook
                                      Central
                                       California
                                       Coast coho
                                      Central
                                       California
                                       Coast steelhead
                                      Northern
                                       California
                                       steelhead
----------------------------------------------------------------------------------------------------------------
S. Central California Coast.........  South-central     ..................  ..................  2007
                                       California
                                       Coast steelhead
                                      Southern
                                       California
                                       steelhead
----------------------------------------------------------------------------------------------------------------
California Central Valley...........  Central Valley    X                   ..................  2007
                                       Spring chinook
                                      Sacramento River
                                       Winter chinook
                                      Central Valley
                                       steelhead
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                             Donald Sampson

    Question 1. Please describe the review process undertaken by the 
tribes to determine which recovery projects for the Pacific Salmon 
receive funding under the Pacific Salmon Recovery Fund.
    Answer. The Commission, on behalf of and at the direction of its 
member tribes, entered into a Memorandum of Understanding (MOU) with 
the National Marine Fisheries Service regarding the implementation of 
the Pacific Coastal Salmon Recovery Fund. The MOU outlines the process 
for project proposal and approval process. The tribes themselves decide 
which projects are priorities to meet the overall salmon recovery goals 
of the Tribe, consistent with the MOU and the tribes' goals and 
objectives outlined in the Wy-Kan-Ush-Mi Wa-Kish-Wit (the watershed-
based framework designed to restore fisheries in the Columbia River 
Basin developed by the Tribes and CRITFC staff). By the terms of the 
MOU, tribal staffs take each project proposal before their respective 
tribal governing body for review and approval before submitting the 
project proposals to the Columbia River Inter-Tribal Fish Commission 
(CRITFC) staff for review.
    To meet the MOU objectives, the CRITFC utilizes an internal 
technical team to review each project proposal from the Tribe. The 
CRITFC Science Review Team consists of the following experts: Fish 
Production Scientist, Fish Production Coordinator, Permit & Compliance 
Coordinator, Habitat Scientist, and Quality Control & General 
Coordinator. The CRITFC Review Team is charged to ensure that each 
project is consistent with (1) Congressional guidance regarding the 
PCSRF, and (2) the tribes' goals and objectives outlined in the Wy-Kan-
Ush-Mi Wa-Kish-Wit. The goals and objectives of Wy-Kan-Ush-Mi Wa-Kish-
Wit address factors limiting stock production and productivity.
    Once the Review Team has approved the project proposals, they are 
presented to the Commission for final approval. This ensures a tribal 
public process for project selection is always present. Tribal and 
Commission meetings are open to the tribal public.
    After the Commission approves the projects, the CRITFC enters into 
sub-recipient agreements with each Tribe that incorporates funding 
criteria consistent with the goals and objectives of the PCSRF. Tribal 
sub-recipient agreements provide project proposal, reporting, and 
monitoring and evaluation criteria to ensure that tribal activities and 
projects funded through the MOU are consistent with Congressional 
intent to advance salmon recovery efforts.
    The CRITFC requires that all sub-agreements include the stipulation 
that project actions that may affect ESA-listed populations cannot 
commence until an ESA-related review process has been completed with 
NMFS. All applicable local, state and federal permitting requirements 
must also be met, as appropriate.
    Staff at each Tribe prepares semi-annual reports on the projects 
they have implemented under the PCSRF and identify progress towards the 
stated objectives. Projects are subject to an annual evaluation by 
tribal and CRITFC staff, and by the Commissioners. The evaluation is 
done to determine whether project modifications are necessary (adaptive 
management), or whether the project should be suspended or terminated 
due to its failure to meet anticipated goals and objectives identified 
during the project selection process.
    Each project developed by tribal or CRITFC staff includes a 
description of the measurable benefit or value, immediate or 
anticipated, of the planned activity in addressing factors limiting 
production or productivity of salmon stocks. In some cases this is as 
simple as a description of the number of miles of riparian area to be 
restored in a project area and the anticipated increase in the 
productive capacity of the habitat for spawning or rearing for a salmon 
population. In other cases, projects reflect the expected long-term 
increase in natural spawners returning to a river as a result of a 
tribal supplementation project. In each case however, the projects are 
evaluated for consistency with the Wy-Kan-Ush-Mi Wa-Kish-Wit, and 
measured against the tribal goal of restoring healthy, self-sustaining 
runs of salmon throughout their former range in sufficient numbers to 
provide for sustainable tribal and non-tribal fisheries.

    Question 2. Please describe all salmon recovery projects undertaken 
by the tribes, using funds from the Pacific Salmon Recovery Fund. The 
Committee requests documentation* of all endangered and threatened 
Pacific salmon-related projects funded from the Pacific Salmon Recovery 
Fund; including project name, location, principal investigator contact 
information, the approximate starting and, if applicable, end dates of 
each project, the goals and results of each project, and the amount of 
funding received from NMFS for each project, each year.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Answer. See attached PCSRF Annual Report, pages 10 through 25, for 
all specific project information such as funding levels, start and end 
dates, project summaries, work accomplished and the benefits to salmon. 
See each Tribe's progress reports for each PCSRF project following the 
summary sheets for specific contact information for each project.

    Question 3. What progress has been made in recovering salmon stocks 
with the funds from the Pacific Salmon Recovery Fund? How is success of 
individual projects tracked and evaluated?
    Answer. Pages 10 through 25 of the attached PCSRF Annual Report,* 
clarify the accomplishments for each PCSRF project, along with the 
specific benefits to salmon stocks. As a result of the PCSRF, 
significant progress has been made in making salmon rearing and 
spawning habitat available, recovering riparian areas, improved fish 
passage conditions, increased salmon stocks, coordination of salmon 
restoration objectives and providing research to improve guidance of 
various salmon restoration efforts.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Individual projects are regularly tracked and evaluated by the 
project managers, the Fish and Wildlife Committees for each Tribe, and 
by the PCSRF Project Implementation Coordinator at CRITFC. Detailed 
progress reports are required for each project biannually to CRITFC. 
The CRITFC Coordinator prepares a Semi-Annual Report (December 31st), 
and Annual Report (May 31st), each year for NMFS.

    Question 4. How are the 4 H's needed for effective restoration 
(habitat, harvest, hatcheries and hydropower) being addressed by the 
Tribes? If all 4 H's are not being addressed, please let us know which 
is not being addressed and explain why?
    Answer. The question appears to be directed at broad-based salmon 
recovery efforts, not just those projects funded through the PCSRF. For 
the Columbia River Basin, there is only one plan that considers all of 
the salmon's lifecycle (4 H's) and that is the tribal salmon recovery 
plan: Wy-Kan-Ush-Mi Wa-Kish-Wit. Under the Northwest Power Planning and 
Conservation Act, the four state Northwest Power Planning Council 
(NWPPC) is responsible for overseeing the development and 
implementation of a Fish and Wildlife Program to mitigate for the 
impacts of the Federal Columbia River Power System. This Program is 
supposed to be based upon the input and expertise of the tribes, 
states, and federal fish and wildlife agencies. The Bonneville Power 
Administration (BPA) is responsible for funding the Council's program. 
After the ESA listings for salmon in the early 1990s, the BPA began to 
refocus its attention more narrowly on ESA-listed stocks, to some 
extent to the detriment of a more comprehensive program supported by 
the tribes and states.
    There is a separate effort by the National Marine Fisheries Service 
to develop a more narrowly based recovery plan, but this has been an 
on-going effort for over a decade and a new plan is at least several 
more years in the making. In the year 2000, the National Marine 
Fisheries Service approved a Biological Opinion (BiOp) for the Federal 
Columbia River Power System (federal hydropower system) that now avoids 
jeopardy to listed salmon species through the use of extensive ``off-
site'' mitigation for the adverse impacts of hydropower operations.
    For the most part, this program under the BiOp should complement 
the Fish and Wildlife program developed by the NWPPC and should also be 
funded in large part by the BPA. Unfortunately, there are two problems: 
(1) the BPA-funded program is too narrowly focused on just ESA-listed 
populations, and (2) the BPA now believes it is not in a financial 
position that will allow it to continue funding levels already 
identified by the tribes and others as inadequate to meet treaty and 
statutory based obligations to the tribes and others.
    The FCRPS BiOp defers addressing factors limiting salmon production 
and productivity attributable to the hydropower system through the use 
of off-site mitigation. The reluctance to change the status quo 
management of the hydropower system and the failure to aggressively 
fund and implement a regionally (BPA) funded salmon habitat 
conservation and restoration program means that programs such as the 
Pacific Coastal Salmon Recovery Fund must play a larger and longer term 
role in Pacific salmon restoration.
    With regard to the tribal PCSRF projects, the Memorandum of 
Understanding between CRITFC and NMFS is limited to habitat and 
hatchery actions. Harvest and hydropower actions are funded elsewhere. 
However, several tribal projects address all 4 H's with regard to 
research, monitoring and evaluation components. Tribal projects 
currently being funded under the PCSRF are categorized as follows:

   41 percent Salmon Habitat Restoration Projects

   27 percent Salmon Enhancement/Supplementation Projects

   28 percent Salmon Research and Monitoring Projects

   4 percent PCSRF Planning and Coordination Projects

    For FY 2001, the tribal PCSRF projects were categorized as follows:

   58 percent Salmon Habitat Restoration Projects

   18 percent Salmon Enhancement/Supplementation Projects

   20 percent Salmon Research and Monitoring Projects

   4 percent PCSRF Planning and Coordination Projects

    The Committee's assistance in ensuring the effective and efficient 
use of Pacific Coastal Salmon Recovery funds would be welcomed and 
could be accomplished by this, or the next Congress through oversight 
hearings on the funding and implementation of the programs called for 
under Biological Opinion issued by NMFS for the Federal Columbia River 
Power System and on the funding and implementation of the Mitchell Act 
(Columbia River hatchery) programs.

    Question 5. Please explain the prospects and timetable for recovery 
for Pacific Salmon to sustainable, harvestable levels and how the 
tribes are tracking recovery and reporting progress to Congress.
    Answer. The implementation of this PCSRF has just begun. The 
lifecycle of salmon is 4-5 years. Most projects began implementation in 
the calendar year 2001. Actual increases in spawning would only occur 
on a few projects that outplanted adult salmon in 2001. Most other 
projects involved habitat restoration actions that would benefit future 
generations of spawning salmon. Results from this first salmon 
generation will be available starting in the year 2005.
    Currently, each Tribe tracks their salmon recovery projects and 
compares it to specific tribal recovery goals. Detailed project 
progress reports are required from each Tribe to CRITFC, and then 
compiled in Semi-Annual and Annual reports for NMFS. The tribes and 
states have begun discussions on the development of a comprehensive, 
coastwide monitoring and evaluation effort to show the benefits of the 
PCSRF. CRITFC and the tribes are very interested in demonstrating the 
benefits of the program as results become available.

    Question 6. If the Pacific Salmon Recovery Fund has leveraged non-
federal funds, please describe the source and amount of additional 
funds used for endangered and threatened runs of Pacific salmon.
    Answer. The PCSRF appropriation language did not place a non-
federal cost share requirement on the tribes. Cost share requirements 
are only for state governments. Cost share requirements on tribal 
governments would likely reduce tribal involvement in the PCSRF due to 
lack of a substantive tax base or infrastructure. However, many of the 
tribal projects have leveraged non-federal funding and the Commission 
is organizing a database to keep track of all federal and non-federal 
cost shares.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Ernest F. Hollings 
                       to Geoffrey M. Huntington

    Question 1. I understand the review process undertaken to determine 
whether a project receives funding, but please explain the process by 
which the Oregon Watershed Enhancement Board decides which projects are 
funded with state funds, and which projects are funded with federal 
funds.
    Answer. The Interagency Agreement between OWEB and NMFS (now NOAA 
Fisheries) governing administration of the federal funds provided to 
the State of Oregon requires that the same processes and funding 
criteria be applied to use of the federal funds that is in place in 
rule and statute governing use of state restoration dollars by the OWEB 
Board. Because of this, federal funds are integrated into the OWEB 
grant process seamlessly with State funds allowing for significant 
reduction in administrative overhead to OWEB and great simplicity and 
access to grantees.
    The bulk of state funds available to the OWEB grant program are 
constitutionally limited for use in support of on-the-ground watershed 
restoration activities and expenses associated with undertaking such 
projects. Because of this restriction on use of state funds, the OWEB 
Board uses available federal funds principally for the following 
purposes: supporting scientific assessment of watershed conditions; 
monitoring of projects, status, and trends in salmon population 
recovery; technical assistance grants to landowners; education/outreach 
efforts to K-12 students and the general public on watershed functions 
and the connection between individual actions and impact to fish and 
wildlife populations; and the creation of accessible natural resource 
data sets which support salmon recovery efforts at all levels of 
government and among members of the public. In the past, the Board has 
also used federal funds to support the capacity of local citizen groups 
to engage in voluntary restoration activities.
    Each time an installment of PCSRF has been made available to the 
state, the OWEB Board has developed a spending plan which identifies 
rough allocations of the available federal funds which the Board has 
budgeted for particular categories of expenditures mentioned above. 
That spending plan is subject to legislative review, and is discussed 
in public meetings with the involvement of both state and federal 
agency representatives (including NMFS). Once this spending plan is 
adopted by the Board, it guides the allocation of the federal funds as 
individual spending and grant decisions are considered.
    Federal PCSRF dollars provide important flexibility that enables 
the OWEB Board to support essential portions of Oregon's plan for 
achieving restoration of salmon runs and watershed health. By 
seamlessly integrating the use of the federal and state dollars into 
Oregon's existing infrastructure that invests in voluntary salmon 
recovery and watershed enhancement efforts, OWEB is able to 
substantially enhance the effectiveness of the Oregon Plan for Salmon 
and Watersheds as a response to listings of native salmonid runs under 
the federal Endangered Species Act.

    Question 2. Please describe the federal presence on the Technical 
Review Teams and elsewhere in the review process in Oregon for funding 
Pacific salmon restoration projects.
    Answer. OWEB's investment of public funds in restoration efforts is 
guided by a 17 member board which includes representation from 5 
federal agencies (USFS, NMFS, USEPA, USBLM, NRCS) in addition to 
representatives from each of the state's natural resource commissions, 
Native American tribes, the land grant university extension service, 
and 5 distinguished citizens from different parts of the state. These 5 
representatives of federal agencies fully participate in the Board's 
decision-making process in a non-voting capacity. These individuals are 
looked to by the voting members of the OWEB Board as policy experts on 
subject areas when investment of federal and state dollars intersect 
with the mission and technical expertise of any one of the agencies.
    Technical review of grant applications seeking federal and state 
funds from OWEB is accomplished using regional teams comprised of state 
and federal natural resource field staff with first hand knowledge of 
local conditions, people, and project specifications. These teams use 
their collective expertise to review grant applications and make 
funding recommendations to the OWEB Board. Federal agency 
representatives on the technical review teams have equal status with 
all state members of the teams and are relied upon heavily to ensure 
that funding recommendations considered by the OWEB Board reflect the 
collective judgment of all entities represented in the process.
    Finally, the Independent Science Panel which oversees and evaluates 
the scientific basis for decisions regarding implementation of the 
Oregon Plan for Salmon and Watersheds includes scientists employed by 
federal natural resource agencies. As part of their responsibility, 
these team members review and comment on the overall effectiveness of 
various program efforts (including OWEB's investment of state and 
federal dollars) in support of recovery of listed salmon stocks.

    Question 3. Please describe how activities funded through the 
Pacific Salmon Recovery Fund meet ESA requirements and ensure progress 
toward recovering the stocks.
    Answer. OWEB works cooperatively with State and Federal Agencies, 
as well as local organizations and individuals to insure that 
activities funded through the Pacific Salmon Recovery Fund meet ESA 
requirements and ensure progress toward recovering salmon stocks.
    Guidance for the planning and implementation of salmon restoration 
projects has been jointly developed by OWEB, the State Natural Resource 
Agencies, Federal Fish and Wildlife Service and NOAA Fisheries 
(formerly NMFS). This guidance starts with structured watershed 
assessments that help local organizations identify problems and 
prioritize restoration actions. The design and construction of specific 
restoration projects is also guided by jointly developed protocols. As 
a result of this guidance, many project types are permitted under the 
Section 4(d) Limits of the ESA. These Limits help reduce paperwork and 
expedite implementation of projects while assuring that they will be 
beneficial and not harmful to fish. More elaborate or multi-agency 
projects require ESA Section 7 or Section 10 review and permitting. 
Federal agencies (NOAA Fisheries, USFWS, U.S. Army Corps of Engineers) 
have worked with Oregon agencies to help clarify and appropriately 
apply the ESA requirements.
    OWEB and the State of Oregon evaluate and monitor restoration 
projects to ensure that they contribute to the recovery of ESA listed 
salmon populations. We have developed a hierarchical approach that 
evaluates individual projects for effectiveness and compliance with 
guidelines, evaluates the response of salmon stocks to restoration 
efforts within specific watersheds, and that tracks the status of 
salmon populations and their supporting habitat at the scale of the ESU 
Listing areas. Documentation for all restoration projects funded by 
OWEB using the Pacific Salmon Recovery Fund or from other sources is 
maintained in the OWEB Watershed Restoration Inventory system that 
helps provide accountability and supports coordinated planning for 
future efforts.
    The scope of the monitoring effort needed to document the status of 
salmon populations and to evaluate the effectiveness of restoration 
efforts is very large. Oregon has made an unprecedented effort to 
address this monitoring issue, creating partnerships among State 
agencies, Federal regulatory and research agencies, university 
scientists, and local organizations, structured around a common 
monitoring strategy. The Monitoring Strategy that guides and describes 
this effort has been formally adopted by the OWEB Board and State 
Natural Resource Agencies, and has been endorsed by NOAA Fisheries 
scientists and by Oregon's Independent Multidisciplinary Science Team.
    Individual research and monitoring projects that evaluate ESA 
listed species are permitted to ensure compliance with ESA 
requirements. OWEB, the Oregon Department of Fish and Wildlife and NOAA 
Fisheries have developed a system under the ESA 4(d) Limits to 
facilitate coordinated research and monitoring efforts. This allows us 
to share information and to guard against potential duplication of 
monitoring efforts. NOAA Fisheries staff in the NW Region Office in 
Portland, OR has taken a lead role in supporting this cooperative 
approach.
    By providing science-based guidance and by implementing a 
comprehensive approach to monitoring and evaluation, OWEB is confident 
that we are on the right path to ensure accountability for activities 
funded through the Pacific Salmon Recovery Fund.
References:

Oregon Watershed Assessment Manual
http://www.oweb.state.or.us/publications/wa_manual99.shtml

Oregon Aquatic Habitat Restoration and Enhancement Guide
http://www.oweb.state.or.us/publications/habguide99.shtml

Oregon Plan Water Quality Technical Guide Book
http://www.oweb.state.or.us/publications/mon_guide99.shtml

Oregon Plan Strategic Monitoring Framework
http://www.oweb.state.or.us/monitoring/index.shtml

Independent Multidisciplinary Science Team
http://www.fsl.orst.edu/imst/index.htm

OWEB Watershed Restoration Inventory
http://www.oweb.state.or.us/pdfs/wri_reports/2000ar_wri.pdf

    Question 4. Section 6 of the Endangered Species Act provides for 
Cooperative Agreements between the agency and the states so they can 
collaborate on restoring threatened and endangered species, and sets 
forth criteria under which funds should be allocated to states based on 
need and threat. Are the expenditures of funds from the Pacific Salmon 
Recovery Fund in Oregon for endangered species governed by an ESA 
section 6 cooperative agreement? Please provide a copy of the (ESA 
section 6) agreement governing Pacific Salmon. If there is no 
agreement, please explain why and indicate when such agreements will be 
completed.
    Answer. Oregon has three agreements with USF&WS under Section 6 of 
the Endangered Species Act. Oregon Department of Fish & Wildlife has an 
agreement that was signed in 1986 addressing vertebrate animals. Oregon 
Department of Agriculture has an agreement addressing plants and Oregon 
Natural Heritage Program has an agreement addressing invertebrates. 
These agreements are between the U.S. Fish & Wildlife Service and 
Oregon. The U.S. Fish & Wildlife Service does not have regulatory 
authority over anadromous fish.
    The expenditure of Pacific Coastal Salmon Recovery Fund monies is 
governed by an overarching Memorandum of Agreement and individual grant 
agreements between the Oregon Watershed Enhancement Board and the 
National Marine Fisheries Service (now NOAA Fisheries). While there is 
no ESA section 6 agreement governing Pacific Salmon, the terms of the 
MOA govern both the substantive criteria and processes applied to all 
OWEB decisions relating to expenditure of federal PCSRF dollars. 
Accountability and expectations are well defined by this agreement, as 
is assurance that the goals of federal ESA are served by Oregon's use 
of the funds.

    Question 5. How are the 4 H's needed for effective restoration 
(habitat, harvest, hatcheries, and hydropower) being addressed in 
Oregon? If all 4 H's are not being addressed, please let us know which 
is not being addressed and explain why.
    Answer. The 4 H's are being addressed by specific provisions of the 
Oregon Plan for Salmon and Watersheds.
    Harvest--Oregon developed a specific response to limit harvest to 
15 percent of escapement and adjust harvest to ocean conditions. That 
response has been implemented at great expense to the anglers and 
commercial fisheries of the state. NMFS has determined that that level 
of harvest is acceptable as ``take'' in their listing decision. The 
state has agreed to the following measures:

  <bullet>  Minimize fishery related impacts and develop a future 
        management strategy.

  <bullet>  Manage estuary and river salmon fisheries to minimize 
        impact.

  <bullet>  Manage trout fisheries to reduce ecological interactions 
        and mortality on juvenile salmonids.

  <bullet>  Adult escapement and juvenile coho salmon production 
        assessment.

  <bullet>  Assess marine survival.

  <bullet>  Establish new escapement targets.

  <bullet>  Adult escapement and juvenile coho salmon production 
        assessment.

  <bullet>  Monitor marine survival.

  <bullet>  Evaluate coho hook and release mortality.

    Hatcheries--Oregon has committed to reduce the genetic risk to wild 
populations by reducing the percentage of hatchery fish to less than 10 
percent of the total population spawning in the wild. Oregon Department 
of Fish and Wildlife is in the process of completing hatchery 
conservation management plans for all hatcheries in the state. The 
following measures are being implemented to minimize hatchery effects 
on wild fish:

  <bullet>  Reduce coastal hatchery coho smolt releases.

  <bullet>  Implement wild fish management strategies.

  <bullet>  Develop management objectives for each hatchery program, 
        including genetic guidelines.

  <bullet>  Mark all hatchery coho.

  <bullet>  Develop management objectives, including genetic 
        guidelines.

  <bullet>  Utilize hatcheries to rebuild wild runs.

  <bullet>  Use hatchery carcasses to increase coho production.

    Hydropower--Oregon participates in the federal dialog on the 
effects of hydropower on salmon. The Oregon Plan for Salmon and 
Watersheds includes specific measures to address fish passage barriers 
other than federally licensed hydropower dams. The following measures 
have been initiated:

  <bullet>  Modification or replacement of diversion dams which 
        interfere with fish passage.

  <bullet>  Cooperative removal of barriers.

  <bullet>  Require fish passage on ponds.

  <bullet>  Maintaining existing fish passage: Public interest review 
        in issuing new water rights.

  <bullet>  Watershed health funds for south coast fish screening 
        needs.

  <bullet>  Screening of water diversions greater than 30 cfs.

    Habitat--Oregon has invested more than $80 million in habitat 
restoration activities in the state since the chinook listing decision 
in 1992. The state has dedicated approximately $22 million annually for 
14 years to directly address the habitat issues in the state. The 
strategy of the state is to develop water quality plans for each basin 
in the state. Half of the state agriculture water quality plans have 
been completed and the remaining portion of the state will be completed 
in the year 2003. Oregon has developed a consistent methodology for 
addressing stream temperature that has provided leadership for the 
region. Stream temperatures have been identified as a significant 
limiting factor for many salmon populations. The state has developed a 
unique delivery of assistance through local communities. Watershed 
councils have been established throughout the state. They have been 
provided analytical tools to conduct watershed assessments that 
identify the current conditions in light of critical processes and 
historical conditions. This assists watershed councils to prioritize 
restoration projects.
    The Oregon Plan for Salmon and Watersheds includes all factors for 
decline of salmon. In 1999 Governor Kitzhaber issued an executive order 
(99-01) to expand the Oregon Plan for Salmon and Watersheds statewide.

    Question 6. Please explain the prospects and timetable for recovery 
of Pacific Salmon to sustainable, harvestable levels and specifically 
how the State of OR will track recovery and report progress to 
Congress.
    Answer. The Oregon Plan for Salmon and Watersheds approach to 
recovery of salmon has demonstrated the ability to evaluate and address 
environmental stressors across land ownership boundaries. Unlike the 
spotted owl recovery strategy, recovery must address environmental 
improvements on private lands as well as public lands. A critical 
element of the Oregon Plan for Salmon and Watersheds that has been 
statutorily placed with the Oregon Watershed Enhancement Board is the 
role of monitoring progress. OWEB has developed a cooperative 
monitoring strategy that addresses status and trend monitoring of 
salmon populations, aquatic habitat and water quality. The program has 
been incrementally implemented and has gathered data on coastal salmon 
populations for the last 6 years.
    OWEB has maintained a database of watershed restoration activities 
since 1995. This database is critical for analyzing different 
restoration strategies. OWEB has invested funds in the evaluation of 
the effectiveness of certain restoration projects. The evaluation has 
led to the development of implementation criteria for large wood 
placement and stream crossing design criteria. OWEB is currently 
evaluating the implementation of riparian restoration projects.
    As Congress was informed by the National Academy of Sciences in 
Upstream: Salmon and Society in the Pacific Northwest, ``solutions will 
not be easy or inexpensive to implement; even a holding action to 
prevent further declines will require large commitments of time and 
money from many people in many segments of society in the Pacific 
Northwest.'' The monitoring program established by Oregon will provide 
valid information on the status of salmon and assist in evaluating the 
effectiveness of recovery results. Oregon is required by law to report 
to the public on the implementation of restoration activities and their 
effectiveness on a biennial basis.
    These accountability measures along with substantial investments in 
habitat enhancement that are sustained for multiple lifecycles of 
listed stocks will together provide the opportunity for citizens of the 
northwest to reestablish watersheds capable of functioning at a level 
that can both support native salmonid runs and the region's local 
economies.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                            Laura E. Johnson

    Question 1. Explain the process by which the Washington SRFB 
decides which projects are funded with state funds, and which projects 
with federal funds.
    Answer. Washington's Salmon Recovery Funding Board (``SRFB'') uses 
appropriated state and federal funds for grants to projects or programs 
related to salmon habitat recovery. All grants, whether state or 
federal-funded, are administered under the same decision criteria to 
the extent authorized within any guidance provided by the governing 
authority. Where congressional appropriations guidance has been 
available, it is the primary guidance for allocation of federal funds 
within the overall funding process (e.g., conference notes associated 
with the FFY 2001 appropriations.) From time to time, NMFS has also 
expressed guidance as to specific activities, such as support for 
regional recovery organizations.
    After reviewing any specific congressional, legislative or NMFS 
direction, SRFB follows the processes outlined in its Memo of 
Understanding with NOAA/NMFS, for all funds. That Memo of Understanding 
provides procedural and substantive guidance to ensure that state-
selected grants (projects) using federal Pacific Coastal Salmon 
Recovery funds meet the overall intent of the congressional enactments 
and are consistent with the state processes as well. The Memo also 
provides assurances for federal ESA regulatory review of grant projects 
using the federal funds.
    After the above authorities have been applied, any remaining 
discretion as to fund placement is guided by a number of practical 
considerations. Although all projects within a category are evaluated 
on the same criteria regardless of funding source, as a selected grant 
is implemented, state or federal funds may specifically be placed in 
particular projects selected by the Board. For example, grant recipient 
sometimes express preference for state funds due to matching fund 
restrictions related to the grantee's contributions. Federal funds are 
often placed in grants that include acquisition of habitat or 
assessment and planning for restoration improvements; the regulatory 
review of these types of projects is more streamlined for the sponsors.
    Because federal funds are received on a calendar basis different 
than the state's biennial budget funding, federal funds may be 
available when state funds would not yet be, and vice versa. The Board 
uses a biennial spending plan to help guide approximate allocations of 
all funds within broad categories of use, such as projects, regional 
plan development activities, assessments, and other habitat project 
activities. All Board funding decisions are made in open public 
meetings.
    The State of Washington has maintained a significant contribution 
of state funds in this effort: almost $60 million in state funds since 
1999. The vast majority of the federal and state funds distributed by 
the SRFB are applied exclusively for on-the-ground work. The NMFS Memo 
of Understanding has limited the state SRFB's administrative use of 
federal funds to 3 percent (1 percent in prior years); state funds have 
provided any remaining administrative support. The Congress can be 
assured that Washington has not used federal funds to substitute for 
state program and administrative support for salmon habitat projects.

    Question 2. Describe the federal presence on the Technical Review 
Teams and elsewhere in the review process in Washington for funding 
Pacific salmon restoration projects.
    Answer. Washington State's Legislature created the Salmon Recovery 
Funding Board (``SRFB'') to oversee salmon habitat fund distributions. 
The SRFB is a 10-member body, chaired by a citizen appointed by the 
Governor. The Board's role is to work with the 26 ``lead entities'' 
(salmon & watershed restoration groups) to determine the best 
strategies for effective use of the state and federal funds entrusted 
to the SRFB. The Board is subject to governor and legislative 
oversight. All meetings are open to the public (participation is 
active!), and all grant-making decisions are evaluated for scientific 
and strategic merit. Federal representatives of agencies such as the 
U.S. Forest Service and NMFS frequently appear before or participate in 
SRFB-related meetings and activities. The SRFB also receives regular 
briefings and comment from the Governor's Independent Science Panel, 
five national-caliber scientists who independently offer science-based 
feedback on policy issues in salmon recovery.
    During the three grant making competitions the SRFB has 
administered since fall 1999 (using both state and federal funds), the 
SRFB has established a Technical Panel for each of the competitions. 
These Panels are not a standing or permanent group, but are assembled 
to advise the SRFB for each competition. The Panel's role is to meet 
with each of the state's 26 ``lead entities'' (watershed groups), and 
to offer general advice on recovery strategy plans and local project 
selection. Then, after each of the local groups has submitted its 
ranked list of salmon habitat proposals to the SRFB, the SRFB's 
Technical Panel reviews the lists for their relative ``Benefit to 
salmon'' and ``Certainty of success in achieving those benefits.''
    Panel composition seeks to include a variety of relevant 
disciplines and experience. As noted on its guidelines for the current 
grant competition (Fourth Round, Manual, Page 19):

        The SRFB will seek technical panel members who have expertise 
        and work experience in a variety of areas, including fish, 
        habitat and conservation biology, geomorphology, hydrology, 
        nearshore and estuarine, and watershed ecology. The Board will 
        include persons on the Panel with experience and expertise 
        relevant to eastern and western Washington ecosystems. Tribal 
        representatives and the 2 federal agencies that administer the 
        ESA (USF&WS and NMFS) will be sought for the Panel, as will 
        members from the private sector. Panel members should have a 
        good understanding of watershed functions, salmon life history 
        and associated risks, assessment methodologies, and salmon 
        recovery issues state-wide. The Technical Panel is independent 
        in the sense that team members do not represent an agency or 
        constituency and should not currently be involved 
        professionally or as a volunteer in any lead entity process or 
        a project on a lead entity list. Panel members' discussion and 
        decisions should be based only on sound scientific information 
        and principles and their best professional judgment.

        The Board will appoint up to 10 members to its Technical Panel. 
        Staff will ask for nominations or suggestions from agencies 
        (USF&WS, NMFS, NWIFC, Columbia River Inter-Tribal Fish 
        Commission, WCC, WDOE, WDNR, and WDFW), lead entity 
        participants, SRFB members and the general public. The 
        resulting list will be brought to the LEAG for review prior to 
        selection by the Board's subcommittee.

    Using this process, federal agency employees such as scientists 
from the NOAA/NMFS NW Science Center, the USDA Forest Service and the 
U.S. F&WS have participated on a SRFB Technical Panel in each of the 
past three SRFB grant competitions. Federal participation has been 
volunteered by their federal agencies at little or no cost to the 
state, for which we are most appreciative.
    After the selection review described above, all funded projects are 
required to follow applicable state and federal regulatory 
requirements. For ESA review by NMFS, Washington State has established 
and funds a dedicated position within NMFS to review SRFB-funded 
proposals. Having a dedicated resource within NMFS has assisted project 
proponents in ensuring their federal reviews proceed more swiftly, 
including coordination with other federal entities such as the Corps of 
Engineers. This dedicated resource also attends and participates in 
SRFB meetings and related work such as the state's Monitoring Strategy 
project; participates in SRFB's ``Application'' and ``Successful 
Applicants'' training workshops; keeps the agencies informed about ESA 
requirements; and answers SRFB questions and addresses issues that 
arise.
    For projects where federal permitting or ESA review is not 
required, state permitting laws usually apply. All permits or reviews, 
whether federal or state-based, must be done by the grant project 
sponsor before proceeding and before any financial reimbursements can 
be completed.
    Terminology Note: NOAA/NMFS, as part of its responsibilities under 
ESA, has established science Technical Review Teams to assist with 
developing recovery goals. The federal `` TRT '' process is exclusively 
a federal responsibility, and should be distinguished from the state 
SRFB's ``Technical Panel'' described above.

    Question 3. Please describe how activities funded through the 
Pacific Salmon Recovery Fund meet ESA requirements and ensure progress 
toward recovering the stocks.
    Answer. Activities funded through the Pacific Salmon Recovery Fund 
are subject to the ESA Section 7 consultation process due to the 
federal nexus created by this funding program. Washington's Salmon 
Recovery Funding Board cooperates with the National Marine Fisheries 
Service as the federal funding agency to determine the appropriate 
Section 7 procedures for the different types of funded activities. The 
different categories of activities that have been funded are:
    Habitat Projects--A large number and wide variety of habitat 
acquisition and restoration projects have been funded by the Salmon 
Recovery Funding Board using funds from the Pacific Salmon Recovery 
Fund. Most projects are not likely to adversely affect ESA-listed 
stocks and Section 7 consultation for those projects is addressed 
informally by the National Marine Fisheries Service as the federal 
funding agency. Section 7 consultations for projects that require 
federal permits and may have temporary adverse effects on ESA-listed 
stocks are addressed by the federal permitting agency. All projects 
that receive funding have been carefully evaluated through the SRFB's 
process for their benefit to ESA-listed stocks and to broader salmon 
recovery.
    A copy of Washington's reports on the specific projects funded is 
available on request. See also www.wa.gov/iac/salmonmain.html.
    Assessments and Studies--The assessments and studies funded by the 
Salmon Recovery Funding Board do not require additional ESA compliance 
procedures. The assessments and studies provide critical information 
needed to evaluate the feasibility, benefits and priority of potential 
habitat acquisition and restoration projects. The resulting projects, 
when funded and implemented will contribute to meeting ESA requirements 
and making progress toward salmon recovery.
    Forests and Fish--The funds for Forests and Fish are used to 
implement the Forests and Fish Report, an agreement to modify forest 
practices and restore forests to meet the habitat needs of fish, 
particularly ESA-listed fish. The actions to implement Forests and Fish 
are in the process of being recognized as meeting ESA requirements by 
the National Marine Fisheries Service. A Habitat Conservation Plan is 
being developed for long-term recognition of ESA compliance for Forests 
and Fish. Implementation of Forests and Fish is a major factor in 
meeting ESA requirements and ensuring continuing progress in salmon 
recovery.
    Regional Recovery--Federal funds have been provided by the Salmon 
Recovery Funding Board to 5 regional organizations within Washington. 
These funds are being used to develop regional salmon recovery plans 
that meet ESA requirements and can be used by the federal agencies as 
recovery plans under ESA Section 4(f). Implementation of these plans 
will be the primary local mechanism for ensuring progress toward 
recovering salmon stocks.
    Instream Flows--Half of the supplemental federal funds in 2001 ($6 
million) were passed through the Salmon Recovery Funding Board to the 
WA Department of Ecology for work to restore stream flows for fish. 
Determining and restoring adequate stream flows for fish is critical to 
meet ESA requirements and recover salmon stocks in many river basins. 
The Department of Ecology is using these funds to: help local groups in 
priority river basins evaluate flow needs for fish; provide state 
assistance to determine flow needs and implement local recommendations 
to restore flows; acquire water rights to restore flows for fish in 
critical basins; monitor flows in basins that need critical stream flow 
data; and help selected irrigation districts develop pilot water 
management plans for restoring stream flows.

    Question 4. What is the relationship of ESA Section 6 agreements, 
if any, and the Pacific Salmon Recovery Fund in Washington.
    Answer. For NMFS-administered Pacific Salmon funds to the 
Washington Salmon Recovery Funding Board, we have to date relied on the 
Memo of Understanding along with Sec. 7 consultations and the dedicated 
resource within NMFS, discussed in Question 2, above. The MOU 
incorporates the SRFB's commitment to ESA compliance and to efficiency 
and coordination of efforts for salmon restoration projects and 
programs.
    USF&WS has awarded a number of Sec. 6 grants to other entities to 
assist in development of HCPs (Habitat Conservation Plans), HCP land 
acquisition, and land acquisition to assist in the recovery of USF&WS 
listed species. These USF&WS grants support upland game and plant 
species as well as fish resources such as bull trout, and do not 
necessarily focus on addressing Pacific salmon. The grants have 
provided valuable assistance for such state-federal cooperative 
efforts, but may not, in all cases, be integrated with the full range 
of other related salmon restoration activities. It is recognized that 
the complex overlay of funding sources and regulatory requirements is 
an area for fruitful future coordination. SRFB and its partners are 
undertaking coordination efforts in this regard, for example through 
work under the Monitoring Strategy program and in cooperation with the 
regional recovery boards now under development.

    Question 5. How are the 4 H's, needed for effective restoration 
(habitat, harvest, hatcheries and hydropower), being addressed in 
Washington?
    Answer. Washington State's strategic approach to salmon recovery 
includes three geographic levels of implementation: local watershed 
management, statewide initiatives, and regional salmon recovery 
efforts. It is through these three levels of implementation that the 4 
H's of salmon recovery are being addressed.
    Local watershed management efforts focus primarily on habitat--
habitat restoration projects, habitat acquisition, regulatory 
protection as well as the habitat assessments and monitoring needed to 
prioritize and evaluate the success of recovery efforts. Many statewide 
initiatives also focus on habitat by providing a framework and support 
for local watershed management; establishing consistent approaches for 
different land use practices (e.g., Forest and Fish Agreement, Growth 
Management); and developing guidance for habitat assessments and 
monitoring.
    Salmon recovery hydropower issues in the Columbia-Snake Basin are 
dealt with through Washington's participation in the NW Power Planning 
Council and through the Governor's Office, in collaboration with state 
agencies and other constituencies. Outside the Columbia-Snake Basin, 
existing re-licensing processes (FERC, CWA) are used to address salmon 
recovery hydropower issues for larger dams while smaller dam habitat 
related issues are addressed at the watershed level.
    Hatchery and harvest recovery measures are being developed mainly 
by tribal and state agency fishery co-managers and will be integrated 
with habitat/hydro related elements at both the watershed and regional 
scale. The SRFB's administrative office also administers the federally-
created Hatchery Review Board, which is charged with researching and 
recommending improvements to hatcheries.
    Regional recovery groups will compile/integrate regional and 
watershed actions across the 4 H's into regional recovery plans that 
meet regional recovery goals and ESA recovery planning requirements. 
The regional recovery groups are locally driven and self initiated in 
collaboration with the tribes, the state, and federal services.

    Question 6. Please explain the prospects and timetable for recovery 
of Pacific Salmon to sustainable, harvestable levels and specifically 
how the State of WA will track recovery and report progress to 
Congress.
    Answer. The Technical Recovery Teams commissioned by NOAA/NMFS have 
drafted population viability criteria, i.e. recovery goals, to signal 
criteria that would be used in de-listing decisions for salmon 
populations that have been listed under ESA. At present, these draft 
criteria propose that 20 years is a minimum timeframe for measuring 
whether the number of adult and juvenile salmon is growing at a rate 
that represents an acceptable risk of extinction in the next 100 years.
    The SRFB reports on an annual basis through NMFS on its uses of 
Pacific Coastal Salmon Recovery funds, and also prepares similar 
reports to the state legislature and governor. On-line access to SRFB 
project records is available on the Internet. Grant funds are issued 
only on a reimbursement basis, and projects are tracked via a 
sophisticated computer system that notes project timelines, fiscal 
disbursements, and other control and tracking mechanisms. Project-level 
monitoring is required in most cases; larger scale monitoring efforts 
are already in place or will be adjusted to meet recommendations of the 
state's Monitoring Strategy project, due for completion by the end of 
2002. Regular state audits are performed, and all records are also 
maintained for federal audits as needed.
    The Governor's Salmon Recovery Office helps coordinate the state's 
actions and recovery plan, Extinction Is Not An Option. To achieve 
measurable improvements and progress toward salmon recovery the 
Washington Joint Natural Resources Cabinet produced in May 2000 the 
Salmon Recovery Scorecard. It is being used to monitor and evaluate the 
implementation of the State Agencies' Action Plan, and to report state 
actions for recovery. For further information, see http://
www.governor.wa.gov/esa/strategy/summary.htm.
                                 ______
                                 
 Response to Written Questions submitted by Hon. Ernest F. Hollings to
                               Frank Rue

    Question 1. The Committee requires documentation* of all Pacific 
salmon-related projects or programs funded by NMFS (including but not 
limited to funds from the Pacific Salmon Recovery Fund) for FY 2000-
2002; including project name, location, principal investigator contact 
information, the approximate starting and end dates of each project, 
the goals and results of each project and the amount of funding 
received through NMFS for each year.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Answer. The enclosed document, ``Response to U.S. Senate Committee 
on Commerce, Science and Transportation, Management of Pacific Salmon 
and S. 1825,'' lists all of the program and project specific 
information requested in this question. Briefly, these programs and 
projects are vital to the State of Alaska, its salmon, its salmon 
fishermen, and its fishing communities. Much of Alaska's economy is 
supported by fishing: commercial, recreational, and subsistence. 
Fishing accounts for 47 percent of the private sector industry jobs in 
Alaska. In addition, the recreational and subsistence fisheries provide 
food for many of the people of Alaska. Total federal funding through 
NMFS in Fiscal Years 2000 to 2002 supported nine programs totaling 
$85,692,277.
    These funds support four major areas of salmon and salmon fisheries 
in Alaska: (1) U.S./Canada Pacific Salmon Treaty Agreement and 
Amendments (Pacific Salmon Treaty, Chinook Letter of Agreement, 
Anadromous Salmon Research, and Transboundary Rivers Enhancement); (2) 
sustainable salmon and sustainable salmon fisheries (Pacific Coastal 
Salmon Recovery Fund, and Pacific Salmon Recovery Initiative); (3) 
fisheries disaster declarations (Western Alaska and Norton Sound); and 
(4) international cooperation on the management of Yukon River salmon 
(Yukon River salmon).

1. Pacific Salmon Treaty Implementation
   a. Pacific Salmon Treaty Funding--The Pacific Salmon Treaty (PST) 
        was signed in 1985 (Pub.L. 99-5, March 1985) after many years 
        of discussion between the U.S. and Canada. It was a 
        particularly difficult agreement involving, Alaska, Washington, 
        Oregon, Idaho, the Treaty Tribes of the Pacific Northwest, and 
        Canada. The PST is complex and requires many technical 
        meetings, research, and fisheries management projects for 
        effective implementation. PST funding supports participation on 
        the Pacific Salmon Commission and related committees, technical 
        and fisheries management projects primarily for chinook salmon.

   b. Chinook Salmon Assessment Letter of Agreement Funding--Chinook 
        salmon are at the heart of the PST. Of all the fisheries stocks 
        covered by the PST, only chinook stocks are shared by all. 
        These funds were provided as a result of the signing of the 
        Letter of Agreement Regarding an Abundance-Based Approach to 
        Managing Chinook Salmon Fisheries in Southeast Alaska (the LOA) 
        by Pacific Northwest states and Alaska. NMFS appropriates 
        $1,800,000 to the U.S. Section of the PSC each year. The 
        Chinook Technical Committee (CTC) of the PSC solicits, reviews, 
        and ranks proposals for work on chinook stocks that are 
        beneficial for the LOA. The money may be used to work on any 
        U.S. chinook stocks that contribute to PST fisheries, and the 
        money is distributed according to the benefits of the project. 
        Alaska's portion of these funds has been approximately 20 
        percent.

   c. Anadromous Salmon Research Funding--This program supports 
        important research on the management of the commercial salmon 
        fisheries in Southeast Alaska. Many of the fisheries in 
        Southeast Alaska are managed according to plans developed 
        within the Pacific Salmon Commission (PSC), the implementing 
        body for PST.

   d. Transboundary Rivers Enhancement Funding--Transboundary rivers 
        are those western rivers that flow from Canada through the U.S. 
        which have both Canadian and U.S., salmon fisheries occur on 
        them. Three rivers Stikine, Taku, and Alsek, located in 
        Southeast Alaska are covered under the transboundary rivers 
        provision of the PST. This program supports salmon enhancement 
        projects that benefit the fishermen of both countries. For U.S. 
        fishermen, the enhancement projects provide a replacement for 
        fish that were formerly caught solely by the U.S., but are now 
        shared as a part of the PST.

2. Sustainable Salmon and Sustainable Salmon Fisheries
   a. Pacific Coastal Salmon Recovery Funding--This program supports 
        funding for several program areas including, salmon habitat 
        stewardship and restoration, salmon research and monitoring, 
        salmon enhancement and other methods of increasing economic 
        opportunity for salmon fishermen and communities in Southeast 
        Alaska, and implementation of the Pacific Salmon Treaty. No 
        salmon that spawn in Alaska are listed as threatened or 
        endangered under the Endangered Species Act (ESA), and ADF&G 
        uses these funds to help ensure that continues to be the case. 
        A more detailed discussion of this program was provided in 
        ADF&G's letter to the Committee of August 8, 2002.

   b. Pacific Salmon Recovery Initiative Funding--This program provides 
        for Alaska's participation in the monitoring of the Columbia 
        River hydrosystem management and Pacific Northwest ESA listed 
        salmon recovery issues; Alaska's participation in discussions 
        concerning the Habitat Annex of the PST; ADF&G oversight of 
        Alaska's portion of Pacific Coastal Salmon Recovery funding; 
        and, development of sustainable salmon plans in several areas 
        of the state to ensure that Alaska salmon remain healthy and 
        sustainable. As NMFS reassesses the ESA listed salmon and 
        recovery needs of salmon in the Pacific Northwest states, the 
        State of Alaska participates in these discussions to ensure the 
        Alaskan position is adequately represented.

3. Fisheries Disaster Declarations
   a. Norton Sound Disaster Funding--In fall of 2000 the Norton Sound 
        salmon fisheries were declared a disaster due to acute salmon 
        run failure. The salmon failure was believed to be in part due 
        to changing ocean survival conditions, but several questions 
        remain as to the exact causes of the salmon shortages and the 
        potential for restored productivity. These funds support 
        research initiatives that seek to advance understanding of the 
        factors involved in Norton Sound salmon production through 
        studies of juvenile salmon and freshwater environmental 
        conditions.
     Many of the large questions that remain unanswered regarding 
        Norton Sound salmon production depend upon a better 
        understanding of the marine phase of the salmon life cycle. 
        Biological and environmental monitoring and research of the 
        nearshore and offshore marine ecosystem relative to Norton 
        Sound salmon is a large, expensive undertaking, and we have 
        moved in this direction with federal funding.

   b. Western Alaska Disaster--In the fall of 2001 Western Alaska 
        salmon fisheries were declared a disaster as salmon runs 
        failed. These funds support the goal of understanding the 
        mechanisms that control or affect the annual abundance of 
        salmon returning to Western Alaska and are used to develop 
        monitoring programs and management systems that can be used to 
        ensure sustainable populations and harvests.
     The salmon failure was believed to be in part due to changing 
        climatic and ocean conditions. While climate change is beyond 
        our control there are things government, as stewards of the 
        resource, can do to restore fisheries, to anticipate changes in 
        production, and to prepare those dependent upon the salmon 
        resource for those changes. These funds support a long-term 
        research program to address the responsiveness of the state's 
        harvest management and stock monitoring programs to changes in 
        productivity.

4. Yukon River Salmon Funding
   Yukon River Salmon--Salmon stocks originating from the Yukon River 
        in Canada have long been harvested by fishermen in Canada and 
        the United States. After 16 years of deliberation between the 
        U.S. and Canada, negotiators reached an agreement on catch 
        shares and conservation measures for Canadian-origin salmon 
        that are harvested by U.S. and Canadian fishers. This program 
        supports work and studies to: develop coordinated conservation 
        and management plans for chinook and fall chum salmon; 
        understand the composition of stocks in the various Yukon River 
        fisheries and determine the status of the salmon stocks; assess 
        and inventory wild stocks to maintain, restore, and enhance the 
        salmon runs; and, develop effective management techniques based 
        on precautionary management approaches.
    Question 2. Is there a cooperative agreement or memorandum of 
understanding regarding the funds from the Pacific Salmon Recovery Fund 
between the Agency and the State of Alaska? Please provide the 
Committee with a copy.* If there is no such agreement, please explain.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Answer. Attached are copies of the original MOU, signed in 2000, 
and the revised MOU under review by NMFS. The original MOU describes 
the State of Alaska's strategy for the efficient allocation of funds 
for projects and activities, and describes the selection process used 
to disburse the Pacific Coastal Salmon Recovery Program funds as 
directed in the Conference Report (H.R. 106-479). These funds are to be 
used for salmon habitat, research, enhancement, and implementation of 
the 1999 Pacific Salmon Treaty Agreement in and outside of Alaska. The 
MOU is being revised to address procedures appropriate to projects and 
programs specifically identified for funding by Congress.
    The MOU outlines the State of Alaska's dual purpose for these 
funds: to support both sustainable salmon and their habitat, and a 
sustainable salmon industry in Southeast Alaska. This dual purpose 
differs from the use of Pacific Coastal Salmon Recovery funds outside 
of Alaska where some salmon stocks are listed under the Endangered 
Species Act and habitat restoration is pivotal in the recovery of 
salmon.
    The State of Alaska is using these funds in Southeast Alaska to 
continue and improve sustainable salmon fisheries management and 
improve habitat stewardship, in order to prevent salmon from ever being 
listed. For Alaska, the Congressional emphasis on Pacific Salmon Treaty 
implementation is addressed by funding salmon monitoring projects as 
well as those that increase economic opportunity.

    Question 3. Please explain how the State of Alaska determines which 
projects or programs receive funding from the Alaska portion of the 
Pacific Coastal Salmon Recovery Fund.
    Answer. The State of Alaska provided the Senate and House 
Committees on Appropriations and the Senate Committee on Commerce, 
Science, and Transportation with a copy of the progress report on 
Pacific Coastal Salmon Recovery Program on September 1, 2000 
(attached). This document includes language from Congress, the Alaska 
State Legislature, the 1999 Pacific Salmon Treaty Annex, and Alaska's 
Sustainable Salmon Fisheries Policy directing the use of the funds. It 
also describes the Pacific Coastal Salmon Recovery Program in Southeast 
Alaska: its vision, mission, goals, and framework.
    In December 2000, the Alaska Department of Fish and Game brought 
together agency scientists and managers in the Divisions of Habitat and 
Restoration, Sport Fish, and Commercial Fisheries to determine the 
priorities for funding salmon habitat stewardship and restoration 
projects, and salmon research and monitoring projects in Southeast 
Alaska. A written description showing the process the department used 
to determine funding priorities in these categories is attached.
    Of the funding provided to the State of Alaska for Pacific Coastal 
Salmon Recovery in FFY00, approximately two-thirds was allocated by the 
State to salmon habitat, research and monitoring, and the remaining 
one-third was allocated to increasing economic opportunity for salmon 
fishermen and communities. The State developed a Stakeholder Advisory 
Panel in December 2000, to review all proposed projects and clarify 
program funding areas to increase economic opportunities for Southeast 
Alaska salmon fishermen and communities.
    The Stakeholder Advisory Panel recommended the majority of the 
``economic opportunity'' funding should support salmon enhancement 
projects, with additional funding for salmon marketing, education and 
infrastructure projects. Requests for project descriptions were 
publicized, then the Stakeholder Advisory Panel reviewed and 
recommended projects to the Commissioner of Fish and Game, who made 
final selections and authorized funding. Included in the attachments 
are the requests for project descriptions that were advertised.
    A similar process has been followed with FFY01 and FFY02 funding, 
with the significant change of the addition of an active Science 
Coordination Panel, involving several state and federal agencies, the 
University of Alaska, the Exxon Valdez Oil Spill Trustees Council, and 
non-governmental organizations. The Science Coordination Panel 
identifies the priority information needs/issues for salmon habitat 
stewardship and restoration, salmon monitoring, research and 
management, based on a framework and interagency gap analysis. Attached 
are drafts of the second year (FFY01) Strategy and Gap Analysis 
developed by the Science Coordination Panel. The Science Panel has 
identified priority information needs and issues for the third year of 
federal funding (FFY02) and will be conducting a further gap analysis 
to identify specific projects that should be funded. This process 
increases coordination between various state and federal agencies and 
other entities that fund or conduct salmon research in the Gulf of 
Alaska. For second year funding, the Stakeholder Advisory Panel has 
identified several salmon enhancement projects through an open public 
process. The department is also requesting education proposals and 
developing a request for proposals to conduct an economic analysis of 
the salmon fishing industry in Southeast Alaska, in order to identify 
priority infrastructure and marketing projects. In May 2002, the 
Stakeholder Advisory Panel and the Science Coordination Panel held a 
joint meeting. They recommended that additional planning be undertaken 
in the areas of enhancement, infrastructure, education, and marketing 
in order to better define goals and be able to measure progress in 
achieving those goals.
    The Department of Fish and Game's web site contains additional 
information about the Southeast Sustainable Salmon Fund, as the Pacific 
Coastal Salmon Recovery program is known in Alaska. The web page for 
the Southeast Sustainable Salmon Fund is found at www.state.ak.us/adfg. 
Further information on the program and projects that have been funded 
by Pacific Coastal Salmon Recovery funds for all states and tribes can 
be found in NMFS's April, 2000, document, ``Pacific Coastal Salmon 
Recovery Fund Report on FY2002 and FY2001 Programs'' and at the NMFS 
web site www.nwr.noaa.gov under Pacific Salmon Recovery Fund.

    Question 4. What progress has been made in recovering salmon stocks 
with the funds from the Pacific Salmon Recovery Fund? How is the 
success of individual projects and/or programs tracked and evaluated?
    Answer. The State of Alaska maintains a conservation-based 
management program for both salmon harvest and protection of salmon 
habitat, in order to ensure sustainable stocks and runs of salmon. No 
salmon that spawn in Alaska are listed as endangered or threatened 
under the Endangered Species Act, and Alaska has agreements in place 
with National Marine Fisheries Service for those listed species of 
salmon originating from outside of Alaska that are caught incidentally 
in the harvest of non-listed salmon. Pacific Coastal Salmon Recovery 
funds are used primarily to protect salmon habitat through good 
stewardship, to restore damaged habitat, to involve communities in 
salmon habitat stewardship and restoration, to ensure salmon management 
continues to provide sustainable salmon runs through monitored harvests 
and escapement, and to implement the 1999 Pacific Salmon Treaty 
Agreement.
    The success of each project is measured against the objectives of 
the project as outlined in a Statement of Work. Semi-annual reports are 
required for each project and these reports are sent to NMFS as part of 
their ongoing program review. Habitat stewardship and salmon monitoring 
and research projects all involve the collection, storing and analysis 
of measurable data. Each enhancement project has a specified measurable 
objective in adding salmon to the common property resource. The 
marketing project incorporates performance measures. The Southeast 
Sustainable Salmon program will be strengthened this year by the 
development of a strategy for a sustainable salmon industry which in 
conjunction with the sustainable salmon strategy will lay out the 
overall goals in a concrete fashion.
    During discussions with other states and tribes receiving these 
funds it was determined that funding must be maintained for multiple 
life cycles of listed stocks: a minimum of ten years of Pacific Coastal 
Salmon Recovery funding would providing a basis for measuring recovery 
because it encompasses two Chinook salmon life-cycles and about three 
coho life-cycles.

    Question 5. Please explain the prospects and timetable for recovery 
of Pacific Salmon in Alaskan waters to sustainable, harvest-able levels 
and how the State is tracking that recovery.
    Answer. Please recall that in our answer to question 4, we 
explained that no salmon that spawn in Alaska are listed as endangered 
or threatened under the Endangered Species Act, and Alaska has 
agreements in place with NMFS for those listed species of salmon 
originating from outside of Alaska that are caught incidentally in the 
harvest of non-listed salmon. Of the hundreds of stocks of salmon in 
Alaska, all except a few in western Alaska are supporting healthy 
sustainable fisheries. For those stocks in western Alaska where 
management concerns have been identified, we believe the prospects for 
recovery are excellent. Alaska has been fortunate that much of the 
habitat necessary to maintain healthy populations is intact. What is 
needed is a program to determine the population dynamics of stocks 
where we lack this information so that scientific management techniques 
can be developed and applied. Many of these studies require a minimum 
of two salmon life cycles to develop the necessary data and it would 
likely take several years to implement management programs to provide 
the sustainable, harvestable levels.
Attachments*
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
